<html>
<title> - THE PROPOSED FISCAL YEAR 2006 BUDGET</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                  THE PROPOSED FISCAL YEAR 2006 BUDGET
=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON EMERGENCY PREPAREDNESS,
                        SCIENCE, AND TECHNOLOGY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 10, 2005

                               __________

                            Serial No. 109-1

                               __________

       Printed for the use of the Committee on Homeland Security


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2005
20-053 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-00012005


                     Committee on Homeland Security

                 Christopher Cox, California, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania, Vice      Edward J. Markey, Massachusetts
Chairman                             Norman D. Dicks, Washington
Christopher Shays, Connecticut       Jane Harman, California
Peter T. King, New York              Peter A. DeFazio, Oregon
John Linder, Georgia                 Nita M. Lowey, New York
Mark E. Souder, Indiana              Eleanor Holmes Norton, District of 
Tom Davis, Virginia                  Columbia
Daniel E. Lungren, California        Zoe Lofgren, California
Jim Gibbons, Nevada                  Sheila Jackson-Lee, Texas
Rob Simmons, Connecticut             Bill Pascrell, Jr., New Jersey
Mike Rogers, Alabama                 Donna M. Christensen, U.S. Virgin 
Stevan Pearce, New Mexico            Islands
Katherine Harris, Florida            Bob Etheridge, North Carolina
Bobby Jindal, Louisiana              James R. Langevin, Rhode Island
Dave G. Reichert, Washington         Kendrick B. Meek, Florida
Michael McCaul, Texas
Charlie Dent, Pennsylvania

                                 ______

     Subcommitte on Emergency Preparedness, Science, and Technology

                    Peter T. King, New York Chairman

Lamar S. Smith, Texas                Bill Pascrell, Jr., New Jersey
Curt Weldon, Pennsylvania            Loretta Sanchez, California
Rob Simmons, Connecticut             Norman D. Dicks, Washington
Mike Rogers, Alabama                 Jane Harman, California
Stevan Pearce, New Mexico            Nita M. Lowey, New York
Katherine Harris, Florida            Eleanor Holmes Norton, District of 
Dave G. Reichert, Washington         Columbia
Michael McCaul, Texas                Donna M. Christensen, U.S. Virgin 
Charlie Dent, Pennsylvania           Islands
Christopher Cox, California (Ex      Bob Etheridge, North Carolina
Officio)                             Bennie G. Thompson, Mississippi 
                                     (Ex Officio)

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Subcommittee on Emergency 
  Preparedness, Science, and Technology..........................     1
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Emergency Preparedness, Science, and Technology................     3
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Committee on Homeland 
  Security.......................................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, Ranking Member, Committee on 
  Homeland Committee.............................................     6
The Honorable Donna M. Christensen, a Delegate From the U.S. 
  Virgin Islands.................................................    45
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    48
The Honorable Katherine Harris, a Representative in Congress From 
  the State of Florida...........................................    46
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................    49
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California...................................    58
The Honorable Michael McCaul, a Representative in Congress From 
  the State of Texas.............................................    53
The Honorable Stevan Pearce, a Representative in Congress From 
  the State of New Mexico........................................    43
The Honorable Dave G. Reichert, a Representative in Congress From 
  the State of Washington........................................    54
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama...............................................    41
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California........................................    41
The Honorable Curt Weldon, a Representative in Congress From the 
  State of Pennsylvania..........................................    50

                               WITNESSES

The Honorable Penrose ``Parney'' Albirght, Ph.D., Assistant 
  Secretary, Science and Technology Directorate, Department of 
  Homeland Security
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Matt A. Mayer, Acting Executive Director, Office of State and 
  Local Government Coordination and Preparedness, Department of 
  Homeland Security
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
General Dennis Reimer (Retired), Director, National Memorial 
  Institute for the Prevention of Terrorism
  Oral Statement.................................................    26
  Prepared Statement.............................................    28

                                APPENDIX

                   Material Submitted for the Record

Questions and Responses for the Record from the Honorable Penrose 
  Albright, Ph.D.................................................    64
.................................................................
Questions and Responses for the Record from Mr. Matt Mayer, 
  Acting Executive Director......................................    75


                          ENHANCING TERRORISM



                   PREPAREDNESS FOR FIRST RESPONDERS

                              ----------                              


                      THURSDAY, FEBRUARY 10, 2005

                     U.S. House of Representatives,
                                  Subcommittee on Emergency
                     Preparedness, Science, and Technology,
                            Committee on Homeland Security,
                                                     Washington, DC
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2212, Rayburn House Office Building, Hon. Peter King 
[chairman of the subcommittee] presiding.
    Present: Representatives King, Smith, Weldon, Simmons, 
Rogers, Pearce, Harris, Reichert, McCaul, Dent, Cox, Pascrell, 
Sanchez, Dicks, Harman, Lowey, Norton, Thompson, Christensen, 
and Etheridge.
    Chairman King. [Presiding.] The Committee on Homeland 
Security, Subcommittee on Emergency Preparedness, Science, and 
Technology will come to order.
    The subcommittee is meeting today to hear testimony on the 
Department of Homeland Security's proposed fiscal year 2006 
budget relating to enhancing preparedness for first responders. 
The Chair recognizes himself for 5 minutes.
    Good morning. First, let me welcome our distinguished 
witnesses. We certainly appreciate their appearance before us 
today. As the Chairman of the subcommittee, it is my pleasure 
to convene this morning's hearing on President Bush's fiscal 
year 2006 budget plans for the Office of State and Local 
Government Coordination and Preparedness and the Science and 
Technology Directorate with respect to enhancing terrorism 
preparedness for first responders.
    It is important to note that this hearing is the very first 
to be held by any subcommittee of the newly established 
Committee on Homeland Security. Congress's establishment of a 
permanent standing homeland security committee is a victory for 
the American public and for our nation. This morning's hearing 
is testament to that very fact. I want to thank Chairman Cox 
publicly for giving me the opportunity to serve as Chairman of 
this vitally important subcommittee. I am certainly looking 
forward to continuing my close working relationship with the 
Chairman.
    Also, I must note that it is to me a great privilege to 
have as the Ranking Member of the subcommittee my good friend 
from New Jersey, Bill Pascrell. Bill and I have worked together 
on many issues, and I have absolutely no doubt that we are 
going to forge a very solid working relationship. Obviously, my 
door will always be open to him, and I am sure that his will 
also be. I just want Bill to know that I look forward to this 
opportunity over the next 2 years.
    Also, I must say that I am a New Yorker. Like many New 
Yorkers, I lost many friends and neighbors on September 11. A 
number of them were firefighters and police officers. If we 
have learned one thing from that fateful day, it is that the 
federal government must support first responders because they 
are literally on the frontlines of this terrible international 
war against terror.
    As Chairman of the Subcommittee on Emergency Preparedness, 
Science, and Technology, I intend to be active in reforming the 
first responder grant process. I intend to be active in 
ensuring that our nation invests in the necessary research, 
development and transfer of homeland security technology to 
states, territories and local governments. I intend to be 
active in guaranteeing that the federal government can 
effectively respond to acts of terrorism and other catastrophic 
emergencies.
    The purpose of this hearing is to review the 
administration's proposed budget request for fiscal year 2006 
and its impact on the preparedness of our nation's first 
responders. The hearing also will examine the evolving 
relationship between the Office of State and Local Government 
Coordination and Preparedness, and the Science and Technology 
Directorate. I know that some of my colleagues on the other 
side will in good faith point out that the administration's 
budget request for fiscal year 2006 does decrease spending on 
first responders from fiscal year 2005 enacted levels. This is 
a debate which I think can be healthy. We can discuss it in 
full, certainly as this hearing goes forward and throughout the 
year.
    I believe, however, that a slightly lower level of spending 
should not be equated with a lack of commitment to first 
responders, particularly since the Budget actually authorizes 
more than was actually spent in the past fiscal year. Indeed, 
no other administration in the history of our great country has 
requested more funds for first responders. Since September 11, 
2001, the administration and the Congress have made an enormous 
investment, over $28 billion, in state and local preparedness 
programs. Much of this funding, however, remains unspent. For 
fiscal year 2004, for example, states and local governments 
have spent only $310 million out of the $2.9 billion 
appropriated for the State Homeland Security Grant Program and 
the Urban Area Security Initiative. The absence of clear 
preparedness guidelines has led to some questionable uses of 
terrorism preparedness grants by states and by local 
governments.
    Rather than merely increasing funding, the administration-
proposed budget attempts to resolve such problems by 
fundamentally reforming the grantmaking system. With the 
reforms contained in the Faster and Smarter Funding for First 
Responders Act, which Chairman Cox championed in the 108th 
Congress, the administration intends to allocate the vast 
majority of federal terrorism preparedness grants on the basis 
of risk and to ensure that states and local governments use 
such funding to achieve minimum baseline levels of preparedness 
in accordance with the national preparedness goal of Homeland 
Security Presidential Directive HSPD-8.
    With respect to the budget request for science and 
technology, the administration intends to consolidate the 
Department's various research, development, testing, and 
evaluation activities into the Science and Technology 
Directorate. Such a consolidation will create significant 
efficiencies which will benefit our nation's first responders. 
The budget request also increases funding for S&T Directorate 
activities designed to support other directorates and offices, 
such as the Emergency Preparedness and Response Directorate and 
the Office of State and Local Government Coordination and 
Preparedness.
    I look forward to the testimony of Secretary Albright, 
Acting Executive Director Mayer, and General Reimer. Now, I 
recognize the gentleman from New Jersey.
    Mr. Pascrell. Thank you, Chairman King. It is an honor to 
be on this committee and an honor to serve with you and the 
rest of the members on both sides here.
    I want to welcome our witnesses. You have a tremendous 
amount of experience in the very areas that we are going to be 
exploring over the coming year. You have really shown great 
dedication in each of your roles. I have looked at that very 
carefully. I commend the leadership you have each displayed 
while working on vital endeavors related to national security.
    This subcommittee will certainly benefit from your analysis 
and ideas on how to improve the preparedness of our first 
responders, and I thank you for that. Indeed, the well being of 
our men and women on the frontlines is an issue that is very 
close to my heart and all of us on this panel. There are no 
greater heroes than those who put themselves in harm's way to 
protect us day-in and day-out. There is no greater nobility 
than the sacrifices of our firefighters and our police 
officers. They endure this for the public good.
    That is why I am so honored to serve as the Ranking Member 
on this very important committee. With a jurisdictional scope 
that includes the oversight of federal support to the first 
responders, it is my profound hope that this subcommittee will 
have a direct impact on improving the capabilities and lowering 
the vulnerabilities, once they are indexed, of our uniformed 
personnel nationwide. Toward this goal, I am confident in 
asserting that we could not ask for a better Chairman. He knows 
I am not a patronizer. Just as much as we work together, we 
have battled each other. But I am serious when I say we could 
not have a better Chairman.
    Peter King and I have worked closely on these matters over 
the years. I have seen first-hand what a tireless advocate he 
is for those in public safety. He knows that homeland security 
should be an utterly non-partisan undertaking. I look forward 
to working with him in the months ahead. To be sure, our job, 
and the job of each member of the subcommittee, will be to keep 
watchful eye on how the Department of Homeland Security 
contributes to state and local government preparedness and 
response, starting of course with the 2006 budget. I am 
heartened to see that the administration's budget request 
recommends replacement of the formula that has dictated the 
allotment of state homeland security grants. We have had a lot 
of discussion on that, and discussion and discussion.
    The proposal gives the Department of Homeland Security more 
discretion in grant allocation in order to achieve a more risk-
based funding system. This is what we should be all about, 
risk-based regardless of what subcommittee, regardless of what 
the overall committee does. This, I think, has to be the major 
criteria for what we do. What is at risk? What is most 
vulnerable? As you know, this committee has worked hard to 
ensure that homeland security money is based on threats, 
consequences, and vulnerabilities, and not pork. I applaud the 
administration for the steps they have now taken. The two 
formulas that we hopefully will take a look at is the overall 
formula, which I have just mentioned and alluded to, and also 
the urban area security initiatives, which deals very 
specifically with the cities that are eligible for such funds 
in this program.
    I would even consider, Mr. Chairman, hopefully that we will 
take a look at the threshold of those cities, and perhaps look 
at smaller cities that are more vulnerable, that are just as 
vulnerable. Why shut them out because they do not have millions 
of people? I do not think that makes sense.
    Of course, there are certain aspects of the budget that I 
find disappointing, like in every budget. It probably comes as 
no surprise that I take particular issue, and I know members of 
this panel take particular issue, and I do not speak for them, 
I speak for myself, with the 30 percent cut, $215 million in 
funding the very basic Fire Act, the federal program that 
provides equipment, training, and staffing to local fire 
departments. Just in this past round, 20,300 applications $2.4 
billion, and we could fund only $650 million. This has been a 
successful program, and I must recognize my brother in this, 
who has led the fight, really, Curt Weldon, and the job that he 
has done.
    These reductions represent a continuing pattern in which 
the President has either not included any funding for the Fire 
Act, going back 3 years, or substantially reduced funding below 
what Congress, in a bipartisan way, appropriated the prior 
year. Both Republicans and Democrats have championed providing 
sufficient resources for the Fire Act and the SAFER Act, the 
program that provides funding to add firefighters to local 
departments, career and volunteer. It is my hope that members 
of this committee can help bring the funding for emergency 
preparedness in our nation's communities up to the levels that 
address the major shortages we see in more than two-thirds of 
the communities in our country. From grant funding to 
dissemination of intelligence, from the development of improved 
equipment, to guidance in training and technical assistance, 
the federal government has many ways to support our hometown 
heroes.
    I am excited to assist and oversee these efforts in my role 
on the Subcommittee on Emergency Preparedness, Science, and 
Technology, and look forward to working with all my colleagues 
in the months ahead. I am proud to serve with Chairman Cox and 
proud to serve with Ranking Member Bennie Thompson. This is 
going to be a very different committee, I suspect, than what we 
have seen over the last year-and-a-half. So Chairman King, it 
is an honor to serve with you.
    Chairman King. I thank the gentleman from New Jersey for 
his thoughtful comments, and for the input I know he is going 
to make throughout the year on this subcommittee. Now, I 
recognize the Chairman of the full committee, Mr. Cox.
    Mr. Cox. Thank you, Mr. Chairman. For our distinguished 
witnesses, we had a discussion yesterday in the full committee 
about the committee's rules and the way we are going to use 
opening statements. Based on the way that discussion went 
yesterday, I do not think I am going to abuse the privilege 
that I have as Chairman of the full committee to make a lengthy 
opening statement.
    I do want, however, to begin by congratulating Peter King 
and Bill Pascrell for taking over the helm of this 
subcommittee. Under your leadership, I know that the Congress 
is going to do its job, and that the country is going to be 
safer. I appreciate your willingness to do this. The public is 
going to be well served by your diligence and your inspired 
leadership.
    I also want to say that it is fitting that the first 
hearing of this subcommittee is focused on how the 
administration's budget is going to make the job of first 
responders more effective and more successful. The 
administration's budget and this committee's first responder 
legislation are both focused on trying to move, as Mr. Pascrell 
said, away from a formulaic approach and towards a threat-based 
and risk-based approach to first responder funding allocations. 
I congratulate the department and the President for his budget, 
and the fact that it decreases the formula amount of federal 
funding that each state would receive under the State Homeland 
Security Grant Program, in order to make it possible to 
increase the amount of money that goes according to risk. We 
have a lot more to do in this area.
    The second thing I would note is that the administration's 
budget request also proposes to consolidate all the 
department's homeland security research, development, testing, 
and evaluation activities within the S&T Directorate. The 
President intends to consolidate these activities of the 
Transportation Security Administration, the Coast Guard, the 
Bureau of Customs and Border Protection, and the Information 
Analysis Infrastructure Protection Directorate. The 
administration's budget request also proposes to improve the 
level of technical and research support that the S&T 
Directorate provides to other directorates and offices. That 
falls squarely within the jurisdiction of this subcommittee, 
and I know, Mr. Chairman and our Ranking Member, that we will 
focus on that beginning today.
    So thank you very much to our witnesses. Welcome to all the 
members of this committee. Welcome to the Vice Chairman of the 
full committee, Mr. Weldon, whose interest in the subject of 
this subcommittee is well known, as Mr. Pascrell points out. 
Just looking across the desk here at the Democratic and 
Republican members, this is quite a group and we are very much 
looking forward to working with all of you and the 
administration and in the private sector.
    Chairman King. I thank the Chairman for his statement. The 
Chairman in his statement mentioned the fact that we adopted 
rules yesterday. Seeing the Chairman here reminds me that one 
of those rules is the absolute prohibition on the use of cell 
phones in the room. So I would just advise those of you in the 
audience that the committee rules prohibit the use of cell 
phones in the committee room during the hearing.
    With that, I recognize the Ranking Member of the full 
committee, the gentleman from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you, Chairman King, Ranking Member 
Pascrell, Chairman Cox. To the members who are witnesses today, 
we are happy to have you. This is our maiden voyage as a 
permanent committee and subcommittee. I look forward to your 
testimony.
    I am a former volunteer fireman. I had 20 years experience 
before I came to Congress. I got up at all times of the 
morning, and delivered six babies in my tenure. One of them 
happened to be named after me. I guess it was a successful 
delivery. Nonetheless, I have a deep and abiding feeling for 
those who volunteer to do good. In that spirit, one of the 
things I am very concerned about is, as our good men and women 
get up early in the morning to go out to do these things, are 
they properly trained. Can they run upon something that they 
absolutely are ill-prepared to deal with, and ultimately hurt 
themselves in the effort to try to help others?
    So I really want us to look at this issue. It is an issue 
that is dear to me. So today, we have to start the process of 
seeing how we do that. I am concerned, first of all, because it 
looks like we are $215 million short in our budget request from 
last year. I think that is a real problem. We have to put the 
resources there. We have to have planning and training going on 
at all times. I am concerned that, like when I was a volunteer 
fireman going to an incident, nobody could talk to each other 
until you got to the scene. It was a real problem. We needed 
equipment that we could not tell others to bring. 
Interoperability continues to be a problem. I am interested in 
seeing and hearing from the administration as to how we plan to 
correct this documented problem.
    Apart from that, there is a Presidential Directive Number 
8, that talks about all of the things that we are supposed to 
do that are still going unmet. So there are some challenges 
that I am convinced that this subcommittee, and ultimately the 
committee, will have to address.
    I am happy that General Reimer is here as our witness. I 
look forward to his expert testimony. Good morning; happy to 
have you, and apart from that, the administration witnesses 
also. Likewise, Mr. Chairman and Mr. Ranking Member, I am happy 
to be here, and I look forward to the beginning of the new 
committee. Thank you very much.
    Chairman King. Thank you, Mr. Thompson.
    I had always known that the gentleman from Mississippi 
delivered for his constituents. I did not realize he carried it 
to such a level as delivering babies. I really want to commend 
you on that.
    I want to welcome our witnesses today. We have Dr. Parney 
Albright, who is Assistant Secretary of the Science and 
Technology Directorate at the Department of Homeland Security; 
Mr. Matt Mayer, the Acting Executive Director of the Office of 
State and Local Government Coordination and Preparedness in the 
Department; and also General Dennis Reimer, Director of the 
National Memorial Institute for the Prevention of Terrorism.
    As I see the schedule for today, I believe we have our 
first series of votes at 11:30 a.m. We are going to ask each of 
the witness if they could strive to keep their remarks within 
the 5-minute limit. Obviously, we are not going to strictly 
enforce, but to the extent you can, it will allow members of 
the panel more opportunities to ask questions and you to expand 
on your testimony.
    With that, the Chair recognizes Dr. Albright.

    STATEMENT OF THE HONORABLE PENROSE ``PARNEY'' ALBRIGHT 
   ASSISTANT SECRETARY, SCIENCE AND TECHNOLOGY DIRECTORATE, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Albright. Good morning, Chairman Cox, Chairman King, 
Congressman Pascrell, Congressman Thompson and other 
distinguished members of the committee. I am pleased to appear 
before you today to discuss progress the Science and Technology 
Directorate is making in the nation's efforts to improve the 
emergency preparedness and response capabilities of our 
nation's first responders.
    Our nation relies on a large and diverse responder 
community who face new challenges of a complexity never before 
imagined. Improving their effectiveness in protection through 
innovative, affordable technologies is at the very heart of the 
mission of the Department of Homeland Security. The creation of 
the Department of Homeland Security has brought under one roof 
a new Science and Technology Directorate, the Federal Emergency 
Management Agency, and the Office of State and Local Government 
Coordination and Preparedness, which includes the Office of 
Domestic Preparedness.
    The deep collaboration between organizations, along with 
the first responder community and other federal agencies, are 
critical to the successful deployment of new technologies to 
the local response community. S&T has worked extensively with 
the first responder community to understand user requirements 
and operational constraints. We are continuing to work with the 
Memorial Institute for Prevention of Terrorism's Project 
Responder and the many hundreds of first responders and 
emergency managers throughout the country who freely gave of 
their time and energy to MIPT in setting and prioritizing our 
research and development goals. I want to commend General 
Reimer for his leadership of the MIPT.
    Two presidential directives, HSPD-8 and HSPD-5 that have 
already been mentioned this morning, provide the foundation for 
S&T's research programs to enhance preparedness for first 
responders. We have engaged industry, academia, and our federal 
and international partners in creating and implementing our 
research and development strategy. We are identifying and 
developing relevant emergency response technology. We are 
facilitating the integration of interoperable and compatible 
all-hazard emergency response technology into local 
communities. And we are developing and coordinating the 
adoption of national standards to meet the homeland security 
needs.
    Mr. Chairman, I would like to take a moment to elaborate on 
each of these activities. With respect to emergency respond 
technology, the Science and Technology Directorate is 
developing improvements in protection from chemical and 
biological hazards for firefighter turnout gear, improving 
cooling vests and other protective equipment. This effort 
includes the use of innovative signs, such as nanotechnologies, 
to provide protection against a multitude of hazards and 
improve overall system performance. We are also developing a 
unified incident command and decision support system to manage 
personnel, direct equipment, and communicate any mission-
critical information needed by incident commanders and 
emergency responders during a situation.
    We have engaged in the development of a technology 
clearinghouse which will not only facilitate research and 
development efforts, but will also provide information of 
direct and more immediate use to emergency responders. It will 
leverage and continue to partner with the excellent work of ODP 
and MIPT to enable first responders to access important 
information on existing and emerging technologies, training in 
relevant standards through a single knowledge portal.
    An example of our technology integration activities is the 
Regional Technology Insertion Initiative, RTI, which focuses on 
making our cities safer and more resilient to attack on certain 
technologies to enhance local preparedness. In 2004, we 
initiated this with four pilot cities. The RTI initiative is a 
collaborative effort between the S&T Directorate and ODP's UIC 
initiative. The RTI demonstration program focuses directly on 
the needs of the community by examining the entire system life-
cycle at an operational level. The lessons learned from these 
demonstrations will be migrated to other urban areas throughout 
the country.
    Our standards program strives to enable the first responder 
community to make informed equipment purchases by linking 
federal grants programs to compliance with the minimum 
performance standards. The standards program is currently 
focused on standards for chemical, biological, radiological, 
nuclear and explosive detection, personal protective equipment, 
and urban search and rescue robots.
    Non-interoperable and incompatible equipment and a lack of 
standardized procedures for their operation are issues that 
have plagued the public safety community for decades. To 
address these issues, the S&T Directorate's Office of 
Interoperability and Compatibility will coordinate and leverage 
the vast range of interoperability programs and related efforts 
across the government, and will identify and promote best 
practices, minimize duplication in programs and spending, and 
coordinate relevant federal activities.
    Recent activities include issuing a national statement of 
requirements, the first-ever document to define in detail what 
kinds, how much, and under what circumstances the first 
responders need interoperability. We have conducted RapidCom, 
an initiative that accomplished in barely 150 days to 
strengthen the ability of 10 high-threat urban areas to 
establish interoperability at the command level in 1 hour or 
less in a major incident. By working closely with ODP and other 
federal grant programs, we have incorporated common grant 
guidance in all federal grant programs that touch or may touch 
on interoperability to ensure that federal grants are not 
working at cross-purposes and hindering, rather than helping, 
efforts to achieve interoperability.
    S&T has worked hard to ensure next-generation capabilities 
are effectively integrated in the response community, and value 
our close working relationships with FEMA, ODP and the response 
community. We are confident that with your continued support, 
lives and property will not be lost because emergency response 
agencies lack appropriate equipment or are unable to 
communicate or do not have the effective training and education 
technologies.
    I would be happy to address any questions from this 
committee.
    [The statement of Mr. Albright follows:]

           PREPARED STATEMENT OF THE HON. PENROSE C. ALBRIGHT

Introduction
    Good morning Chairman Cox, Congressman Thompson and distinguished 
members of the subcommittee. I am pleased to appear before you today to 
discuss the progress the Science and Technology (S&T) Directorate is 
making in the nation's efforts to improve the emergency preparedness 
and response capabilities of our nation's first responders.
    Our nation relies on a large and diverse responder community. 
Today's responders face a spectrum of threats of a complexity never 
before imagined. Helping our responders to be more effective and better 
protected through innovative, affordable technologies is at the very 
heart of the mission of the Department of Homeland Security.
    I want to acknowledge up front the importance of our partnerships 
with the Office of State and Local Government Coordination and 
Preparedness (OSLGCP) and the Federal Emergency Management Agency 
(FEMA). Bringing these agencies together in one Department has enabled 
strong collaboration between the agencies, and the S&T Directorate is 
intimately intertwined with both OSLGCP and FEMA on emergency responder 
issues. The strategic alliances between our organizations are critical 
to the successful deployment of new technologies to the local response 
community. Along with the first responder community and other Federal 
agencies, these organizations are instrumental in the development of 
our research requirements through our Science and Technology 
Requirements Council (SRC). I want to thank both groups publicly for 
their participation in the SRC and for their cooperation with the S&T 
Directorate throughout all stages of our research, development, testing 
and evaluation process.

National Policy for Emergency Response Capability
    President Bush has made strengthening the nation's emergency 
response capability a national priority. Homeland Security Presidential 
Directive (HSPD)-5, Management of Domestic Incidents, resulted in the 
creation of a National Response Plan (NRP) to integrate Federal 
prevention, preparedness, response, recovery and mitigation plans into 
one all-discipline, all-hazard approach to domestic incident 
management. The NRP, using the National Incident Management System 
(NIMS), will provide the core organizational structure and operational 
mechanisms for Federal support to State and local authorities. HSPD-8, 
National Preparedness, established policies to strengthen the 
preparedness of the United States by requiring a national all-hazards 
preparedness goal, establishing mechanisms for improved delivery of 
Federal preparedness assistance to State and local governments, and 
outlining actions to strengthen preparedness capabilities of Federal, 
State, and local entities. These two policy documents provide the 
foundation for the S&T Directorate's Research, Development, Testing & 
Evaluation (RDT&E) programs to enhance preparedness for first 
responders and provide the core objectives of the nation's emergency 
preparedness and response efforts:
                The National Incident Management System (NIMS)--This 
                system provides a consistent nationwide approach for 
                Federal, state, and local governments to prepare for, 
                respond to, and recover from domestic incidents, 
                regardless of cause, size, or complexity. To provide 
                for interoperability and compatibility among Federal, 
                state, and local capabilities, the NIMS will include a 
                core set of concepts, principles, terminology, and 
                technologies covering the incident command system; 
                multi-agency coordination systems; unified command; 
                training; identification and management of resources 
                (including systems for classifying types of resources); 
                qualifications and certification; and the collection, 
                tracking, and reporting of incident information and 
                incident resources.
                The National Preparedness Goal--The national 
                preparedness goal will establish readiness priorities 
                and targets for terrorist attacks, major disasters, and 
                other emergencies. These will lay the foundation for 
                the more detailed readiness metrics and element, 
                including standards for preparedness assessment and 
                strategies, as well as a system for assessing the 
                nation's overall preparedness.

The Science and Technology Directorate's Efforts for Emergency Response 
Capability
    The Department of Homeland Security, through the S&T Directorate, 
has the mission to ensure that the nation has an enduring capability to 
address current and emerging threats through scientific achievement. 
The S&T Directorate engages industry, academia, and our Federal and 
international government partners in creating and implementing a robust 
research strategy. In partnership with our DHS counterparts, 
operational end users, and collaborative research partners, we have 
already made significant strides in improving our nation's resilience 
to catastrophic incidents. The nation's first responder community will 
be a primary beneficiary of this work.
    The Science and Technology Directorate has the responsibility to 
support the achievement of the above objectives by:
                <bullet> Identifying and developing relevant emergency 
                response technology systems solutions;
                <bullet> Facilitating the integration of interoperable 
                and compatible ``all-hazard'' emergency response 
                technology into Federal, state and local emergency 
                response infrastructures;
                <bullet> Developing and coordinating adoption of 
                national standards to meet homeland security needs; and
                <bullet> Providing the science and technology 
                leadership and support for the implementation of HSPD-5 
                and HSPD-8.
    The Science and Technology Directorate focuses on the following 
areas to meet those requirements:
                <bullet> Emergency Preparedness and Response Technology 
                Development;
                <bullet> Technology Integration;
                <bullet> Standards; and
                <bullet> Interoperability and Compatibility.
    Now I will discuss each of these areas in detail, including fiscal 
year 2004 accomplishments, fiscal year 2005 programs in progress and 
fiscal year 2006 plans.

    Emergency Preparedness and Response (EP&R) Technology Development
    Emergencv Responder Personal Protective Equipment (PPE): Safety, 
time, and operational effectiveness are among the most precious 
commodities to emergency response and homeland security operations 
professionals. Currently, a variety of protective garments and systems 
tailored specifically for their individual areas of expertise and 
occupational environments are in use.
    In fiscal year 2004, the S&T Directorate, through its Emergency 
Preparedness and Response R&D (EP&R) portfolio, began an R&D program to 
achieve near-term improvements in protection from chemical and 
biological hazards for firefighter turnout gear, cooling vests and 
other protective equipment. In addition to our long-term research 
investments, DHS has developed strong partnerships with other Federal 
agencies and public and private sector organizations; these 
partnerships have allowed us to leverage efforts already underway, such 
as: a prototype 3-D locator that allows incident commanders to track 
responders and their health, cooling vests, ``Smart Cards'' to allow 
rapid identification of on-scene emergency personnel, and the ``Heads 
Up'' display that will allow firefighters to identify people and 
objects through smoke and debris.
    In fiscal year 2005, our focus is on the development and 
application of revolutionary materials and technologies that can be 
used in multi-hazard environments, are applicable to diverse users, and 
function as an integral part of a more complex personal protection 
system. We have issued a Broad Agency Announcement (BAA) to solicit 
ideas from industry, academia and others on ways to achieve better 
personal protection systems. Our focus is on the innovative materials 
that incorporate surface science, nanotechnologies and other 
advancements to create materials that are lighter-weight, have the 
ability to withstand the challenges of strenuous activity in unstable 
and uncertain conditions and provide protection against a multitude of 
hazards. In addition to actual technology development for PPE, we will 
also continue our partnership with OSLGCP and other Federal agencies in 
the development of a Technology Clearinghouse ``hub and spoke'' concept 
to enable first responders to access important information on existing 
and emerging technologies, training, and relevant standards through a 
single knowledge portal.
    In fiscal year 2006, the portfolio will demonstrate several 
revolutionary and highly innovative materials for emergency personal 
protective equipment (PPE) applications. We will demonstrate prototype 
materials and technologies that can that can be made into functional 
garments or integrated personal protective systems. Solutions will be 
sought for:
                <bullet> materials that can be used in diverse 
                applications;
                <bullet> materials that can provide protection during 
                response to chemical, biological, radiological, nuclear 
                and explosive (CBRNE) events;
                <bullet> materials that are self-decontaminating 
                against chemical and biological agents, provide 
                localized protection for complex organs susceptible to 
                radiation exposure, and are self healing upon being 
                compromised (e.g., ripped, tom); and
                <bullet> materials with increased service life and 
                flame resistance.
    In addition to material prototypes, sensors and detectors capable 
of detecting and alerting responders to CBRNE hazards in real-time will 
be tested and evaluated as an integral part of the emergency responder 
ensemble.
    Unified Incident Command and Decision Support: Unified Incident 
Command and Decision Support (UICDS) is the ability to manage 
personnel, direct equipment, and seamlessly communicate, gather, store, 
redistribute, and secure any mission critical information needed by 
incident commanders and emergency responders during an emergency 
situation. Our research and development program in UICDS uses a systems 
approach to seek to harness innovative ideas in an effort to create an 
information management and sharing architecture specifically designed 
to meet the needs of incident commanders and emergency responders 
throughout the nation. This program will confront the technical 
challenges associated with the development of an innovative, modular, 
scaleable, and secure information management architecture. The 
resulting UICDS information management system will enable incident 
commanders to capture and analyze important incident related 
information, more effectively disseminate mission critical information 
to emergency responders and provide highly enhanced situational 
awareness for individual responders and emergency responder teams.
    In early fiscal year 2005, the S&T Directorate solicited conceptual 
designs through a BAA and selected four proposals that offer viable 
means to incorporate improved capabilities. These selected proposals 
support an open architecture that is compliant with the NIM:S and can 
be used at all levels of government for emergency response, situational 
awareness and threat assessment. By the end of fiscal year 2005, the 
Directorate will evaluate the conceptual designs and down-select to 
two.
    In fiscal year 2006, the S&T Directorate will perform Advanced 
Technology Demonstrations for these two conceptual designs to further 
evaluate system performance and interoperability. Future Advanced 
Concept Demonstration Projects will take advantage of capabilities 
developed in other Federal agencies and adapt them to operating 
environments of emergency responders. New systems will accommodate and 
integrate other technology advances for first responder such as the 
three-dimensional tracking device mentioned earlier. These systems will 
assist in creating a holistic picture for the incident commanders. 
Extensions of this technology development goal include two-way 
communications, health and biometric monitoring, and visualization.
    Simulation Based Training and Education: Advanced simulation and 
modeling capabilities are key enabling technologies to improve hazards 
preparedness for emergency responders. Our current emphasis is on the 
use of simulation-based training for incident management and 
facilitating efforts to implement HSPD-5 and HSPD-8. The results of 
this research will provide a more cost effective training and exercise 
capability for large-scale, multi-jurisdictional incidents and will 
facilitate the implementation of the NIMS and the National Preparedness 
Goal. Simulation based systems will place users in realistic 
environments and in interactive situations and will support all 
elements of the NIMS.
    In fiscal year 2004, the EP&R portfolio identified requirements 
through interaction with the responder community. We have enlisted the 
assistance of the Memorial Institute for the Prevention of Terrorism, 
the National Institute of Justice in the Department of Justice, and the 
Department of Defense in identifying needs and capability gaps. In 
collaboration with OSLGCP, FEMA and other Federal partners, the S&T 
Directorate has developed a strategy to use advanced technologies to 
enhance training and exercises that already exist or will be created by 
OSLGCP and others.
    In fiscal year 2005, the S&T Directorate will focus on improving 
existing simulation capabilities to facilitate planning, execution and 
evaluation of training and exercise programs at Federal, state and 
local levels.
    In fiscal year 2006, S&T will conduct demonstrations of conceptual 
designs to better understand functional requirements and operational 
constraints for large and complex incidents that cross jurisdictions.

    Technology Integration
    Interagencv Modeling and Atmospheric Analysis Center (JMAAC): The 
IMAAC is a DHS-Ied capability that provides for a single Federal 
hazards prediction for airborne release of hazardous material. The 
IMAAC coordinates Federal atmospheric modeling and provides hazards 
predictions and consequence assessment support to Federal, state and 
local responders for incidents of national significance.
    In fiscal year 2004, the IMAAC began operation, to support the 
National Exercise Program and special events, such as the Democratic 
and Republican National Conventions. The IMAAC established connectivity 
to the DHS Operations Center and the FEMA National Emergency Operations 
Center to provide near real time hazards predictions for airborne 
releases.
    In fiscal year 2005, the IMAAC will select a suite of products and 
implement a process for verification and validation, accreditation of 
atmospheric transport and dispersion models to be used in support of 
real world operations. The EP&R portfolio will further refine the IMAAC 
concept of operations and define scientific research programs necessary 
to fully support Federal, state and local responders during incidents 
of national significance. IMAAC will improve its response capability 
and provide outreach and training to Federal, state and local emergency 
response organizations through participation in the National Exercise 
Program.
    In fiscal year 2006, the EP&R portfolio will enhance IMAAC 
capabilities by leveraging Federal resources to provide a venue for 
collaborative research, development, testing and evaluation of 
atmospheric transport and dispersion (AID) models for hazards 
predictions. IMAAC will host researchers from throughout the nation at 
its facility and will also participate in virtual collaboration both 
nationally and internationally. IMAAC researchers will seek to improve 
AID modeling systems to routinely quantify uncertainties, improve 
spatial and temporal scale interactions, and incorporate new 
measurement technologies to better characterize the urban environment. 
IMAAC will explore the feasibility of using data from remote sensing 
platforms and meso-nets into ATD models. The portfolio will initiate 
research and development in support of other modeling and assessment 
requirements including other transport mediums, such as water.
    The Regional Technology Integration (RTI) Initiative: RTI 
Initiative, formerly known as ``Safe Cities'' focuses on making our 
cities safer and more resilient to attack. Implemented in fiscal year 
2004, the RTI initiative is a collaborative effort between the S&T 
Directorate and the OSLGCP Urban Area Security Initiative (UASI). The 
RTI demonstration program focuses directly on the needs of the 
community and uses a ``bottoms up'' approach to community-based 
assessment. The program examines the entire system life cycle at an 
operational level, including system effectiveness, human interface, 
operations & maintenance, training, and implementation strategies (ie., 
regional. vs. local).
    In fiscal year 2005, the program will complete its initial 
assessments in four pilot cities and develop technology system 
solutions. Also in fiscal year 2005, we will begin the solution phase, 
which includes deployment of advanced homeland security technologies 
that can be integrated with existing legacy systems and the support of 
strategic plans developed for these pilot communities as part of the 
UASI grants program.
    In fiscal year 2006, the EP&R portfolio will complete 
implementation in the first four pilot locations, prepare test and 
evaluation plans and conduct operational readiness exercises to 
evaluate the overall system performance. Technology systems such as 
atmospheric monitoring, detection systems for chemical and biological 
toxins, and radiological detection equipment will be integrated with 
existing emergency response and traffic management infrastructures and 
the Intelligent Transportation System such that a community can create 
a virtual emergency operations center. Incorporating these detection 
systems with modeling and simulation capability for traffic and 
population as well as atmospheric and water dispersion models will 
enable local communities to quickly identify terrorist and other major 
events and respond more effectively. In addition, using the lessons 
learned from the pilot projects, the EP&R portfolio, in collaboration 
with FEMA and OSLGCP, will select additional RTI candidate locations. 
The Assessment Phase for the next RTI cities will begin in fiscal year 
2006.

    Standards for Emergency Preparedness and Response
    The Science and Technology Directorate has a role and 
responsibility to ensure the effectiveness, efficiency, and 
interoperability of the tools, technologies, and systems developed for 
and used by the emergency preparedness and response community. By 
setting consistent and verifiable measures of effectiveness for basic 
functionality, minimum performance, interoperability, efficiency, 
sustainability, and appropriateness and adequacy for the task, 
standards will improve the quality and usefulness of homeland security 
systems and technologies. The Science and Technology Directorate's 
Standards Program strives to enable the first responder community to 
make informed equipment purchases by linking Federal equipment grants 
programs to equipment certification and compliance with minimum 
performance standards.
    The primary activities of the Standards Program in the emergency, 
response, and preparedness arena include the promulgation of standards 
for chemical, biological, radiological, nuclear, and explosive (CBRNE) 
detection equipment; for CBRNE personal protective equipment; and for 
urban search and rescue robots. In addition, the program is focused on 
supporting ongoing communications standards development for Federal 
operational activities as well as coordinating and supporting standards 
development activities related to the implementation of the NIM:S.
    This program also conducts activities in order to meet the 
requirement of the SAFETY (Support Anti-Terrorism by Fostering 
Effective Technologies) Act in developing certification standards for 
technologies related to homeland security.
    Standards for CBRNE Countermeasures: The primary focus for 
Standards for CBRNE countermeasures has been CBRNE detection technology 
performance standards. In fiscal year 2004 and early fiscal year 2005, 
an interagency task force was formed to. address the controversy over 
the effectiveness and use of lateral flow immunoassays for the 
detection of Bacillus anthracis (anthrax) by emergency responders. The 
accepted criteria for performance were published as well as testing and 
evaluation results of all participating commercially available hand-
held unmunoassays.
    In addition, the program supported the evaluation of a five step 
method to pre-screen suspicious powders through an effort with Edgewood 
Chemical Biological Center (ECBC) and OSLGCP's Center for Domestic 
Preparedness (CDP). An effort was also initiated with CDP to develop a 
Bio-Protocol for first responders to use to guide their response to a 
suspicious powder incident. In the area of radiological and nuclear 
detection, four American National Standards Institute standards were 
developed to provide performance specifications for four different 
types of radiation detection equipment. To date, 63 different models of 
radiation detection equipment have been tested to the standards. The 
results of all of the radiation detector testing will be made available 
to the first responder community in March 2005.
    In fiscal year 2006, the Standards Program will continue to utilize 
interagency working groups to reevaluate requirements and prioritize 
needs for CBRNE countermeasures standards. The portfolio will focus on 
developing sampling protocols and guidelines and standardized sample 
triage methods for CBRNE countermeasures. In addition, the development 
of performance standards for two additional radiation detection 
technologies (spectroscopic portal monitors and active interrogation 
devices) will be completed. Finally, the program will evaluate the 
needs for standards for emerging CBRNE countermeasures technologies 
including CBRNE point detectors; CBRNE stand off detectors and urban 
surveillance technologies such as Bio Watch, CBRNE facility monitors, 
and water distribution monitors.
    Standards for Personal Protective Equipment for First Responders: 
In fiscal year 2004 and 2005, the Standards Program supported the 
development of eight personal protective equipment standards including 
three National Institute for Occupation Safety and Health (NIOSH) 
respiratory protection standards, one National Fire Protection 
Association (NFPA) respiratory protection standard, and four NFPA 
protective clothing standards. To date, 52 separate models of 
respirators have been certified as compliant with the four DHS adopted 
standards addressing respiratory protection equipment. And, standards 
set by the S&T Directorate will be incorporated into the grant 
guidelines governing the type of equipment that can be purchased with 
OSLGCP's grant funds.
    In fiscal year 2006, the Standards Program will continue 
development of standards for current CBRNE personal protective 
equipment specifically focusing on completing the suite of respiratory 
protection equipment standards to include powered air purifying 
respirators, closed-circuit self contained breathing apparatus, 
supplied air respirators and combination respirators.
    Standards for Urban Search and Rescue Robots (US&R): In fiscal year 
2004 and fiscal year 2005, the Standards Program initiated the 
development of comprehensive standards related to the development, 
testing, and certification of effective robotic technologies for urban 
search and rescue (US&R). Several workshops have been held with the 
representatives from the FEMA US&R task forces to gather requirements 
for the standards. The US&R robotics standards will include evaluation 
of sensing, mobility, navigation, planning, integration, and operator 
interaction with search and rescue robot systems, as well as ensuring 
that the robots can meet operational requirements.
    In fiscal year 2006, the program will work to complete the 
development and adoption of a suite of standards to address US&R robot 
performance.
    Standards to Support both the National Incident Management System 
(NIMS)and SAFECOM: In fiscal year 2005, the Standards Program 
established a formal relationship with FEMA's National Incident 
Management Systems (NIMS) Integration Center (NIC) to clarify roles and 
responsibilities for standards development to support NIMS. In 
addition, the portfolio worked with the NIC to support a preliminary 
standards needs analysis for NIMS.
    In fiscal year 2006, the program will maintain our relationship 
with the NIC, prioritize standards development efforts and adopt 
currently available standards to support the NIC, and initiate efforts 
to develop high priority standards related to incident management. In a 
similar manner, the Standards Program will support the SAFECOM Program 
which has initiated efforts to develop standards to support and 
supplement interoperable communications standards.

    Office of Interoperability and Compatibility
    Non-interoperable and incompatible equipment and a lack of 
standardized procedures for their operation are issues that have 
plagued the public safety community for decades. To address these 
issues, the S&T Directorate's Office for Interoperability and 
Compatibility (OIC) will work with the NIC to coordinate the Federal 
response to the challenges of inter operability and compatibility. By 
coordinating and leveraging the vast range of interoperability programs 
and related efforts across DHS, the OIC will help the Department 
identify and promote best practices, minimize duplication in programs 
and spending, and coordinate relevant Federal activities.
    The OIC will expand the Federal Interoperability Coordination 
Council (FICC) to include all aspects of inter operability relevant to 
homeland security. Members of the FICC include those agencies that 
provide grants to state and local agencies, such as DHS and the 
Department of Justice; those that need to interoperate with each other 
or with state and local agencies, such as DHS, DOJ, USDA, DOI, and DoD; 
and standards-making and regulatory organizations, such as the Federal 
Communications Commission and the National Institute for Standards and 
Technology.
    The OIC is creating a series of new programs in collaboration with 
existing efforts to address the interoperability and compatibility 
issues related to the emergency response provider and homeland security 
community. Initial programs include interoperability and compatibility 
issues related to:
                <bullet> Communications (working with the Safety 
                Wireless Communications and Interoperability [SAFECOM] 
                Program;
                <bullet> Equipment; and
                <bullet> Training.
    Achieving full interoperability and compatibility is truly a 
national endeavor. The Department of Homeland Security's Federal 
Emergency Management Agency (FEMA) and the Department of Justice's 
Community Oriented Policing Services (COPS) office have partnered to 
coordinate more than $230 million appropriated by Congress for grants 
specifically to address interoperability. Additionally, since 2001, 
FEMA has been the Federal lead for the President's Disaster Management 
initiative. This interagency effort, is a critical government-wide 
initiative that directly improves the ability of our nation's first 
responders to communicate and share information at all levels of 
government. The Disaster Management initiative provides one-stop access 
through the disasterhelp.gov portal for all Federal disaster 
management-related information, services, and planning and response 
tools. There are currently over 1,030 user groups in 50 states using 
this tool and it has been used to respond to over 40 real-world 
incidents, including Hurricane Isabel in September 2003 and the 
California wildfires. SAFECOM and OIC will continue to partner with the 
Disaster Management initiative in coordination of standards development 
and outreach to the first responder community. Also, in fiscal year 
2004, total State allocations for interoperable communications projects 
from OSLGCP's Homeland Security Grants Program funds totaled $762 
million representing more than one-third of the total appropriated 
amount for the HSGP. Additionally, from UASI funds, total State 
allocations were $239 million, which also represents more than one-
third of the total appropriated amount for the UASI program. Taken 
together, these allocations totaled $922 million and funded a total of 
4,208 projects in fiscal year 2004 alone. The next step is to ensure 
that these projects achieve their intended goals and deliver measurable 
improvements in interoperability.
    Collaboration with Academia--Homeland Security Center of Excellence
    To facilitate the involvement of the academic community in 
addressing scientific and technological issues related to first 
responders, the S&T Directorate has issued a BAA for a Center of 
Excellence for the Study of High Consequence Event Preparedness and 
Response. While our country's first responders have immense experience 
dealing with wildfires, hurricanes, tornadoes, floods and earthquakes, 
disasters on this scale intentionally caused by terrorists--especially 
those armed with chemical, biological, radiological, or nuclear weapons 
are a relatively new threat. This new Center will perform research to 
prepare for high consequence events--with special emphasis on acts of 
terrorism. Studies will focus on the following areas: Preparedness, 
Prevention and Deterrence, Decision-Making, Effective Response 
Networks, and Modeling and Simulation. Its research will address the 
technical, systemic, behavioral and organizational challenges that such 
events pose. The Center will also engage in mission-oriented research 
to significantly enhance the capabilities of first responders. The 
Center will highlight innovative research and education that serve the 
goals of the NRP.

    Interagency Collaboration
    Leveraging the significant capabilities of other Federal 
Departments and agencies has enabled the Department of Homeland 
Security to make some significant improvements in emergency 
preparedness and response capabilities. The Department of Defense, 
Department of Energy, Department of Justice, Department of Health and 
Human Services, National Oceanic and Atmospheric Administration (NOAA), 
the Environmental Protection Agency (EPA), Nuclear Regulatory 
Commission (NRC) and National Aeronautics and Space Administration 
(NASA) and others continue to be valuable contributors to emergency 
responder capabilities. All of these organizations participated in the 
formulation of HSPD-5 and HSPD-8 and will play an important role in the 
implementation of these Directives.
    The Interagency Modeling and Atmospheric Assessment Center (IMAAC) 
described above has significant interagency participation, including 
DOC, DoD, DOE, EPA, NRC, NOAA, and NASA. The IMAAC developed an MOU 
that establishes general operating principles and provides for the 
development of annexes which detail specific resource commitments. In 
addition to the MOU, the working group has produced an interim standard 
operating procedure, currently is reviewing the template for annexes, 
and is discussing other critical aspects of atmospheric hazard 
prediction that will improve the coordination of Federal assets.
    The Science and Technology Directorate participates on the Federal 
and Interdepartmental Committee for Meteorological Services and 
Supporting Research (ICMSSR). We recently co-chaired an interagency 
Joint Action Group as part of this committee. A collaborative process 
was co-led by the Directorate and with the Army Research Office, with 
participation from DOE, DTRA, Dugway Proving Grounds, EPA, NASA, NOAA, 
and the NRC to focus on modeling of research needs in the area 
Atmospheric Transport and Dispersion (ATD). The Joint Action Group, as 
a subset of the ICMSSR, developed an Atmospheric Transport and 
Diffusion Research and Development Plan that describes the requirements 
to meet ATD user-community needs. The R&D Plan also recommends 
strategies to address those needs to achieve reliable ATD modeling 
capability.
    The Science and Technology Directorate interfaces with other 
government agencies to facilitate the development of standards for the 
Department of Homeland Security. The Directorate's interactions with 
other agencies resulted in several voluntary consensus standards in 
concert with US industry and accredited Standards Development 
Organizations (SDOs), some of which have been discussed previously in 
this testimony.
                <bullet> The Science and Technology Directorate 
                collaborated with DOD, DOE, USDA, and DOC (National 
                Institute of Standards and Technology) and developed 
                standards for radiation.
                <bullet> The Science and Technology Directorate 
                collaborated with DOCINIST, HHS/Centers for Disease 
                Control, DOD, FDA, USDA, EPA and FBI resulting in the 
                development of standards for detection of Bacillus 
                anthracis (anthrax).
                <bullet> The Science and Technology Directorate 
                developed standards for personal protective equipment 
                for emergency responders through collaborative 
                interagency efforts with DOD, the DOC/NIST, and HHS/
                NIOSH.
                <bullet> The Science and Technology Directorate 
                developed standards for biometrics (facial photograph 
                standards) by partnering with DOC/NIST, DOJ/FBI and 
                Department of State.
                <bullet> The Science and Technology Directorate 
                participates on an OSTP/NSTC Subcommittee on Standards 
                that includes DHS, NRS, EPA, DOE, HHS, Department of 
                Labor and DoD. This Subcommittee on Standards developed 
                Protective Action Guides to provide Federal guidance to 
                emergency responders with respect to a dirty bomb or 
                nuclear incident.
    Achieving full interoperability and compatibility is truly a 
national endeavor. The Department of Homeland Security's Federal 
Emergency Management Agency (FEMA) and the Department of Justice's 
Community Oriented Policing Services (COPS) office have partnered to 
coordinate more than $230 million appropriated by Congress for grants 
specifically to address interoperability. Also, in fiscal year 2004, 
total State expenditures for interoperable communications projects from 
OSLGCP's Homeland Security Grants Program funds totaled $761 million, 
representing more than one-third of the total appropriated amount for 
the HSGP. Additionally, from UASI funds, total State expenditures were 
$239 million, which also represents more than one-third of the total 
appropriated amount for the UASI program. Taken together, state 
expenditures to develop and/or enhance interoperable communications 
systems from OSLGCP's HSGP and UASI funds totaled $922 million and 
funded a total of 4,208 projects in fiscal year 2004 alone. The newly 
formed OIC will serve as the umbrella program within the Federal 
government to help local, tribal, state, and Federal public safety 
agencies improve public safety response through more effective and 
efficient interoperable emergency response systems. OIC will extend the 
SAFECOM model and expand the Federal Interoperability Coordination 
Council (FICC) to include all aspects of interoperability relevant to 
homeland security. Members of the FICC include those agencies that 
provide grants to state and local agencies, such as DHS and the 
Department of Justice; those that need to interoperate with each other 
or with state and local agencies, such as DHS, DOJ, USDA, DOI, and DoD; 
and standards-making and regulatory organizations, such as the Federal 
Communications Commission and the National Institute for Standards and 
Technology.

    Conclusion
    Over the last year, the S&T Directorate has made significant 
progress both in meeting critical near term needs and in building a 
foundation for a strategic RDT&E program for emergency response. We 
have worked hard to ensure next generation capabilities are effectively 
integrated in the response community and value our close working 
relationship with FEMA, OSLGCP and the response community. With strong 
Executive and Congressional support, we have established ourselves as 
the leader within the Federal government for understanding homeland 
security research requirements and coordinating Federal research 
efforts, especially for chemical, biological, radiological, nuclear and 
explosive countermeasures; standards; and interoperability and 
compatibility. More importantly, we have been a catalyst for new 
university and industry efforts to address first responder needs.
    We are confident that with your continuing support and the 
continuing collaboration and assistance of our many Federal partners, 
we will continue to work towards a world where lives and property are 
never lost because emergency response agencies lack the appropriate 
equipment, are unable to communicate or lack effective training and 
education technologies.

    Chairman King. Thank you very much, Dr. Albright.
    Now, Mr. Matt Mayer, the Acting Executive Director.

 MR. MATT A. MAYER, ACTING EXECUTIVE DIRECTOR, OFFICE OF STATE 
AND LOCAL GOVERNMENT COORDINATION AND PREPAREDNESS, DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Mayer. Thank you, Chairman Cox, Subcommittee Chairman 
King, Congressman Pascrell and members of the subcommittee. My 
name is Matt Mayer, and I serve as the Acting Executive 
Director for the Office of State and Local Government 
Coordination and Preparedness.
    It is my pleasure to appear before you today to discuss our 
budget for fiscal year 2006, SLGCP's mission, and our mission 
relevant to the department's Science and Technology 
Directorate. Through SLGCP, the department has a single point 
of entry, interaction and information for assisting states and 
local governments, nongovernmental organizations, and other 
federal agencies and departments to prevent, deter, respond to, 
and recover from acts of terrorism and natural disasters.
    Since 1998, what is now SLGCP has provided assistance to 
all 50 states, the District of Columbia, the Commonwealth of 
Puerto Rico, and the U.S. territories. Through its programs and 
initiatives, it has trained 837,000 emergency responders from 
more than 5,000 jurisdictions and conducted more than 725 
exercises. As of the end of fiscal year 2005, SLGCP will 
provide states and localities with over $11 billion in 
assistance and direct support to state and local preparedness 
and emergency response agencies.
    Mr. Chairman, SLGCP will continue this assistance into 
fiscal year 2006. I would like to take this opportunity to 
briefly summarize the President's fiscal year 2006 budget 
request. That request totals $3.6 billion for SLGCP to continue 
our strong commitment and support for the nation's first 
responder community. Of this amount, $1.02 billion is for the 
State Homeland Security Grant Program, which has been 
significantly redesigned towards allocating funds based on risk 
and need and to align these funds with national priorities. An 
additional $1.02 billion is for the continuance of the Urban 
Areas Security Initiative, which targets funds to the nation's 
highest risk urban areas. The President requests that no less 
than 20 percent of the State Homeland Security Grant Program 
funds and the Urban Area Security Initiative Program funds are 
used for law enforcement prevention activities, an increase of 
roughly $8 million for law enforcement prevention activities.
    Further, the President's request provides $600 million for 
a new targeted infrastructure protection program to supplement 
state, local and private sector infrastructure protection 
efforts based on critical vulnerabilities. The fiscal year 2006 
request also includes a strong commitment to our nation's fire 
service by providing $500 million for the Assistance to 
Firefighters Grant Program. This request also includes $50 
million for the Citizen Corps Program and $170 million for the 
Emergency Management Performance Grant Program.
    For continuation of our commitment to training our nation's 
first responders, the request includes $94.3 million for 
SLGCP's State and Local Training Program. Further, the request 
includes $59 million for the National Exercise Program, which 
includes support for state and local exercises, and for the 
national Top Officials exercise series. Finally, the request 
includes $10.6 million for technical assistance initiatives for 
state and local agencies, and $14.3 million for program 
evaluation and assessments.
    For fiscal year 2006, the preponderance of DHS grant 
funding for state, territorial, tribal and local entities under 
the SHSGP program, the UASI program, and the TIPP program would 
be distributed based on risk, threat and vulnerability data 
which aligns closely with the recommendations of the 9/11 
Commission and the legislation that was considered by the House 
and the Senate last year as part of the conference and 
negotiations for the Intelligence Reform and Terrorism 
Prevention Act.
    Mr. Chairman, SLGCP's preparedness mission recognizes the 
interdependency of federal, state, local and private sector 
homeland security missions. While SLGCP provides direct support 
to state and local preparedness and emergency response 
agencies, it also provides general support to all elements of 
DHS and to other federal agencies to ensure that the national 
preparedness is fully integrated. SLGCP's mission is a national 
enterprise that requires a structure and scope of activity to 
assess, measure and enhance preparedness.
    To accomplish this national enterprise, SLGCP has 
established the ability to deliver core preparedness activities 
and capabilities to the first responder community through its 
national preparedness cycle. This cycle captures both SLGCP's 
mission and activities, and demonstrates the interrelationship 
between those activities and SLGCP's role in assisting the 
nation in achieving preparedness.
    The national preparedness cycle is useful in explaining 
SLGCP's mission and activities and how those activities 
contribute to enhancing the nation's overall preparedness. It 
should be clear, however, that these SLGCP activities cannot 
exist in a vacuum. As with our preparedness efforts, 
considerable work is being done throughout DHS that allows 
SLGCP to do its job more effectively and more efficiently. The 
S&T Directorate is but one example of how the efforts of one 
part of DHS with the primary mission to set technical equipment 
standards and conduct vital research and development on new or 
nascent technology will help us secure our homeland.
    SLGCP's preparedness activities, from the equipment, law 
enforcement, and intelligence personnel, can be used to prevent 
and deter a CBRNE attack. The equipment first responders can 
use to respond and recover from such an attack are grounded in 
a large and ever-expanding world of scientific knowledge, 
research, new technologies, and improved standards. In order to 
understand that world and ground our efforts in the solid 
information that exists, there is a need for natural and 
critical linkage between SLGCP and S&T.
    Mr. Chairman, in the interests of time and in lieu of oral 
testimony on the numerous examples of the collaboration between 
SLGCP and the Science and Technology Directorate, I refer the 
committee to my submitted written testimony, specifically pages 
18 to 23.
    Mr. Chairman, this concludes my statement. I am happy to 
answer any questions that you and the members of the committee 
have for us.
    Thank you.
    [The statement of Mr. Mayer follows:]

                 PREPARED OF STATEMENT OF MATT A. MAYER

    Chairman Cox, Congressman Thompson and Members of the Subcommittee, 
my name is Matt A. Mayer, and I serve as the Acting Executive Director 
of the Department of Homeland Security's (DHS) Office of State and 
Local Government Coordination and Preparedness (SLGCP). On behalf of 
all of us at DHS, it is my honor and pleasure to appear before you 
today to discuss SLGCP's mission, our mission relative to the 
Department's Science and Technology Directorate (S&T), and our Fiscal 
Year 2006 budget request.
    SLGCP was formed less than a year ago pursuant to Secretary Ridge's 
consolidation of several DHS components, the Office for Domestic 
Preparedness (ODP), the Office of State and Local Government 
Coordination (SLGC), and several discrete programs from DHS' 
Transportation and Security Administration and Federal Emergency 
Management Agency, within one, single administrative structure. This 
consolidation represents a significant focusing and streamlining of 
DHS' preparedness activities that encompasses our mission to prevent, 
deter, respond to, and recover from major events. It also fulfills 
Secretary Ridge's commitment to the Nation's first responder community 
to create a ``one-stop-shop'' to better serve their needs.
    On December 17, 2003, President George W. Bush issued Homeland 
Security Presidential Directive 8 (HSPD-8) on national preparedness. 
HSPD-8 defined preparedness as the existence of plans, procedures, 
policies, training, and equipment necessary at the Federal, State, and 
local level to maximize the ability to prevent, respond to, and recover 
from major events. SLGCP was assigned lead responsibility to coordinate 
implementation of HSPD-8 on behalf of the Department. With SLGCP, the 
Department has a single point of entry, interaction, and information 
for assisting State and local governments, non-governmental 
organizations, and other Federal agencies and departments to prevent, 
deter, respond to, and recover from acts of terrorism.

    The Road Forward: The fiscal year 2006 Budget
    Mr. Chairman, as you have scheduled this hearing to coincide with 
the release of the President's fiscal year 2006 Budget, I would like to 
take this opportunity to briefly summarize the request for SLGCP. That 
request totals $3.6 billion for SLGCP to continue our strong commitment 
and support to the Nation's first responder community. Of this amount, 
$1.02 billion is for the State Homeland Security Grant Program, which 
would be significantly realigned to award funds based on risk and need 
while aligning with national priorities. An additional $1.02 billion is 
for the continuance of the Urban Areas Security Initiative, which 
targets funds to the Nation's highest risk urban areas. To simplify the 
number of programs while continuing dedicated funding for law 
enforcement's counter-terrorism efforts, the President requests that no 
less than twenty percent (20%) of the State Homeland Security Grant 
Program and the Urban Areas Security Initiative Grant Program be used 
for law enforcement prevention activity.
    Further, the President's request provides $600 million for a new 
Targeted Infrastructure Protection Program (TIPP) to supplement State, 
local, and private sector infrastructure protection efforts based on 
critical vulnerabilities that is being consulted with the Office of 
Information Analysis and Infrastructure Protection. The fiscal year 
2006 request also includes a strong commitment to our Nation's fire 
service by providing $500 million for the Assistance to Firefighters 
Grant Program. The request includes $50 million the Citizens Corps 
Program and $170 million for the Emergency Performance Grant 
Program.Sec. 
    And let me take a moment to highlight the importance of our 
preparedness efforts with the Citizens Corps Program. State and local 
governments have embraced the concept of Citizen Corps. They are 
developing the management capacity of the Councils, conducting public 
education, providing training for citizens, and engaging citizens 
through volunteer programs. This is evidenced, Mr. Chairman, through 
the increasing number of Citizen Corps Councils. Since fiscal year 
2003, the number of Citizen Corps Councils have increased 80 percent to 
1,330. These councils exist in all 50 States and 5 of the 6 
territories. We have also expanded the Citizen Corps Affiliate network 
of national non-profits to 21 organizations, which allows us to expand 
the resources and materials available to States and local communities 
by partnering with programs and organizations that offer resources for 
public education, outreach, and training. Additionally, we were able to 
mobilize 2,700 recruits from 48 States to support the 2004 Hurricane 
Season response efforts.
    Equally important as our mission to prepare the first responder 
community for a major event is our mission to prepare our citizen 
communities, as well. Whether that activity is ensuring a continuity of 
service to the special needs community during a major event or is 
educating our children on what to do if a terrorist attack occurs, 
Citizens Corps is the last line of our preparedness defense that will 
allow our first responder community to focus its vital and finite 
resources on ground zero with the knowledge that the surrounding 
community is self-sufficient and taking care of itself. We must keep 
our commitment to build a better prepared America and Citizens Corps is 
part of that commitment.
    For continuation of our commitment to training our Nation's first 
responders, the request includes $94.3 million for SLGCP's State and 
Local Training Program. Further, the request includes $59 million for 
the National Exercise Program, which includes support for State and 
local exercises and for the National Top Officials exercise series. 
Finally, the request includes $10.6 million for technical assistance 
initiatives for State and local agencies and $14.3 million for program 
evaluation and assessments.Sec. 
    The President's request also makes significant changes to how State 
homeland security grant funds are distributed. The large majority of 
the funds under the fiscal year 2006 State Homeland Security Grant 
Program will be distributed by the Secretary of Homeland Security on 
risk and vulnerability.
    For fiscal year 2006, the Administration proposes to redesign the 
homeland security funding process to award State Homeland Security 
Grant Program funds based on an evaluation of risk, vulnerabilities, 
and needs, instead of PATRIOT Act minimum formula--.75 percent minimum 
for States and .25 percent minimum for territories. Congressional 
direction has resulted in the use of population to allocate the 
balance. As you know, this formula has been criticized for failing to 
adapt to the dynamic nature of homeland security risks, threats, and 
vulnerabilities. Awarding funding based on a relative evaluation risk, 
threat, vulnerability, and capability needs (gaps) data will better 
reflect a results-based planning process that supports achievement of 
target preparedness capability levels nationally.
    This program would be a discretionary grant program, not a formula-
based program, which would be based on the following guiding 
principles:
        <bullet> All 50 States, the District of Columbia, Puerto Rico, 
        and the U.S. territories will be eligible for funding.
        <bullet> States will submit detailed applications including 
        macro-level goals and activities and associated justification 
        detailing how those activities address capability shortfalls 
        and enable achievement of the minimum baseline capability 
        levels laid out in the National Planning Guidance (NPG), to be 
        disseminated on March 31, 2005.
        <bullet> Applications will be evaluated and funds awarded based 
        on risk and need, consistent with National priorities.
        <bullet> Funding will be awarded based on a relative evaluation 
        of risk, need, applications, but each State or territory will 
        receive no less than 0.25 percent of the total, or $2.5 million 
        under the Budget request. The actual minimum may be higher 
        depending the extent to which DHS identifies specific 
        capabilities that each State should have.
        <bullet> At least 20% of funds awarded will be dedicated to 
        support law enforcement terrorism prevention activities.
    In order to apply for and receive funds under this program, States 
will be required to update their existing homeland security strategies 
to ensure alignment with national priorities and achievement of the 
minimum capability levels established in the National Planning 
Guidance. Updated strategies will be submitted in concert with fiscal 
year 2006 grant applications, which will include a plan detailing how 
fiscal year 2006 grant funds will support achievement of these 
priorities and minimum capability levels. State applications will 
demonstrate core focus areas, how funding will be used to close 
critical capability gaps in support of the National Planning Guidance, 
and a funding allocation plan.
    Further, the fiscal year 2006 Urban Areas Security Initiative will 
be distributed based solely on an evaluation of risk and needs. In 
making UASI award determinations, the Department will consider a number 
of risk factors, including threat, presence of critical infrastructure, 
vulnerability, population, population density, law enforcement 
investigative and enforcement activity, and the existence of formal 
mutual aid agreements. Additionally, the $600 million requested for the 
Targeted Infrastructure Protection Program (TIPP) will be distributed 
by DHS to supplement State, local and private sector infrastructure 
protection efforts based on risk and needs. For TIPP, the Secretary, 
acting through the Executive Director of SLGCP in consultation with 
IAIP and other components, will make award determinations on a number 
of factors, including relevant intelligence, threat data, and 
vulnerabilities identified at specific critical infrastructure sites.
    For fiscal year 2006, the preponderance of DHS grant funding for 
State, territorial, tribal and local entities - under the SHSG Program, 
the UASI Program, and TIPP--would be distributed based on risk, threat, 
and vulnerability data, which aligns closely with the recommendations 
of the 9/11 Commission and the legislation that was considered by both 
the House and Senate last year as part of the conference negotiations 
for the Intelligence Reform and Terrorism Prevention Act.

    The SLGCP Mission
    SLGCP achieves its preparedness mission by combining three 
distinct, yet interrelated items, along a ``National Preparedness 
Cycle.'' First, SLGCP distributes project funding to our first 
responder community, which consists of law enforcement; the fire 
service; the emergency medical service; public officials responsible 
for emergency planning and response; the public health sector; transit 
authorities including rail and ports; and non-governmental 
organizations. The distribution of the grants and other assistance is 
part of an interactive and highly complex series of activities that 
include the establishment of State and urban strategies, the setting of 
priorities, and the conducting of vulnerability assessments.
    As our first responder community obtains the equipment and training 
needed to prevent, deter, respond to, and recover from a terrorist 
incident, we also engage them in our robust training and technical 
assistance programs that teach them the full spectrum of capabilities 
(ranging from what they need to know to identify a potential threat to 
how to use a particular piece of equipment they recently acquired) they 
will need to successfully perform their jobs in today's ever-shifting 
threat environment.
    The next stage incorporates them to our exercise program that aims 
to test their competency and identify vulnerabilities that will require 
additional training. Finally, we collect data from these exercises, as 
well as from grantee reports and other assessments, to evaluate 
improvements in State and local preparedness and better target our 
programs in the future. This ``National Preparedness Cycle''--
analytically-based financial support, robust training, and results-
oriented exercises--allows us to efficiently and effectively prepare 
our first responder community.
    This ``National Preparedness Cycle'' is depicted in greater detail 
graphically below. 
[GRAPHIC] [TIFF OMITTED] T0053.001

    Since 1998, what is now SLGCP, has provided assistance to all 50 
States, the District of Columbia, the Commonwealth of Puerto Rico and 
the U.S. territories. Through its programs and initiatives it has 
trained 837,000 first responders from more than 5,000 jurisdictions, 
and conducted more than 725 exercises. And, as of the end of Fiscal 
Year 2005, SLGCP will have provided States and localities with over $11 
billion in financial assistance and direct support to State and local 
preparedness activities.
    SLGCP's preparedness mission recognizes the interdependency of 
Federal, State, local and private-sector homeland security missions. 
While SLGCP provides direct support to the first responder community, 
it also provides general support to all elements of DHS and to other 
Federal agencies to ensure that national preparedness is fully 
integrated. It is, as Secretary Ridge so often said, ``one team, one 
fight.''
    SLGCP's preparedness mission is clearly defined and established by 
the Homeland Security Act of 2002 (HSA) [Pub.L. 107-296] through the 
authorities provided to its component, the Office for Domestic 
Preparedness (ODP). Under the provisions of the HSA the Office for 
Domestic Preparedness,
        ``shall have the primary responsibility within the executive 
        branch of Government for the preparedness of the United States 
        for act of terrorism. . .'' [HSA, Sec.430(c)] (emphasis added)
    Under the HSA, ODP has a broad and defined preparedness mission 
covering training, exercises, and equipment support.

    Assess and Coordinate
    SLGCP recognizes the need to assist States in assessing their 
preparedness gaps and vulnerabilities, and to use this information to 
guide their allocation of Federal homeland security funds. To achieve 
this, SLGCP is continually collecting and examining information from 
the field. As an example of this, in Fiscal Year 1999, SLGCP launched 
the State Homeland Security Assessment and Strategy (SHSAS) process to 
assist States in their strategic planning process. The SHSAS process 
was repeated in Fiscal Year 2003 allowing States and local 
jurisdictions to update their needs assessment data to reflect post-
September 11, 2001 realities, as well as identify progress on the 
priorities outlined in their initial homeland security strategies.
    However, while the SHSAS process allowed States and localities to 
self-assess their threats and vulnerabilities, it did not include the 
larger measures of the level of preparedness they needed to achieve. 
This deficiency was recognized with the issuance of HSPD-8 and 
illustrates another level of SLGCP's effort to assess and coordinate 
preparedness.
    Mr. Chairman, HSPD-8 tasks the Secretary of Homeland Security, and 
through his delegation SLGCP, in coordination with the heads of other 
appropriate Federal departments and agencies, in consultation with 
State and local governments, to strengthen the preparedness of the 
United States to prevent, deter, respond to, and recover from 
threatened or actual domestic terrorist attacks, major disasters and 
other emergencies. It requires: 1) a national domestic preparedness 
goal; 2) mechanisms for improved delivery of Federal preparedness 
assistance to State and local governments; and 3) actions to strengthen 
preparedness capabilities of Federal, State, and local entities. The 
developmental work under HSPD-8 will reach its culmination with the 
issuance of the National Preparedness Goal, and accompanying National 
Planning Guidance, which are on schedule to be released by March 31, 
2005.

    Equip States and Localities
    SLGCP's Preparedness Programs Division manages and oversees the 
implementation of preparedness programs at the State and local level. 
Among the Preparedness Programs Division's many tasks is its 
responsibility for the Homeland Security Grant Program, which includes 
the State Homeland Security Grant Program, the Citizen Corps Program, 
the Law Enforcement Terrorism Prevention Program, and the Urban Areas 
Security Initiative, as well as funds for transit and port security. 
The division also manages the Assistance to Firefighters Grant Program. 
Through these programs, SLGCP is enhancing preparedness by ensuring 
that State and local emergency responders have the equipment they need 
to improve their ability to prevent, deter, respond to, and recover 
from threats or acts of terrorism. But simply providing States and 
localities the means to acquire equipment is not enough. Preparedness 
means more than acquiring equipment. It also means identifying 
commercially available technologies and equipment, understanding its 
applicability and usefulness to first responders, and making that 
information available so they can make informed choices when spending 
Federal funds.
    As part of its effort to ensure this, SLGCP, through its System 
Support Division (SSD), works to identify commercially available 
equipment and technologies, and provide the first responder community 
useful information and guidance on that equipment. For example, SSD is 
piloting the Technology Transfer Program (TTP), which provides direct 
technology assistance to small and rural jurisdictions. TTP is 
assisting jurisdictions to enhance their preparedness and meet their 
homeland security missions, by providing technologies to small and 
rural jurisdictions. TTP focuses on identifying currently available 
commercial technology. Importantly, it does not engage in the research, 
development, and testing of new or nascent technologies.

    Train States and Localities
    Training is critical to preparedness. SLGCP's Training Division 
identifies, manages the development of, and approves training to 
prepare the first responder community for terrorism events. This 
function begins with identifying training needs of State and local 
communities and culminates with training development, testing, and 
delivery. SLGCP's training network and resources are extensive and, as 
its training program has matured, SLGCP has placed a high value on 
ensuring that its training efforts are credible, structured, and 
institutionalized.
    For example, the bedrock of all quality training is sound 
instructional design. SLGCP has adopted the Analyze, Design, Develop, 
Implement, and Evaluate (ADDIE) model of instructional design, and has 
promulgated the ODP Strategy for Blended Learning to explain each step 
of the training process. SLGCP also provides practical tools for 
implementation, as well as examples of best practices to increase the 
quality, consistency, efficiency, and accessibility of training.
    Another example of SLGCP institutionalizing and structuring 
training has been our work with the Memorial Institute for the 
Prevention of Terrorism (MIPT) to ensure that ``best practices'' from 
all SLGCP program areas are assessed, and if validated, catalogued and 
posted through the SLGCP sponsored Lessons Learned Information Sharing 
portal (www.llis.gov) for all first responders to use in advancing our 
collective homeland security.
    Exercise
    Exercises are also critical in enhancing the Nation's security. 
Exercises provide first responders a ``risk free environment'' in which 
they practice prevention, reduce vulnerabilities, and sharpen response 
capabilities. Our goal is to help States and communities assess their 
capacity to prevent, deter, respond to, and recover from a disaster and 
provide an opportunity to modify and improve protocols and procedures. 
SLGCP's National Exercise Program provides tailored exercise activities 
and serves as a primary vehicle for training officials and emergency 
response personnel. The NEP enhances the collaboration among all levels 
of government, and provides SLGCP an ongoing venue in which to assess 
training, protocols, and equipment.

    Evaluate and Advise
    Through SLGCP's Evaluation and National Assessment Division, 
national program data is gathered, analyzed, and interpreted. As the 
focal point for information collection and evaluation, it reviews and 
assesses the execution of State strategies against the supporting 
threat, vulnerability, and needs assessment data. As data is evaluated, 
best practices can be identified for replication and knowledge gaps can 
be addressed and mitigated. This information is then provided to States 
and local jurisdictions as part of SLGCP's ongoing practice to provide 
continuous information.
    For example, SLGCP's SSD, as do all SLGCP components, works closely 
with the MIPT. Three separate initiatives developed between SSD and 
MIPT have become models for information sharing among the Nation's 
preparedness community, and provide access to information and tools to 
assist them in determining their vulnerabilities and needs, thereby 
enhancing their overall preparedness. These are the LLIS.gov portal, 
Responder Knowledge Base (RKB), and the Terrorism Knowledge Base (TKB).
        <bullet> LLIS.gov serves as the medium for the dissemination of 
        after-action reports from SLGCP-funded exercises. LLIS.gov is a 
        vital link between the available homeland security preparedness 
        information and the first responder community. Ultimately, this 
        information provides State and local jurisdictions the basis 
        for the development of their homeland security strategies and 
        helps determine their preparedness capacity. By sharing best 
        practices and after action reports, it is our hope that every 
        jurisdiction will utilize this tool in an iterative manner that 
        will allow each jurisdiction to learn from the activities of 
        other jurisdictions so that collectively we start from a higher 
        point of learning.
        <bullet> RKB provides emergency responders with a single source 
        for integrated information on existing equipment, including the 
        InterAgency Board's (IAB) Standardized Equipment List (SEL), 
        SLGCP's Authorized Equipment List (AEL), and National Terrorism 
        Response Objectives.
        <bullet> TKB is the one-stop resource library for comprehensive 
        completed research and analysis on global terrorist incidents, 
        terrorism-related court cases, and terrorist groups and 
        leaders. The portal provides the first responder community the 
        status of terrorism today and takes users through the history, 
        affiliations, locations, and tactics of the global terrorist 
        groups.
    Mr. Chairman, the National Preparedness Cycle is useful in 
explaining SLGCP's mission and activities, and how those activities 
contribute enhancing the Nation's overall preparedness. It should be 
clear, however, that these SLGCP activities cannot exist in a vacuum. 
As with our preparedness efforts, considerable work is being done 
throughout DHS that allows SLGCP to do its job more effectively and 
more efficiently. The S&T Directorate is but one example of how the 
efforts of one part of DHS with the primary mission to set technical 
equipment standards and conduct the vital research and development on 
new or nascent technology that will help us secure our homeland greatly 
impacts our mission to prepare America.
    SLGCP's preparedness activities--from the equipment law enforcement 
and intelligence personnel can use to prevent and deter a CBRNE attack 
to the equipment first responders can use to respond to and recover 
from an attack--are grounded in a larger and an ever expanding world of 
scientific knowledge, research, new technologies, and improved 
standards. In order to understand that world and ground our efforts in 
the solid information that exists, there is and needs to be a natural 
and critical linkage between SLGCP and S&T.
    Like SLGCP, S&T's mission is clearly defined and articulated by the 
provisions of the HSA. Under the HSA [see generally Sec.302], S&T is 
the primary technical standard setting entity in DHS and the research 
and development arm of the Department. It also has the critical mission 
of organizing the vast scientific and technological resources of the 
Nation to support the Nation's security and safety.
    Mr. Chairman, I would like to offer a few examples of how SLGCP and 
S&T coordinate our activities:

    Equip States and Localities
    As you may know, interoperable communications equipment has been 
and continues to be an allowable use of SLGCP's Homeland Security Grant 
Program (HSGP) funds. Interoperable communications was addressed in 54 
out of the 56 current State homeland security strategies, and in 48 out 
of the 49 urban area homeland security strategies. Based on data 
collected from grantees, through the fiscal year 2004 Initial Strategy 
Implementation Plan (ISIP) process, total State expenditures for 
interoperable communications projects from HSGP funds in fiscal year 
2004 totaled $761,068,742, representing more than one-third of the 
total appropriated amount for the HSGP. Additionally, from UASI funds, 
total State expenditures were $239,245,356, which also represents more 
than one-third of the total appropriated amount for the UASI program. 
Taken together, State expenditures to develop and/or enhance 
interoperable communications systems from HSGP and UASI funds totaled 
$922,286,604 and funded a total of 4,208 projects in fiscal year 2004 
alone. To date, more than $1 billion in SLGCP funding has been applied 
toward interoperable communications solutions.Sec. 
    In addressing interoperable communications, SLGCP has worked with 
S&T on a number of initiatives. First and foremost, SLGCP and S&T 
executed a Memorandum of Understanding (MOU) to specify the roles and 
responsibilities each have in addressing interoperable communications. 
Broadly this breaks down into S&T addressing basic research aspects 
including standards development and guidance, while SLGCP will provide 
``on-the- ground'' technical assistance and training to emergency 
response agencies. As such, SLGCP collaborates closely with the SAFECOM 
Program to incorporate standard grant guidance on interoperable 
communications equipment into SLGCP's application kits. Recognizing the 
need for near-term solutions for interoperable communications, SLGCP 
and SAFECOM are also working together as part of the fiscal year 2005 
Homeland Security Grant Program (HSGP) to ensure that a tactical-level 
emergency interoperable communications capacity is developed and tested 
in the fifty highest risk urban areas in the Nation. This initiative 
builds on RapidCom, a SAFECOM lead, and a SLGCP supported effort, which 
worked with ten urban areas to provide assistance to improve incident 
level interoperability capabilities.
    Out of RapidCom, a number of tools were developed to serve the 
first responder community. These included:
        <bullet> A process for an interoperable communications table 
        top exercise that is replicable across urban areas. This 
        scenario-based exercise provides a forum for discussing 
        regional communications interoperability capacity, strengths, 
        and weaknesses.
        <bullet> The Interoperability Continuum which provides a 
        graphical depiction of the multiple components needed to 
        develop a successful interoperability solution, beyond just 
        technology, to include governance, standard operating 
        procedures, training & exercises, and usage of equipment. The 
        Interoperability Continuum provides a framework from which all 
        public safety agencies at the local, tribal, State, and Federal 
        levels can baseline their planning and implementation of 
        interoperability solutions.
    SLGCP also relies on SAFECOM for standards and guidelines to assist 
us in our Interoperable Communications Technical Assistance Program 
(ICTAP). ICTAP is one of our most important technical assistance 
efforts and provides operational support to State, local, and tribal 
agencies' new interoperability systems. ICTAP provides technical 
assistance at no cost to ensure that jurisdictions understand the scope 
of their interoperability needs and how to fully utilize new 
technology. ICTAP's goal is to enable public safety agencies to 
communicate as they prevent or respond to a terrorism attack. ICTAP 
also leverages and works with other Federal, State, and local 
interoperability efforts whenever possible to enhance overall 
communications capacity.
    SLGCP also has partnered with SAFECOM and other DHS and Federal 
agencies to establish the Federal Interagency Coordination Council 
(FICC) to coordinate funding, technical assistance, and standards 
development across the Federal government for public safety 
communications and interoperability.
    To further build on the successful efforts of SAFECOM and SLGCP, 
Secretary Ridge established the Office for Interoperability and 
Compatibility (OIC) in October 2004. OIC serves as the overarching 
program within the Department to strengthen and integrate 
interoperability efforts to improve State, local, tribal, and Federal 
communication. The SAFECOM Program manages the communications program 
area for the OIC. SAFECOM and SLGCP will continue to work together to 
ensure that the Nation's first responder community have communications 
capabilities they require.
    SLGCP's SSD collaborates with S&T on the development and 
implementation of the System Assessment and Validation for Emergency 
Responders (SAVER) Program. SAVER assists emergency responders by 
providing impartial, relevant, and operational validations and 
assessments of critical existing equipment. SLGCP provides S&T with 
information about performance of commercially available products 
evaluated in real world settings and under the SAVER program.

    Train States and Localities
    The National Training Program builds on three pillars: training 
doctrine, training partners, and training technology support tools. S&T 
has provided valuable support in developing these components, 
particularly in the ongoing development of projects undertaken by many 
of SLGCP's training partners, and the development of training doctrine 
pursuant to HSDP-8. These include guidelines, protocols, templates, 
strategies, process, and procedures developed to guide the 
coordination, development, and delivery of training and information.
    As a further example, in October 2004, SLGCP began hosting regular 
meetings to coordinate agroterrorism projects with other Federal 
agencies, including S&T and the Information Analysis and Infrastructure 
Protection Directorate. SLGCP awarded two grants under the fiscal year 
2004 Competitive Training Grant Program in the category of 
agroterrorism to the University of California-Davis and to Kirkwood 
Community College in Iowa. The coordination efforts already in place 
with S&T will continue to help shape these projects and S&T and SLGCP 
exchange project information and data on complementary efforts.
    SLGCP's Training Division has also begun participating in the 
American National Standards Institute (ANSI) Homeland Security 
Standards Panel (HSSP) Training for First Response to WMD. S&T is the 
sponsor for the ANSI-HSSP in its role as the body responsible for 
accepting and promulgating standards for the Department. SLGCP 
continues to participate in these working sessions, providing updates 
with respect to status and direction of the National Preparedness Goal, 
and associated efforts related to the Universal Task List and Target 
Capabilities List.
    And finally, in fiscal year 2004, the Homeland Security Advanced 
Research and Projects Agency (HSARPA) provided funding to the Technical 
Support Working Group (TSWG) to support several DHS projects. One of 
the requirements advertised in the Broad Area Announcement by TSWG was 
for a DHS Advanced Distributed Learning system. The proposals received 
under this announcement were reviewed by the DHS e-learning group 
including representatives of SLGCP and S&T, and resulted in a contract 
award to Vertex Solutions Inc. The execution of this contract continues 
to be a joint effort among the DHS Human Capital Office, S&T, and 
SLGCP.

    Exercise
    The National Exercise Program provides many opportunities for 
intra-DHS and inter-agency collaboration. SLGCP's Exercise Division 
frequently consults with S&T to integrate projects into exercise 
planning and activity. For example, during planning for TOPOFF 3, 
`plume modeling' utilizing the DHS-led IMAAC (Interagency Modeling and 
Atmospheric Assessment Center) system has helped to develop 
scientifically accurate predictions of a hazard zone, as well as to 
predict the human health effects of a large scale chemical-attack in a 
densely populated area. In planning for an upcoming Senior Official 
Exercise, the Bio-Watch program managers from S&T have been 
instrumental in design of an accurate exercise scenario. Additionally, 
IMAAC is supporting the SOE effort through provision of atmospheric 
hazard products for planning and exercise play. Planners from SLGCP 
also work closely with S&T and the law enforcement and intelligence 
communities to confirm the viability of the potential threats addresses 
for the entire range of exercise activity. Future opportunities for 
integrating equipment and technology evaluation into exercise 
activities are under development.
    HSPD-8: Coordination for a Roadmap for Preparedness
    As you know, Mr. Chairman, the Department is moving forward with 
the implementation of HSPD-8. As previously stated, HSPD-8 establishes 
policies, procedures, and goals that strengthen national preparedness 
to prevent, deter, respond to, and recover from terrorist attacks, 
major disasters and other emergencies by requiring a national 
preparedness goal, mechanisms for improved delivery of Federal 
preparedness assistance to State and local governments, and actions to 
strengthen capabilities of Federal, State, and local entities. Its 
significance and anticipated national impact provides SLGCP the context 
in which to develop major program initiatives and specific guidance to 
State and local jurisdictions. This work also illustrates the 
productive connection between S&T and SLGCP.
    In fiscal year 2005 and fiscal year 2006, SLGCP will target its 
programs and policies to help drive the implementation of HSPD-8 
principles across all levels of government. In fiscal year 2005, for 
example, grant resources are available for a variety of purposes to 
support State and local level planning. Specifically, fiscal year 2005 
grant guidance emphasized the importance of building and sustaining law 
enforcement terrorism prevention activities as well as interoperable 
communications.
    HSPD-8 recognizes the importance that S&T plays in national 
preparedness. In fact, two of the 16 requirements laid out by HSPD-8 
relate directly to S&T. First, HSPD-8 States that ``equipment purchased 
through Federal preparedness assistance for first responders shall 
conform to equipment standards in place at time of purchase.'' Second, 
HSPD-8 states that Secretary of Homeland Security, in coordination with 
other appropriate Federal departments and agencies and in consultation 
with State and local governments, ``will develop plans to identify and 
address national first responder equipment research and development 
needs based upon assessments of current and future threats.'' S&T's 
involvement in these two tasks are critical to SLGCP's ability to 
execute its HSPD-8 assignment.
    The S&T Homeland Security Institute (HSI), a DHS Federally funded 
research and development center, has been working in close partnership 
with SLGCP on the implementation of HSPD-8. In addition, SLGCP is 
working with the HSI on development of a Threat Scenario Portfolio as a 
planning, training, research, and exercise reference for the entire 
homeland security community.
    DHS continues to work with OMB and The White House to finalize the 
National Preparedness Goal, which requires coordination with a number 
of other Federal agencies. Along with the National Planning Guidance, 
the National Preparedness Goal will guide the Nation's efforts to 
achieve and sustain nationally accepted risk-based target levels of 
capability to prevent, deter, respond to, and recover from major 
events, especially terrorism. As SLGCP bases future financial 
assistance programs on the guidance and direction provided by National 
Preparedness Goal, it will be essential that SLGCP and S&T continue to 
work collaboratively to ensure that any future standards that are 
developed are incorporated into grant and program guidelines, and that 
the research and analytical capacity of S&T, HIS, and its Centers for 
Excellence are applied to strengthen national preparedness.
    Mr. Chairman, this concludes my written statement. I am happy to 
answer any questions that you and the Members of the Subcommittee may 
have.

    Chairman King. Thank you, Director Mayer.
    Before we go to General Reimer, Chairman Cox and I are 
wondering if there is any way you can change the acronym for 
your agency. We are trying to write it down phonetically, how 
we can get through it.
    Mr. Mayer. I would love to do that, sir.
    Chairman King. It is great to start with that tone of 
cooperation.
    I recognize General Reimer. Before we do, I just wanted to 
commend him for his many years of service to our country in the 
United States Army. In particular, I remember when he was the 
Army Chief of Staff and the great job you did.
    With that, we welcome you for your testimony.

STATEMENT OF GENERAL DENNIS REIMER, DIRECTOR, NATIONAL MEMORIAL 
           INSTITUTE FOR THE PREVENTION OF TERRORISM

    General Reimer. Thank you, Mr. Chairman. Mr. Chairman and 
distinguished members of the committee, good morning. I am 
delighted to be here. My name is Dennis Reimer. I am the 
Director of the National Memorial Institute for the Prevention 
of Terrorism. I have held that job for about 5 years. As 
Chairman King mentioned, before that I served 37 years in the 
United States Army. So I am delighted to be able to continue in 
service.
    Let me just say a word about MIPT, the National Memorial 
Institute for the Prevention of Terrorism. It is the third 
component of the national memorial, and as such our roots are 
buried deep in the rubble of the Murrah Building bombing. The 
family members and survivors of the Oklahoma City bombing felt 
very strongly about having an organization that looked to the 
future, to prevent what happened in Oklahoma City on April 19, 
1995 from happening again. That has been our charter.
    Chairman King, we have reached out to the family members 
and survivors in New York City. I think that bond has 
strengthened even our charter, so we are very pleased with that 
relationship. I want to thank the support that we have 
received. I want to thank the family members and survivors 
publicly for their willingness to share their inner emotions, 
their vision. I want to thank the members of Congress for the 
resources you provided us in the last four appropriations. 
Initially, they were managed by the Department of Justice. Now, 
they are managed by the Department of Homeland Security.
    I think we have accomplished a lot with the resources that 
you have given us. Our accomplishments range from sponsoring an 
exercise called Dark Winter, in which we took a look at the 
smallpox introduction into the world; to trying to develop a 
new treatment for anthrax, which sorely needs to be done; to 
developing better chemical and biological detectors, more 
sensitive, quicker to identify; provide better protective gear 
for firemen; to the three flagship projects, which we currently 
manage. One is the Lessons Learned Information Sharing. 
Basically what we are trying to do here is to reach out to all 
emergency responders and to be able to share best practices, 
good ideas, and valid lessons learned from actual events or 
from training exercises. We think that is the best way to get 
the return on the investment, for everybody to learn from 
everybody else.
    A second is the responder knowledge base, which makes 
available to emergency responders that type of equipment that 
is authorized for their use, how they might go about buying it, 
where they can get federal grants if appropriate, whether it 
has been tested or not, and what are the results of that test. 
The third is the terrorism knowledge base, which is basically 
an unclassified source of information on terrorism. It is 
available to anybody. We have had a lot of good comments on all 
three of those projects. We feel that they have provided a 
service to the nation, and certainly to the emergency 
responders.
    That experience has convinced me that the hearing here 
today, the subject of how do you enhance the preparedness of 
emergency responders, is terribly important. Let me just give 
you a couple of thoughts from my standpoint on how we might go 
about doing that. First of all, I think it is important that we 
have a national system. This must not be just a federal system 
or a state or local system. It must be a national system. It 
must be based upon that partnership, the partnership among the 
federal, state and the local levels of government. There is a 
strong component of the public and private sector that has to 
be a part of that partnership. That national system has to flow 
from the national security strategy. The national homeland 
security strategy was issued in July of 2002, so it is already 
in place. That national system has to incorporate the guidance 
given out by homeland security presidential directives, 
particularly 5, 7, and 8. It has to be a part of that national 
system, or it has to shape that national system.
    It has to institutionalize those things that have already 
been accepted. For example, the national response plan and the 
national information management system are already accepted 
initiatives that are out there for the emergency responders. 
The national response plan is simply a battle plan for the 
emergency responders, for the first responders. The National 
Information Management System is the system of how we do 
business, so it becomes very important that we institutionalize 
that. The missing link is obviously the national preparedness 
goal, which is scheduled to be released in March, 2005. I am 
sure that that is going to establish priorities. It is going to 
help identify national capabilities that are needed. It is 
going to establish a measurement system. That system is going 
to allow us, I think, to more efficiently focus our resources 
so that we get the greatest return on investment.
    I would simply say in summary that that system does not 
exist yet. However, I think it is within our grasp and we have 
to see it through, and we have to bring it to be. MIPT hopes to 
be able to continue our work in this effort to help in this 
area and to be able to be true to our charter, which is to help 
prevent terrorism or mitigate their effects.
    Thank you for the time, Mr. Chairman. I look forward to the 
questions of the committee.
    [The statement of General Reimer follows:]

               PREPARED STATEMENT OF MR. DENNIS J. REIMER

    Mr. Chairman, distinguished members of the Committee, my name is 
Dennis Reimer and I thank you for this opportunity to appear before 
you. I am Director of the National Memorial Institute for the 
Prevention of Terrorism (MIPT) in Oklahoma City, a position I have held 
for almost five years. Prior to becoming Director of MIPT I served 37 
years in the United States Army.
    MIPT has worked diligently for the past five years to try to 
prevent acts of terrorism or mitigate their effects. We are located at 
the site of the largest domestic terrorism attack in U.S. history, but 
September 11th made it clear that the line between domestic and 
international terrorism is hard to draw. Today we must defend against 
terrorist threats of any origin.
    Since our inception our focus has been on improving preparedness of 
the first responder community across the nation. We are extremely 
grateful to Congress for supporting us through four separate 
appropriations. That support has made America's first responders better 
prepared to defend us against terrorism. Initially our awards were made 
through the Department of Justice but the Department of Homeland 
Security has administered our awards since it was created. 
Additionally, we have received small discretionary awards from DHS.
    Our primary effort initially was to sponsor research to create the 
technology and equipment first responders need to deal with terrorism. 
We drew up our first research agenda based on discussions with 
representatives of the first responder community and representatives of 
the research community. We attempted to close the gaps between what was 
needed and what was already being done. I think we were very 
successful.
    Well before 9/11 we were working on over 30 research projects, 
including:
        <bullet> a new treatment for anthrax;
        <bullet> more sensitive chemical and explosive detection 
        systems;
        <bullet> a national technology plan for emergency response to 
        catastrophic terrorism that focuses on technology investments 
        to improve capabilities within twelve National Terrorism 
        Response Objectives (NTROs) that cover the anticipated scope of 
        first responders' requirements for dealing with chemical, 
        biological, nuclear, radiological and explosive/incendiary 
        attacks on the homeland (Project Responder);
        <bullet> a system to kill biological pathogens in heating, 
        ventilation and air conditioning systems;
        <bullet> a system to collect and disseminate best practices and 
        lessons learned throughout the emergency response community 
        (Lessons Learned Information Sharing); and
        <bullet> an unclassified, comprehensive knowledge base of 
        terrorist organizations and their leaders, terrorist incidents, 
        and indictments and prosecutions of terrorists within the U.S. 
        (Terrorism Knowledge Base).
    Feedback has been overwhelmingly positive. These projects have made 
a huge difference in the way the first responder community is able to 
conduct its business.
    While the initial efforts of MIPT were heavily weighted towards 
research programs, we have gradually shifted to doing more in the area 
of knowledge management--the collection and distribution of what we 
know about terrorism and how to respond to it. Our three flagship 
programs--Lessons Learned Information Sharing (LLIS), the Responder 
Knowledge Base (RKB), and the Terrorism Knowledge Base (TKB) have been 
widely accepted by the first responder community.
        <bullet> LLIS allows first responders to share best practices 
        and lessons learned with other members of the community. The 
        cornerstone of LLIS involves expert analysis of the After 
        Action Reports from the Murrah Building bombing, 9/11 and 
        hundreds of counterterrorism exercises. Approved registration 
        is required because this knowledge base contains sensitive but 
        unclassified information. Battalion Chief Mike Puzziferri of 
        the Fire Department of New York said of LLIS: ``LLIS.gov is 
        phenomenal. I wish we had something like this a long time 
        ago.''
        <bullet> The Responder Knowledge Base (RKB) provides first 
        responders with information concerning what equipment is 
        available; whether the equipment has been tested, and if so to 
        what standard; what training is needed to operate that 
        equipment; how they can pay for it and who else is using it. 
        This is an open system. Mike Lucey of the National Technology 
        Transfer Center described the RKB as ``a critical resource for 
        [responders] because they need to know what technology is out 
        there and what works. Their lives depend on it.''
        <bullet> The Terrorism Knowledge Base (TKB) presents over 35 
        years of international terrorism information and five years of 
        domestic terrorism information plus over 20 years of 
        information on the legal aspects of terrorism cases in the U.S. 
        This database is unclassified and available to first 
        responders, analysts, researchers and the public worldwide. As 
        Heritage Foundation homeland security expert James Carafano of 
        the Heritage Foundation said of the TKB, ``The information is 
        very credible, very fresh and authoritative. It's the most 
        comprehensive [terrorism website] I have seen and the most 
        user-friendly.''
    The topic of this hearing ``Enhancing Terrorism Preparedness for 
First Responders'' is one of the most critical issues our nation faces. 
In order to enhance terrorism preparedness for first responders, we 
must have a national system built upon a strong partnership amongst 
Federal, State and local levels of government. Further, with 
approximately 85% of the Nation's infrastructure controlled by the 
private sector, such a system must facilitate cooperation between the 
private and public sectors to be effective. This national system will 
require unprecedented information sharing amongst stakeholders. This is 
not as much a technical challenge as it is a cultural change. Such a 
system does not currently exist, but I believe it is within our grasp.
    This system must flow from the National Strategy for Homeland 
Security issued in July 2002. This strategy will ultimately determine 
the national capabilities that we will require at the Federal, State 
and local levels of government in order to combat terrorism on U.S. 
soil. These capabilities can then be used to define the actual 
requirements for personnel, equipment and training for first 
responders. It is important to remember that we are not starting with a 
clean sheet of paper--initiatives have been taken and others are 
underway that will allow the nation to achieve such a system. We should 
leverage those initiatives.
    The National Preparedness System must incorporate the guidance 
issued in Homeland Security Presidential Directives 5, 7 and 8. The 
National System must build on already agreed upon initiatives such as 
the National Response Plan and the National Incident Management System 
that have been developed by representatives of all levels of 
government. Stakeholders know that the NRP defines what needs to be 
done in order to manage a major incident, whether manmade or natural, 
and NIMS generally defines how it needs to be done. Accepting these two 
tools as standard operating procedures will move us a long way towards 
a National System.
    It must be recognized, however, that we have more work to do in 
areas such as achieving national standards, a coordinated national 
operational framework and common doctrine. All of these elements are 
important to a National System but they can take time to develop and 
implement. We need to do it as quickly as we can but to force the issue 
and set artificial, short deadlines for the development and 
implementation of these elements, I think would be a serious mistake. 
We must get it right.
    I believe we must build a National System through a bottom up 
approach but that approach must be consistent with top down guidance 
that provides the operational framework for such a system. Such an 
approach recognizes the uniqueness of state and local entities and the 
fact that ``one size does not fit all'', but also ensures that there is 
sufficient commonality to effect mutual coordination and cooperation. 
Such a system should also manage risk by defining that risk, 
prioritizing it and allocating resources to get the greatest return on 
investment.
    Homeland Security Presidential Directive 8 required the Secretary 
of the Department of Homeland Security to develop a National Domestic 
All-Hazards Preparedness Goal in coordination with the heads of other 
appropriate Federal departments and agencies and in consultation with 
State, local and tribal governments. This effort will be a critical 
link in the National System. This National Goal should identify 
national priorities and associate performance objectives and measures 
with those priorities.
    While we have considerable experience with responding to natural 
disasters, we have limited experience--albeit tragic--in preventing and 
responding to manmade disasters. We must build upon the all-hazards 
experience gained from response to natural and manmade disasters and 
attempt to better define the threat we face from terrorism. One way to 
accomplish this is by developing a series of Illustrative Planning 
Scenarios. These scenarios can help identify what capabilities the 
nation needs to prevent, protect against, respond to and recover from 
manmade or natural disasters. Illustrative Planning Scenarios are not 
intended to predict future attacks, but rather serve as a planning tool 
that provides first responders an indication of the kind of events for 
which they must be prepared. Achieving the capabilities required to 
prevent these events from occurring or to mitigate the damage caused by 
these events will require specific actions at each level of government. 
Not all capabilities require specific action by each level of 
government, but there must be a coordinated, coherent approach 
involving all levels of government for all capabilities.
    Describing the national capabilities helps first responders 
determine the requirement for personnel, equipment and training at each 
level of government. Once desired national capabilities are described, 
first responders can determine whether they have the means to 
accomplish their mission. If they do not then a gap exists in the 
National Preparedness System. Gaps can be quantified and, resources 
allocated to plug those gaps or operational concepts adjusted to 
mitigate the effect of those gaps. Developing national priorities is a 
complex task based on managing risk through threat identification and 
vulnerability analysis.
    States continue to have the primary responsibility for protecting 
the citizens of their state. State strategies initially completed in 
December 2003 will most likely have to be adjusted to reflect the 
assessment of how their state operational framework for preventing and 
mitigating the damage associated with the multi-disciplinary, all-
hazards approach to disasters fits into the National Preparedness 
System. The best way to conduct this assessment is to assess the 
ability of a state and its municipalities to fulfill their roles and 
responsibilities associated with the identified national capabilities 
necessary to deal with these threats. Such assessments will determine 
personnel, equipment and training requirements across the state in 
addition to what is needed for day to day requirements if appropriate. 
Where excess capability is identified in these assessments, that 
capability can help offset gaps that might exist in other parts of the 
state. Under the most likely situation where gaps exist, mutual aid 
pacts will be required to effect regional coordination and cooperation. 
In some cases, it may not be possible to plug gaps by modifying 
operational frameworks or through regional coordination. In that case, 
these gaps constitute unfilled requirements and risks which must be 
managed in order to achieve the desired level of capability.
    Creating objective levels of capability is central to this concept. 
It is unrealistic with finite resources to believe that the nation can 
fund every desired capability against every kind of threat in every 
place. We can, however, manage risk by prioritizing our list of 
requirements against threats and vulnerabilities and allocating our 
resources to the greatest need.
    Once we allocate resources at the Federal, State or local level, we 
need to assure the effective use of those resources. For example, the 
Responder Knowledge Base provides responders the Authorized Equipment 
List (AEL) approved by DHS. Much of the equipment on the AEL has not 
been tested by an independent testing agency. Therefore, first 
responders are often asked to make purchasing decisions based on 
manufacturers' claims alone. Given the equipment testing infrastructure 
available to the Federal government in both DOD and DHS, we should be 
able to quickly assist first responders in making those critical 
decisions. Manufacturers could provide equipment to designated testing 
facilities where they would be tested by existing testing agency and 
the results of those tests made available to first responders through 
the Responder Knowledge Base. This would provide meaningful information 
on which local governments could better base purchasing decisions. The 
concept is not a great deal different from what is done by Consumer 
Reports or Underwriters Laboratory. Over time equipment standards will 
evolve that ensure compatibility and best value. More importantly, only 
that equipment that is compatible with the operational framework should 
be on the AEL, and by funding only that equipment and 
institutionalizing NIMS, the nation will move to a coordinated national 
operational concept.
    In order to enhance preparedness of first responders, it is 
important to transfer technology already available and needed by the 
first responder community. Congress has provided limited resources for 
doing that but there is enough available to develop model programs in 
various parts of the United States. First Responders in these model 
programs would develop the techniques and procedures to use this 
technology properly. The results could then be proliferated across the 
nation through LLIS and RKB. This concept envisions model programs in a 
large metropolitan area, a medium-size city and a smaller community. 
Spiral development could be used to embed technology in each of the 
communities in order to determine the technology required and the best 
techniques and procedures for using that technology. This system would 
assure the nation that the technology provided is the technology 
required.
    Much has been done; much remains to be done.
    I believe the National Preparedness Goal is a key element of the 
National System. That goal should help identify national priorities, 
provide guidance on desired levels of national capabilities, as well as 
performance objectives and a system of measurement for first responders 
to use against their bottom up assessment. The Goal, scheduled to be 
published this March, should tie the system together. One way of 
looking at this systemic approach to enhancing preparedness is depicted 
on the chart at Appendix A.
    While the establishment of a National Preparedness System is 
daunting, it is not insurmountable. Much has already been done and the 
pieces appear to be coming together nicely. The chore is not 
technologically complex, but it does represent a cultural challenge. In 
order to change the disparate organizational cultures involved, we as a 
nation must understand the threat we face. We must understand the risk 
of failing to prepare. Once the American people understand the risk, 
there is no doubt that they will do the right thing.
    Once again, Mr. Chairman and distinguished members of the 
Committee, I appreciate the opportunity to share my views with you.
[GRAPHIC] [TIFF OMITTED] T0053.002


    Chairman King. General, that was military efficiency. You 
finished in exactly 5 minutes. I want to thank you.
    General Reimer. The Army taught me something, Mr. Chairman.
    Chairman King. Thank you for your testimony. Also, you 
mentioned the fact that you have reached out to families in New 
York. I am aware of that, and I want to thank you. It is very 
much appreciated.
    My first question will be to Director Mayer. Certainly, the 
issue which is being discussed, that is areas where the 
administration has decided not to fund, for instance, the SAFER 
grants. I would ask you the rationale for that, and whether or 
not you believe that the more targeted funding to risk-based 
areas will make up for that and is the more appropriate way to 
go. If you could just give the rationale beyond the decision-
making process.
    Mr. Mayer. Yes, Mr. Chairman. In terms of the SAFER 
program, the rationale the administration has taken is 
consistent with their position and our position since the 
President was elected, which is the funding of fire personnel 
is inherently a state or local obligation, and that the 
obligation of federal funds is to enhance the capabilities of 
the fire service in order to make sure that we build upon what 
the states and locals establish as the base. When we get into 
funding of personnel, that becomes something that we believe 
strongly is the role of a state and local community.
    In terms of the TIPP program, if you could repeat your 
question on that, I will go ahead and answer that.
    Chairman King. Basically, I guess what I am trying to say 
is that of the firefighters, the extent that they are involved 
in the war against terrorism, are they being underfunded, or do 
you believe more funding is going to go their way as a result 
of basing funding on threat? MAYER: I think that the fire 
service is receiving an adequate level of funding to meet the 
obligations that we have across the nation. In terms of the 
risk-based allocation, it will only enhance, I think the 
ability of local and state communities to do a better job of 
focusing their funding where it is needed, whether it would be 
the fire service, law enforcement or other areas of the first 
responder community. So yes, I think it will enhance our 
ability to target funding in a manner that allows those 
capabilities to be built upon what exists at the state and 
local level much more effectively.
    Chairman King. General Reimer, do you want to comment on 
that?
    General Reimer. Mr. Chairman, I do not know whether it will 
enhance the fireman's capability, or the money going to the 
firemen or not. I think it has to be based upon the 
capabilities that we need as a nation in order to execute this 
national prevention system. They could get more money. They 
could get less money. I do not know. I think you have to get 
that system in place, determine the capabilities that already 
exist, determine the capabilities that you are willing to 
accept as a nation, and where you want to go. And then the 
money will go according to the greatest risk, as people have 
already mentioned on the committee. I think that is the right 
way to go.
    Chairman King. Director Mayer, is the administration 
planning to consolidate all the preparedness programs, both 
terrorism and emergency, within SLGCP?
    Mr. Mayer. I think the issuance of the Heritage Foundation 
and CSIS report raised the issue of the consolidation of 
preparedness programs and assets in the Department of Homeland 
Security. I think that is going to be up to the incoming 
secretary to decide. At this point, what we have done is an 
inventory across the department to catalog what are the 
preparedness programs and assets. Other than that, no 
additional steps have been taken and I would defer to the 
incoming secretary to choose that course.
    Chairman King. What is the status of the MMRS, the 
Metropolitan Medical Response System, and how will the need for 
states and regions to maintain the system be incorporated 
within SLGCP and UASI?
    Mr. Mayer. Excellent question, sir. The MMRS program 
currently has 124 cities across the country. It is the 
administration's position and belief that that is a sufficient 
MMRS capability at this point across the country. What we need 
to do is to intergrate that program into the State Homeland 
Security Grant Program, the SHSGP program, and the Urban Area 
Security Initiative Program, the UASI program, so that we can 
then maintain that capability through those funding sources 
going forward, and to make sure that the capability remains 
where it is today and is enhanced as we develop additional 
technological solutions.
    Chairman King. This would be to either Dr. Albright or to 
you. What mechanisms are in place to identify and investigate 
and address the issue of misuse of homeland security 
assistance?
    Mr. Mayer. The Office of State and Local Government 
Coordination, and Preparedness has on a routine basis, our 
preparedness officers out in the states, and has continual, 
daily conversations with the state administrative agents and 
homeland security advisers, and are constantly monitoring what 
is going on throughout the system. We require reports to come 
back periodically from the states on their funding. Whenever we 
are made aware of any type of alleged misallocation of funds, 
we investigate it or refer it to the OIC OIG accordingly, and 
take action where necessary to recoup those funds if we do 
indeed find out that they were improperly used.
    Chairman King. Do you believe the system is working 
adequately?
    Mr. Mayer. I believe the system is working adequately. We 
can always do a better job, though.
    Chairman King. Okay.
    Mr. Pascrell?
    Mr. Pascrell. Thank you, Mr. Chairman.
    In the response that you made to the Chairman of this 
committee, I do not accept it. It is a blending and melding, as 
we say in pinochle, of programs so that we cannot tell what is 
the money for basic needs and what is the money necessary for 
terror needs. That is why the Fire Act was passed long before 
9/11, as you know. The needs were there. The Congress of the 
United States in a bipartisan way decided that they do not 
accept that the local community and the states have the total 
responsibility. That is why the Fire Act has a tremendous 
across-the-board support, and has proven so successful.
    Two-thirds of all the fire departments throughout America 
operate with inadequate staffing. This statistic alone is 
pretty striking in communities of at least 50,000 people. I 
have in the center of my district a city, but I am talking 
about 50,000 or less. We are all in this together, aren't we? 
Thirty-eight percent of the firefighters are regularly part of 
a response that is not sufficient to safely initiate an 
interior attack. You know what that is, right? An interior 
attack in a building on a structure, and a structure fire, 
because of a lack of staffing. I did not make that fact up and 
you did not make that fact up. Congress in an overwhelmingly 
bipartisan fashion, we decided and endorsed the goals of the 
SAFER Act. We appropriated $65 million for that program. That 
was an initiative also long before 9/11, only passed last year 
though.
    On what basis did the administration decide that this money 
was completely unnecessary?
    Mr. Mayer. First, I would like to start by saying that the 
Assistance for Fire Fighters Grant Program has not been blended 
into another program. It remains a stand alone program.
    Mr. Pascrell. At the insistence of the Congress.
    Mr. Mayer. In the 2006 budget, it remains a stand alone 
program that is submitted in the President's budget for this 
year. In terms of, again, the personnel costs being borne at 
the federal level, it is the administration's position, and I 
respect the committee and Congress's disagreement on the 
funding of personnel with federal funds, we will administer the 
2005 funding for the program accordingly, to the dictates of 
the legislation and the authorizing act, but again believe that 
it is the federal funding responsibility for us to enhance the 
capability of the fire service so that they are prepared if 
there is a major event, and to not use the federal funds for 
personnel.
    Mr. Pascrell. Mr. Mayer, as I said before, there were 
20,300 applications for the Fire Act, and about $2.6 billion. 
Did any actual firefighters that you know of help in the 
administration's decision to reduce the funding by one-third?
    Mr. Mayer. The fire program is administered through a very 
intensive peer process where we include members of the fire 
service community to ensure we get the input of the fire 
service. In terms of the crafting of the President's budget, we 
did that with deep consultation with the various players that 
we work with in the fire service community, to the extent 
possible, to craft the budget. The $500 million request is 
consistent with our request last year, and we feel it is at 
sufficient level funding to ensure that the program meets its 
essential needs.
    Mr. Pascrell. I will go back to the Chair. Mr. Chairman, 
this is something that needs to be examined, if I may 
recommend, very, very carefully. This is a sleight of the hand. 
This is a disservice to our police officers, that is another 
issue, and also fire. But I want to ask you this question. One 
thing that is not mentioned today is the role of intelligence 
and threat information in aiding first responder efforts. I 
hear from law enforcement in my district that they get more 
information from newspapers and TV than the Department of 
Homeland Security. This is what they tell our office. This is 
what they tell me. What comes from the federal government is 
often very general.
    I would like your comments on what can be done to improve 
the flow of intelligence to first responders. General, I would 
like your views as an observer from the outside on that 
question.
    Mr. Mayer. Thank you, Congressman Pascrell. We have built 
several different capabilities for us to share information down 
to the state and local level. I would ask Dr. Albright to 
actually speak more specifically about those, given the work 
S&T has done in building those capabilities and identifying 
those capabilities. So I would defer to Dr. Albright to address 
that question more directly.
    Mr. Albright. Actually, the technologies that are in place 
have been actually promulgated by our CIO shop. Clearly, the 
issue that we are trying to deal with here is how do we protect 
classified information. A lot of the information we have comes 
from sources that we need to protect. So what you have to do is 
you have to develop technology that allows you to share 
information across a single network at multiple security 
levels, so that the people who are cleared to secret 
information or top secret information can have access to it, 
and the people who do not end up only seeing the information 
below some sort of tear line. That technology is available. It 
has been developed. It was originally developed within the 
Defense Department as part of some of their efforts associated 
with coalition work there. It is being adapted for use to this 
environment.
    Mr. Pascrell. General?
    General Reimer. Congressman, thank you for the opportunity 
to comment on that. I have used intelligence for 37 years. I 
think I have learned a couple of things from it. First of all, 
intelligence is always a little bit fuzzy. Under the best of 
conditions, you are not going to get a very clear picture of 
what is going to happen tomorrow. It will be a series of events 
that possibly could take place, under the very best.
    The second thing is that intelligence is a very complex 
operation. It requires a pull system from the bottom up, and a 
push system from the top down. What I mean by that is the local 
responders have got to identify those type of things that they 
are interested in in terms of intelligence. It is based upon 
their situation. What are the vulnerabilities? What are the 
risks that they see? Identify those elements of intelligence 
that they want from the federal government. The same thing, the 
federal government has to identify from the locals what they 
want to bubble up to the top.
    That system, I think, has to be in place. I think we are 
moving towards that. I think the key is that Joint Terrorism 
Task Force that is now being established. I do not think we 
should spend a lot of time trying to figure out how to get 
everybody classified, or how to get the proper clearances. I 
agree with Dr. Albright. There is a need to protect the source, 
but I think you can do that in an unclassified way.
    What the people at the local level, in my opinion, want is 
what do we think is going to happen and what should they be 
alert for.
    Mr. Pascrell. General, if I may in conclusion, Mr. 
Chairman, this committee since its inception, both sides have 
stressed the need to have a bottom up situation to secure 
America. We cannot have the idea out there that the federal 
government is the end-all and is going to solve and protect 
everyone of the members of our family. In saying that, I do not 
believe, from what I have seen so far, that there is a bottom 
up resolution so far. We need to get the locals involved. They 
are on the line every day, and they know much more than we give 
them credit for.
    Thank you.
    Thank you, Mr. Chairman.
    Chairman King. Chairman Cox?
    Mr. Cox. Thank you, Mr. Chairman.
    We have embarked on a discussion, both because of the 
questions of the Chairman and the Ranking Member, of the way 
that pre-9/11 programs for assisting first responders integrate 
or work side-by-side with the post-9/11 programs that are the 
rationale for the Department of Homeland Security itself. Prior 
to 9/11, we had a COPS program. Prior to 9/11, we had fire 
grants. What I am hearing in your presentation of the 
department's budget for the next fiscal year is that we are 
going to sort of finger paint these things together. There is a 
good reason for doing so, and there are some reasons not to do 
this.
    I think General Reimer pointed out in his testimony, I know 
you pointed it out in your written testimony, the fact that we 
can learn a lot from our response experience with natural 
disasters. The good news is we do not have an experience base 
and a knowledge base with man-made disasters that is nearly as 
extensive. We do not want to ever acquire that experience-base 
if we can avoid it. So we ought to learn as much as possible 
from our response to natural disasters, and go to school on 
that.
    Likewise, our first responders are not uniquely prepared to 
deal with terrorism. They do not sit on their posts each day 
and wait for the terrorists to come. They also respond to 
everything else that happens, so they have to be all-hazard. 
But when it comes to finance, we need to keep clear, it seems 
to me, how much money we are paying for the pre-9/11 
priorities, which were there before we had DHS and we had all 
these new responsibilities, and how much is additive because 
these are new responsibilities that we are placing on the back 
of the first responders.
    I think there is a real risk when we meld all these things 
together. Yes, we want to be all-hazards in operational terms, 
but I am not sure we want to be all-hazards in funding terms 
because there is going to be a constant moral hazard of robbing 
Peter to pay Paul. Some people have concerns about the COPS 
program. Some people have concerns about the federalism aspects 
of putting all the first responders on the federal payroll. 
Some people have concerns about fire grants for similar 
reasons. Certainly, if you are talking about homeland security 
dollars, there is a lot of concern about buying everybody a new 
fire truck. That may not be the highest counterterrorism 
priority.
    But we have these pre-9/11 programs and we have the post-9/
11 priorities. It would be not only my advice, but I think the 
considered judgment of this committee because we worked on it 
for two years as a select committee with field hearings all 
across the country, listening to first responders; put together 
legislation that passed unanimously in this committee. We have 
tried to work very closely with the department. It would be our 
advice as reflected in section one of the Faster Smarter 
Funding for First Responders Act that we keep separate all 
these programs reflecting pre-9/11 priorities, and we 
consolidate all of the counterterrorism programs.
    My question for you, Mr. Mayer, is whether or not it is the 
department's vision going forward that we consolidate not only 
all the counterterror programs, but all of the pre-9/11 
priority programs as well.
    Mr. Mayer. I think what we have learned so far since 9/11 
is that there are incredible efficiencies gained by 
consolidating programs that have similar functionality, like a 
terrorism focus. At the same time, we also recognize the 
importance of continuing our obligations that preexisted 9/11. 
That being said, a lot of what occurs in the Assistance for 
Firefighters Grant Program, for example, is dual use. A fire 
department when it gets the bell and they start responding to 
an event, they are going to respond to the event and it is not 
going to be an issue of whether it was a terrorism event or it 
was a structural fire from arson. They are going to respond.
    So it is our position that what we try to do is make sure 
that we are creating a broad-based overview that we can make 
sure that as we allocate resources in terms of the terrorism 
funding, that it is not redundant to what is occurring in the 
existing programs, and that those programs are matched in order 
to reduce those redundancies.
    Chairman King. Does that mean that we want to keep them 
separate or merge them?
    Mr. Mayer. I do not think we have made a decision entirely 
on the end-point down the road of whether we are going to merge 
every grant program into a single grant program, for example, 
or we are going to continue with the state program, the UASI 
program, the TIPP program and the Fire Grant Program, as well 
as the EMPG Program, Citizen Corps, those types of programs. We 
are trying to unify those under a single application so that 
for administrative purposes for the states and local 
communities, they have a very simplified process to apply for 
those grants. But we have not reached an end-point in terms of 
these final consolidation into a single grant program.
    Mr. Cox. Mr. Chairman, my time has expired.
    I wonder if I could just on my way out the door, as it were 
in terms of my time at the mike here, instigate a conversation 
between General Reimer and Dr. Albright concerning your 
suggestion, General Reimer, that we have an Underwriters 
Laboratory or Consumer Reports-type function more explicitly 
set up, either within DHS or under the auspices of DHS.
    I wonder if, Dr. Albright, you could react to that?
    General Reimer. Thank you, Mr. Chairman. Yes, the basis of 
my suggestion in my written statement was the fact that 
emergency responders have a menu of equipment to choose from, 
and they seldom have the testing data by a third independent 
agency to make that decision about whether to buy or not. I 
think this nation has a lot of testing infrastructure 
available. I think it is available, and DHS is building some. 
DOD has some what I think is underutilized capability. I think 
by sharing that testing infrastructure, we could require 
manufacturers to require their equipment, or to have their 
equipment tested, that the results of that equipment testing be 
made available to emergency responders, first responders.
    As people use it, they can share ideas about how well it 
worked, and it gets into the consumer report-type approach. We 
have a system in place with a responder knowledge-base to do 
that. That is one of the things I think it is designed to do. I 
hope we can see our way through to do that.
    Chairman King. Dr. Albright?
    Mr. Albright. In fact, actually I think we are in full 
agreement with that general notion. There are obviously a 
number of different ways that you implement this sort of 
activity. For example, in terms of standards for respirators or 
for personal protective equipment, sort of a nonprofit kind of 
organization is capable of doing these kinds of testing, and 
that we would certify as having the appropriate infrastructure 
and appropriate protocols is exactly the way to go.
    On the other hand, you have things like, for example, the 
testing of equipment or the setting of standards for equipment 
that would test as to whether or not a white powder is anthrax 
or not. That is something you cannot generally farm out the 
testing process out to a private or nonprofit laboratory. It is 
the sort of thing you generally would have to do within a 
federal facility. In the President's 2006 budget, for example, 
we have a facility, we are putting $9 million toward a facility 
to test radiological nuclear equipment at the Nevada test site 
against real nuclear material. That is not the sort of thing, 
again, that you can just farm out to anybody.
    So what you really need is a collection of assets that span 
the space of equipment that you do need to test. The trick here 
is to make sure that, first of all, we have appropriate 
standards in place. It is really not enough to simply tell a 
manufacturer to just go out and validate your performance 
claims. It is also important to make sure that those 
performance claims in fact are doing useful things for the 
first responder community. The first responders typically do 
not have within themselves the technical resources to evaluate 
whether a certain performance spec that they read on a 
radiation detector is the appropriate performance spec. They 
are basically at the mercy of the claims of the vendor.
    So the thing you have to do is first set the standard, and 
then create the laboratories and protocols that validate that 
standard and create that Consumer Reports capability.
    Chairman King. Mr. Thompson?
    Mr. Thompson. Thank you very much. I now understand why 
Chairman Cox is the Chairman. He sort of took part of my 
question. But I want to follow up a little bit on where we are 
with respect to standards and testing.
    Small departments like large departments are subject to 
vendor pressure to buy products, from radiation detectors that 
have absolutely no certification or anything like that. Where 
are we in this process of setting standards and making 
requirements within the department so that people who are 
potentially at risk in handling this equipment going to an 
emergency scene can reasonably be assured that the equipment 
being offered is the equipment that will do the job?
    Mr. Albright. We have a fairly robust standards effort 
within the department. We, for example, have issued recently 
through ANSI a set of standards for radiation detection 
equipment. We are about to issue a standard for amino assays 
for people who want to sample these white powder incidents. We 
have tens of thousands of these incidents that happen every 
year across the United States. We have issued standards for, 
again, personal protective equipment, including suits, 
including respirators. That effort is continuing.
    Then we work very closely with ODP to make sure that as 
those standards are issued and promulgated that they become 
part of the grant guidance that goes out to the states so that, 
again, the communities have some assurance that the money will 
be spent appropriately. So it is really, on the one hand, it is 
a push. We are developing standards. We are issuing them. 
Again, we are creating protocols and certifying laboratories to 
test against those standards. We have a technology 
clearinghouse. We work very close with General Reimer and his 
folks to work with the standard equipment list and make sure 
that that kind of information as it becomes available is 
available to the first responders.
    Then at the same time, there is this pull at the other end, 
which is that as the grants are being issued, the people know 
that they have to buy things that really do conform to the 
standard.
    Mr. Thompson. General, do you want to make a comment on 
that?
    General Reimer. The only thing I would say to add to that 
is that there is an agency out there called the Interagency 
Board for Equipment Compatibility and Standardization, IAB, 
which I think does a great job. It has been headed up most 
recently by the deputy fire chief in Seattle, AD Vickery. It 
brings together the combination of users and federal agencies 
and determines those standards that are needed. It helps put 
this issue about standards. They have done a great job in 
coming up with their selective equipment list, which has now 
been blended into an authorized equipment list put out by ODP.
    You now have federal grants tied to the authorized 
equipment list. So I think it is moving in the right direction. 
We do not have standards yet for everything. We need to 
continue to keep the pressure on there.
    Mr. Thompson. Thank you.
    Mr. Mayer, one of the issues I think is perhaps 
philosophical is that while equipment support is significant 
from a federal perspective, the personnel requirement that 
somehow the department sees itself not being involved in, and 
that is a state and local issue, according to your testimony. I 
talk to mayors and county officials all over who feel that you 
cannot separate the two; that when we step back from terrorist-
related incidents and not provide personnel support, that is 
basically an unfunded mandate on those communities.
    I really would like the department at some point to look at 
that, this approach that we cannot help with personnel. It is a 
major, major issue in a number of communities, both large and 
small. As we set policies by which communities are governed, I 
want us to be sensitive to the fact that we need to provide 
resources in many instances to go with those policies.
    Mr. Mayer. We will look into that for you.
    Chairman King. The gentleman from Alabama. I would just 
remind the panel that we have a vote coming up at 11:30 a.m., 
so I would ask members to try to keep their questioning within 
the 5-minute level. No reflection on the gentleman from 
Alabama.
    Mr. Rogers. None taken. Thank you, Mr. Chairman.
    Like Mr. Thompson, I am very sensitive to volunteer 
firefighters. My daddy is a retired fireman, and as a local 
elected official I had a lot of interaction with volunteer fire 
departments. I am particularly sensitive to having their needs 
met.
    I am curious. The $500 million for the Assistance of 
Firefighters Grant Program which you have stated is $150 
million below last year's appropriation. Do you believe that 
number that we have in the 2006 budget is going to be adequate 
to meet the new enhanced needs that our Chairman referenced 
earlier in a post-9/11 era?
    Mr. Mayer. Congressman Rogers, I do believe it is 
sufficient because it is not funds in a vacuum. It is funds on 
top of $2.04 billion with the SHSGP-UASI funds and other 
streams of funding that can help the state and local 
communities prepare in a post-9/11 world. So I do think it is 
sufficient, sir.
    Mr. Rogers. On a second point, the Center for Domestic 
Preparedness is in my district, in Anniston, Alabama. I am 
curious, first, as to your general impression of that 
installation, whether it is meeting its objectives, what it is 
doing right, what it is doing wrong, and how this budget is 
going to affect that installation and the role that it is 
playing. When it comes to these volunteer units, it is in my 
view a wonderful resource.
    Mr. Mayer. Yes, the Center for Domestic Preparedness is a 
tremendous resource and federal asset to the country. Marion 
Cain and the group he has down in Anniston, they do a 
tremendous job. I will be down their next week on Wednesday 
with the group that will be training there. The number and 
volume of first responders that they bring through that 
facility to train on the chemical response issues, they really 
do a top-notch job. It is just a tremendous facility. It is a 
jewel to the State of Alabama, and we are pleased by all the 
work they are doing down there.
    Mr. Rogers. Is this budget number going to adequately 
support their mission?
    Mr. Mayer. It is. It is. What we are trying to do, 
consistent with moving a number of responsibilities to the 
state and local level, is to create a fairly robust training 
program. What we are going to try to do, because we have heard 
some of the constituency and stakeholder complaints about 
trying to get that training out, so we are going to try and put 
more emphasis on getting our awareness and lower level training 
into the state institutions, the fire academies police 
academies and what not, so that places like CDP and our 
national domestic consortium partners in the other states, can 
focus on more the high-level specific expertise that they bring 
to bear, like CDP does with the chemical issues.
    Mr. Rogers. Excellent. That is all I have, Mr. Chairman.
    Chairman King. Ms. Sanchez?
    Ms. Sanchez. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being before us today. I just 
wanted to echo the issue with respect to trying to help with 
the funding of personnel for the local responders. The reason I 
say that is that really in talking to all the local responders, 
for example in the city of Anaheim which I represent, when we 
go on an orange alert, it is about $30,000 extra per day just 
to put the right staff in place that the city feels is 
necessary, considering that we are a big tourist mecca and we 
have so many large venues that generally have ongoing events 
simultaneously.
    And I understand their hesitancy in wanting to fund 
positions, for example. But there might be ways to do it where 
we could actually really help the local agencies. For example, 
I am thinking of the Joint Terrorism Task Force where the local 
agency sends somebody. It has to be a very high-level person. 
That takes a lot, to take a high-level person from local law 
enforcement, and put them out for two or three hours when you 
are having your weekly meeting. That is a big chunk of money, 
actually, for the agencies. So maybe there are ways in which we 
can help fund specific positions. I know a lot of my law 
enforcement agencies have stopped attending those meetings, 
even though they have found them very valuable, but they just 
cannot take away a high-level person and not really be 
reimbursed for that.
    I understand the logic in not wanting to fund particular 
positions for local law enforcement, and of course our 
firefighters, but maybe there are other ways in which we can 
help not make it so painful for them to do the right thing, 
like attending those meetings.
    I also have a question, because I have proposed several 
bills in the last Congress and I am going to try to push for 
these things again. I have proposed a bill to create within the 
Office for Domestic Preparedness an Office of Comptroller to 
oversee the efficient distribution of grants funds from DHS to 
local first responders. I thought that the directorate would be 
the obvious place to put that because of the mission of your 
office to coordinate state and local coordination. So I would 
like to know, do you think that position would be helpful?
    My second question would be, I also introduced a bill to 
award the grant funds directly to the local agency. Right now, 
we pass them through the state. They have to pass on at least 
80 percent of those funds, but the lag-time, or as you continue 
to say it, everybody in the system says, well, they are in the 
pipeline, they are in the pipeline. But the reality is it 
rarely gets down to the local agency. It rarely gets down 
there. When it does, it is a long lag-time. What would you say 
to sending those funds directly to the local agencies, even 
though there would be some oversight by the states as we 
currently have it?
    Mr. Mayer. Let me address your two questions and your 
comment before that in terms of funding. One of the things we 
do do, and have done historically and the 2006 budget allows us 
as well, is the use of the SHSGP and UASI funds for overtime 
during those heightened alert periods, as well as for training. 
So when a firefighter has to go to training, it allows us to 
pay that overtime, so we help the communities with that money. 
So that is one area of how we fund elements of the personnel 
costs.
    In terms of the comptroller issue, that is an issue out of 
the task force on funding that came out last year, that was 
chaired by Governor Mitt Romney. One of the issues was grant 
oversight. In our office, we are presently in the process of 
building that type of business oversight, not an official 
comptroller, but that type of accountable individual within our 
office who will be the grants management authority. So we 
already are on our way to doing that today.
    In terms of the direct funding, we do think it is important 
to continue to have the states as the single point of contact 
to be the responsible entity at the state levels for those 
funds, then to get those funds down to state and local level. 
You are right, there are issues in terms of getting the funds 
delayed and passed back down into the local communities. We are 
currently working through our assistance program to find out 
what best practices exist across the country that some states 
or local communities have done to ensure that that money gets 
out faster, smarter. So what we are going to do is once we get 
those best practices compiled, we are going to get those sent 
out across the country so we can work with the state and local 
communities.
    Our technical assistance program also works with state and 
local communities on helping to identify ways to remove some of 
the blocks that may be occurring in getting the funds 
distributed. But we do believe that it is important to keep the 
state as the recipient of those funds to get those distributed. 
We just need to do it better, faster, to get money down to the 
local communities.
    Chairman King. Mr. Pearce?
    Mr. Pearce. Thank you, Mr. Chairman. I have several 
questions, if I could squeeze the answers down to yes or no, I 
would appreciate it.
    Mr. Mayer. I will speak quickly.
    Mr. Pearce. Mr. Mayer, when I look at the fact that we have 
$310 million out of $2.9 billion, that is all that has been 
moved. You put a decimal on a piece of paper, and you put one, 
two, three, four, five, six zeroes, and you add a one, it is a 
fairly low utilization rate. Do you have a list of the programs 
that are not using the funds?
    Mr. Mayer. We have a list of all the states in UASI cities, 
with their funding, where they have obligated the funds. Most 
of the funds have been obligated by the stated UASI cities.
    Mr. Pearce. Remember, I have a lot of questions here. I am 
trying to press you. You either do or you don't.
    Mr. Mayer. We do have a list. We will get you the list.
    Mr. Pearce. Is it possible to get those lists?
    Mr. Mayer. Absolutely, sir. We will get it to you.
    Mr. Pearce. I appreciate that. I would like to inquire, do 
any of those programs include fire departments?
    Mr. Mayer. The fire departments do receive funding under 
the SHSGP and UASI programs.
    Mr. Pearce. What states are using, what, zero, zero, zero, 
zero, one-tenth of the funds that they were using. Are any of 
those include fire department funds? Are the fire departments 
all using 100 percent of their funding?
    Mr. Mayer. Under the SHSGP and UASI funds, I do not know 
the answer to that question. We will get that to you. Under the 
Fire Act Program, they are.
    Mr. Pearce. I think that is probably a very critical thing. 
Do you ever have oversight hearings to see that if a state 
takes funds, and if an agency in a local area asks for funds to 
be used in a certain way, does the department ever do oversight 
hearings to see that the funds are actually used for that 
purpose?
    Mr. Mayer. We do as part of our daily interaction through 
our preparedness offices with the state and local communities, 
monitor it.
    Mr. Pearce. Is there a high level of correlation?
    Mr. Mayer. We think most of the states are doing a pretty 
good job of using their funds appropriately.
    Mr. Pearce. Do you have examples of states that are not 
doing good? Can we get copies of that if you have examples of 
states not doing well?
    Mr. Mayer. I will get that back for you.
    Mr. Pearce. Thank you very much.
    Mr. Albright, when you get information on drugs and human 
trafficking across borders through the DHS, is it possible to 
share that information? Are you all strict with DHS when it 
comes down to trafficking and illegal substances, do you share 
that information?
    Mr. Albright. I can get back to you on that. My impression 
is that we do share that information. I know, for example, that 
we have a program down at the Arizona border that precisely 
does that.
    Mr. Pearce. Yes, if you would get back to me, because the 
information I have from my district is that it is not a very 
good correlation.
    Mr. Reimer, on your national strategic plan, there are 200 
miles, roughly a couple hundred miles of border in the southern 
part of my district with Mexico, and not even a barbed-wire 
fence. The Los Angeles Times just ran an article about the 
increased activity across there because greater numbers of 
agents have been put in Arizona, California, Texas, and it 
leads to a funnel effect where New Mexico gets the benefit of 
all the illegal activity. So I guess my question is, in that 
national plan what do you anticipate doing about that stretch 
of border that has some interest for me, and how does it play 
into the national plan?
    General Reimer. I am not advocating one way or the other on 
that. I think it has to be addressed. Obviously, it is 
something the nation has to decide what they want to do about 
the borders. I have found that in Vietnam, we were very poor at 
closing off the border. That is a policy issue. Once the policy 
is decided, then you can start putting resources against it. 
That is what I have tried to advocate.
    Mr. Pearce. I guess my question is, in your national 
strategic plan that you testified about and is written up in 
your plan, there is not much discussion of areas of the border 
like ours.
    General Reimer. Are you talking about the national 
strategy?
    Mr. Pearce. The national strategy plan, excuse me.
    General Reimer. I do not know the specifics of what is 
written in that. I will have to go back and look at that part 
of it.
    Mr. Pearce. Okay, fair enough.
    Mr. Albright, you mentioned the nano-technology is doing 
really great things as far as providing biological protections 
for our first responders. Could you give me an example of what 
nano-technology has done?
    Mr. Albright. For example, in detection systems, one can 
develop very sensitive and yet, one of the issues we have with 
detectors in general is the lack of specificity. We can get 
very sensitive detectors, but then they false alarm all over 
the place. With nano-technology, it is possible to develop 
exquisitely selective detection systems for certain chemicals 
that you really cannot do any other way.
    Mr. Pearce. Sure. I appreciate that. I appreciate all your 
answers. We got a lot in the 5 minutes.
    Thank you, Mr. Chairman.
    Chairman King. There is only one vote. Chairman Cox is 
going to leave. I am going to stay and we are going to try and 
keep the hearing going.
    Ms. Christensen?
    Mrs. Christensen. Thank you.
    I would like to welcome the guests. I guess I have a few 
questions. Some have already been asked, so I will just leave 
those alone.
    Acting Executive Director Mayer, on the State Homeland 
Security Grant Program, I notice that there was a difference in 
the amount that the territories had to pay compared to the 
states. The territories receive .25 of their funds federally, 
while the states received it at .75. You say in your testimony, 
I think, that the President's budget for 2006 recommends that 
the states have a minimum of .25 contribution. Has any 
consideration been given to doing that across the board?
    Mr. Mayer. That applies to territories as well.
    Mrs. Christensen. It does apply to the territories.
    Mr. Mayer. They receive .25 as well.
    Mrs. Christensen. Okay, great.
    Dr. Albright, you talked about the RTI, I think that was in 
your testimony, and the need to expand that, or your plans to 
expand that.
    Chairman King. Ms. Christensen, could I just interrupt for 
one moment? Maybe some of the members who have not asked 
questions may want to go over and vote and come back. 
Otherwise, we are going to be without members to ask questions.
    Mrs. Christensen. Okay.
    Yes, given the budget that is proposed for 2006, do you 
anticipate that you would be able to do the kind of expansion 
that you envision within the budget that you have? For 
instance, on RapidCom, would you be able to expand that to the 
next 50 metropolitan areas, the other 50, to the full 50?
    Mr. Albright. No, I do not believe that. I do not believe 
within the fiscal year 2006 budget we have the capacity to do 
that. As you know, RapidCom is primarily a technical assistance 
program where we work with the locals to put together a plan, 
and then to integrate the technology into their communities. 
They buy the technology, though, through their grants programs. 
It is really more personnel than anything else. To the extent 
that we can provide technical assistance, we will.
    Mrs. Christensen. Okay. I guess I would ask both of you, 
because the grants are going to be more distributed more 
closely on the basis of risk and vulnerability and need, have 
you already prioritized the different jurisdictions in terms of 
the risk priority?
    Mr. Albright. In terms of RapidCom?
    Mrs. Christensen. For the grants.
    Mr. Mayer. We have not. What we will do is we will put 
together a working group to really hone down on what should be 
involved in this analysis, so that way we get representations 
from all levels of government to come up with a good consensus.
    Mrs. Christensen. We have long been concerned about, since 
the committee has been in existence and the department has been 
in existence, some of the delays in getting the different 
directorates up to par, staffed, some of the mandates 
addressed. There was a report in The Washington Post that 
indicated that there was a lot of in-fighting within the 
department. You, Mr. Mayer, pointed out that you do not exist 
in a vacuum; that you have to work with the other directorates 
and agencies within the Department of Homeland Security. Have 
you seen the article? I would like to hear your comments on it 
because, again, we have been very concerned about the slowness 
of some of the directorates.
    Mr. Mayer. Yes, I think we have worked extensively across 
the department with S&T on the issues where we have 
similarities with the Emergency Preparedness and Response 
Directorate, with the Intelligence Analysis and Infrastructure 
Protection Directorate. Really, everywhere where there is a 
cross-cutting issue, we work closely and coordinate very 
effectively.
    Attendant to the merger or consolidation of 22 agencies 
into a new department, you are going to have bumps in the road. 
I do not think that what is reported in the press is 
consistent. I think that there obviously are going to be bumps 
in the road, but the department is functioning well and it is 
working very hard on its missions, whether that is in my office 
or Dr. Albright's office or elsewhere.
    Mrs. Christensen. So as we have our hearings in this 109th 
Congress, we can expect to see some improvement in the speed 
and setting up of the different agencies and the directorates 
and meeting the mandates.
    Mr. Mayer. I cannot make any promises, but we will try.
    Chairman King. The gentlelady's time has expired. The 
gentlelady from Florida.
    Ms. Harris. Thank you, Mr. Chairman, and thank you all for 
being here today.
    Acting Director Mayer, I had a couple of questions. One, I 
wanted to align myself with Congressman Rogers's comments on 
firefighters, especially post-9/11, when we saw their enormous 
courage and sacrifice, as well as the life-saving equipment 
that they so desperately need today. Thank you for your 
comments about the additional funding that will be coming 
through the other channels. We will just continue to monitor 
that.
    I had a question. The President's budget proposal requires 
that the states update and prioritize their existing homeland 
security strategies in order to meet a soon-to-be-released 
minimum capability level in national preparedness on all of the 
priorities. One, I wondered, when do you anticipate that date? 
Is it going to be in the near future? How much time will the 
states have to comply with those minimum standards? Are there 
any states already that are adequately addressing those 
standards that are going to be proposed?
    Mr. Mayer. Excellent question. The national preparedness 
goal and planning guidance will be issued on March 31, 2005, so 
roughly less than 2 months from now. What we will then do is 
once that is issued and we have guidance, we will do a roll-
out, a series of roundtables and town halls across the country 
in order to bring everyone up to speed, and then work with them 
as they update their state strategies and their plans to make 
sure that they incorporate what we have identified as those 
target capabilities. So they will have adequate time to do that 
once we get that information out to them.
    What was the third part of your question?
    Ms. Harris. Have any states already reached that adequate 
position?
    Mr. Mayer. Because the HSPD-8 implementation process has 
been interactive in the sense that we have involved people from 
all levels of government, state and local communities, many of 
them have participated in the development of those lists and of 
that information. So a lot of states are already doing a lot of 
work towards knowing this is coming, towards getting up to 
speed to prepare for that eventual product.
    Ms. Harris. Thank you.
    Dr. Albright, as you are aware, Congress has just completed 
a massive consolidation of our nation's intelligence functions. 
The reforms are primarily designed to facilitate better 
communication between all the agencies. The President's budget 
has called for an additional consolidation of the science and 
technology. What mechanisms are in place that are going to 
ensure that those key individuals within the S&T Directorate, 
as well as the Department of Justice, Treasury and State, are 
going to properly leverage those resources and share the 
critical information of S&T with each of the departments, so 
they are going to know about all of the different activities 
that go on?
    Mr. Albright. Right. There are actually a number of both 
formal and informal coordination activities that occur across 
agencies. The RDT&E consolidation that is in the President's 
budget refers to the consolidation of activities within the 
Department of Homeland Security. But as you well know, homeland 
security writ large is really the activity of almost every 
federal agency, and every federal agency that has a research 
and development activity clearly has some role to play in 
homeland security.
    The perfect example is Health and Human Services. They are 
responsible for developing medical counter-measures to 
bioterrorism events. In fact, their budget is almost twice as 
big as ours in total. So what has happened is that at the White 
House level, both through the Office of Science and Technology 
Policy, the National Science and Technology Council, and then 
also through the Homeland Security Council, there are a number 
of very formal interagency working groups that I am part of and 
staff are part of, that are dedicated to in fact coordinating 
and exchanging information, making sure that everybody has de-
conflicted what they are doing, and everybody understands what 
their running lanes are.
    And then, of course, there is a lot of informal activity. I 
personally meet with Tony Fauci, for example, probably about 
once a month just on a variety of issues. I meet with the 
Department of Energy folks all the time. So it is a fairly 
small community and we all kind of know each other. So 
informally, there is a lot of coordination that occurs at that 
level as well.
    Ms. Harris. But Homeland does not have its own R&D? It does 
not have its own?
    Mr. Albright. Oh, yes it does. Absolutely. In fact, we have 
a $1.4 billion budget.
    Ms. Harris. So that is how you formulate it.
    Mr. Albright. Absolutely. Right.
    Chairman King. I am going to recess the hearing for 10 
minutes. Unless the parliamentarian objects, I am going to come 
back at 11:40, but give Congressman Dicks the opportunity to 
make a statement to General Reimer.
    Mr. Dicks. I just wanted, first of all, to say hello to 
General Reimer, who I have always seen in a different venue 
over at the Defense Appropriations Subcommittee. I did not know 
you were doing this. I think it is outstanding. I had a chance 
to read your statement when I got here, because I was over at 
the Defense Subcommittee.
    How do you think we are doing overall?
    General Reimer. Congressman, I think we are making 
progress. I think the question is, are we making progress fast 
enough. I think we are in a race with time. I think, as we used 
to say in Oklahoma City, it is not a matter of if this happens 
again, but when it happens again. I think we certainly have a 
threat that we are going to have to deal with. I think it is of 
some urgency that we do it as quickly as we possibly can.
    I think the creation of a national preparedness system will 
allow us to start to focus on the threat, the vulnerabilities, 
and provide us a good means of allocating resources. So I am 
optimistic that we are making progress. I would just hope that 
we could do it a little bit faster.
    Mr. Dicks. On your three key programs, your flagship 
programs that you mentioned, are they out to all these people? 
Are there Web sites? Can they be drawn upon?
    General Reimer. Yes. The LLIS, the Lessons Learned 
Information System, was launched last April 19. It is a 
national system. It is available to emergency responders. 
Because it has sensitive information, not classified 
information, but sensitive, emergency responders must go 
through a registration process, but we have tried to minimize 
the hassles associated with that.
    Responder Knowledge Base is available. It is an 
unclassified system. It is something that emergency responders 
can go in and look at the authorized equipment list to get 
comments concerning how well that authorized equipment list 
works; make decisions about where federal grants are and get 
help in putting federal grants against that. The other one is 
totally unclassified. It is a Terrorism Knowledge Base which 
allows anybody anywhere in the world to come in there and to 
bore down in specific areas on unclassified information. I 
basically took the RAND database that they had accumulated for 
35 years and put it in a one-stop shopping center. It has been 
very, very helpful to emergency responders, researchers, 
everybody.
    Mr. Dicks. Keep up the good work. I will come out and see 
you there.
    General Reimer. Thank you, Congressman.
    [Recess.]
    Mr. Cox. [Presiding.] The hearing will resume, and the 
first question goes to Ms. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman.
    I want to thank the panel. I would like to follow up on an 
issue that was briefly alluded to by, I believe, Mr. King and 
maybe Mr. Pascrell with regard to formula. Perhaps I should 
direct this to Mr. Mayer. I applaud the President's efforts to 
better target out first responder funding to areas with 
increased risk and threat of a terrorist attack. Certainly, 
many of this feel this is long overdue.
    We have distributed billions of dollars to areas with a low 
risk of attack, and this is somewhat related to Mr. Pearce's 
comments before, wanting to know where the money is that has 
not been used. The most vulnerable cities are left without 
sufficient funds to prepare for terrorist attacks. One of my 
top priorities, and I know it is one of Mr. King's, Mr. 
Pascrell's, and Mr. Sweeney's, several of us, has been to 
ensure that New York receives its fair share of homeland 
security funds.
    Quite frankly, it really does amaze me that we have gone 
this long allocating such a large portion of homeland security 
funds based on everything but the risk of a terrorist attack to 
a particular area or region. It seems to me that the solution 
is not to specify in the budget every single year how we want 
funds to be allocated. I know there was an adjustment, and you 
will probably tell me that New York did get a pretty fair 
allocation, but it is still not in the change of formula which 
many of us requested.
    You probably know that in the 9/11 bill, we had a change of 
formula in the House bill. I do not know why the Senate did not 
concur, but they did not. So it seems to me and to many of us 
that the solution should be to make permanent changes to the 
funding formula to ensure that our dollars go to those who need 
it the most. Maybe you can tell me, how would a permanent 
change in the way that these homeland security dollars are 
allocated benefit a high-risk city such as New York? And what 
is most important, your office's capability to plan in advance 
to work with states on the planning process? Mr. Mayer?
    Mr. Mayer. Thank you, Congresswoman Lowey.
    Yes, the President's 2006 budget indeed does request a 
change in the formula from the .75 base and the rest done by 
population, to a .25, and then the remainder done by risk and 
need, which is the SHSGP Program. The UASI Program, which is in 
its fourth year, is and has been based on risk and threat, in 
which New York has consistently been the top city in that 
program.
    So as we progress through those two programs in the 2006 
budget, what you will find, I think, is with the UASI Program 
being risk as it has been, and then the change of the SHSGP 
program from the PATRIOT Act formula to a .25 base minimum, and 
the rest done by risk and threat, that we are doing our best to 
make sure that we focus our finite resources in both personnel 
and funding to those areas that are of most interest to our 
enemies, and therefore are of the most concern to our nation. 
So we are doing that in the 2006 budget.
    Mrs. Lowey. Well, I assume you would like to see a formula 
change permanently so that you can plan ahead, and that those 
states with the greatest risk would know in advance, and it 
would make it easier for you to allocate.
    Mr. Mayer. That is correct. The 2006 budget we hope is a 
permanent change.
    Mrs. Lowey. Now, I also am looking at the budget request, 
Mr. Mayer. I have noticed that many programs have been moved 
from one program area to another. One example, port and transit 
authorities which received around $300 million under the Urban 
Areas Security Initiative Program in fiscal year 2005 are now 
placed in the new Targeted Infrastructure Program. UASI Program 
funding is distributed to high-threat, high-risk urban areas, 
and the proposed Targeted Infrastructure Program does not 
appear to be restricted to high-risk areas.
    I appreciate the fact that the President's proposal does 
incorporate, as you said, the idea that funding should be 
directed to areas most in need of the programs, but why isn't 
the policy of distributing money based on the threat of 
terrorist attack put into place in more of the grant programs?
    Mr. Mayer. Thank you. The TIP program will be based upon 
risk. So what we have done is consolidate a number of programs 
into a larger infrastructure protection program.
    Mrs. Lowey. Is it restricted? Am I wrong? Is it restricted 
to high-threat areas?
    Mr. Mayer. It is not restricted to the UASI areas. It is 
restricted to sensitive, critical infrastructure and high-risk, 
whether it is port, transit, or critical infrastructure, inner-
city bus, those types of issues. So it is not restricted to the 
UASI jurisdictions, but we are trying to take a national 
capabilities-base view. So there may be critical 
infrastructure, let's say Los Alamos, where we would want to 
help that critical infrastructure be built, but the focus is 
going to be on risk.
    Mrs. Lowey. I guess I will have to save the 
interoperability question. I see the red light, Chairman King.
    Chairman King. [Presiding.] As you know, I would be very 
hesitant to ever shut you up. But now that you have shut 
yourself off, I will.
    Mrs. Lowey. Oh, no, no, no.
    [Laughter.]
    Chairman King. Yes. The Vice Chairman of the full 
committee, Mr. Weldon.
    Mrs. Lowey. Always a gentleman, Chairman King.
    Mr. Weldon. Thank you very much, Mr. Chairman. I look 
forward to working with you.
    Let me start off by thanking the distinguished Chairman for 
allowing me to travel to Moscow last week and give the opening 
speech at the first U.S.-Russia Homeland Security Conference. 
There were 25,000 people in attendance. As I walked the exhibit 
area, it was amazing to see not just the hundreds of American 
companies that were there, but the unbelievable technology that 
Russia has. That group will be coming over here, and perhaps we 
can even learn from some of their technology. I appreciate the 
Chairman supporting that effort.
    I am going to raise a series of priorities. First of all, 
and I am sure Mr. Pascrell already brought this up, the lack of 
funding for the SAFER Program. Here is my problem. The 
administration continues to support money for the COPS program, 
not under your jurisdiction. But the COPS program is designed 
to put more police on the streets. Is a police officer more 
important than a firefighter? The point is, if the SAFER 
program is not appropriate because the federal government 
should not be involved in supporting local fire protection 
efforts, then why is the federal government supporting money 
for local police efforts?
    The fact is, if you take all the money under our 
jurisdiction for first responders, and you add in the money 
under DOJ, which includes half the cost of protective vests. I 
used to be a local mayor. The federal government pays for half 
the costs of that. Is the life of a police officer more 
valuable than the life of a firefighter? We lose 100 
firefighters each year.
    So my question is that needs to be answered this year, and 
it is one that you are going to hear from these members, why is 
there a discrepancy? The last time I calculated, we are 
spending $4 billion a year on local police officers and law 
enforcement. I am a strong supporter of the police. But how do 
we differentiate between a police officer and a firefighter? 
Specifically, the SAFER program, which passed with an 
overwhelming majority, has no money. Then if that is the 
priority, then why are you funding the COPS program?
    Clearly, it is a double standard as far as I am concerned. 
AmeriCorps needs to be re-implemented. I know it is not under 
our jurisdiction, but you need to know that the volunteer fire 
service in this country, 32,000 departments, are hurting for 
manpower. That is why we put into place the SAFER program, 
which also provides grants for volunteer companies to recruit 
more volunteers.
    It was amazing for me to find out a few years ago, but it 
does not surprise me in this city, that the AmeriCorps program 
which was designed to create volunteers did not think it was 
politically correct to support volunteer firefighters. So in 
the first 5 or 10 years of the existence of AmeriCorps, the 
32,000 fire departments and the 1 million volunteers were not 
eligible for the AmeriCorps program. Talk about stupid. There 
has been some movement. I would encourage you as a no-brainer 
and a no-new-dollar element to use your influence to have the 
AmeriCorps program aggressively support volunteer fire and EMS 
organizations. It does not cost any more money.
    If they put out guidelines specifically for fire companies 
and paramedic units that are volunteer, you could go a 
tremendously long way to help, because we cannot fully fund the 
SAFER bill. It does not solve that problem, but it is a way 
that we can help. Your influence, because we do not have 
jurisdiction over that, can be a big help to us.
    The third thing is, we need to get involved in some very 
specific technology. I am going to mention two areas. For the 
past 5 years as a senior member of the Armed Services Committee 
and a member of the Science Committee, and former Chairman of 
Defense R&D, I am appalled that we have spent taxpayer money to 
develop GPS technology, and we have not mastered it in the 
military for both vertical and horizontal. We have also 
mastered sensor and transmitter technology for our soldiers.
    The question becomes, why then haven't we developed a 
technology application that you can have a firefighter or 
police officer wear that tells you where they are and how well 
they are doing at every incident? If we had had that in Boston, 
we would not have lost six firefighters. When their air supply 
ran out in the warehouse, the chief did not know they were 
laboring, did not know they had collapsed. He sent four more 
firefighters in to get them. All six died. If they would have 
had GPS transmitting devices on them, and if they would have 
had the transmission devices monitoring heart rate, pulse, 
breathing conditions, we could have gone in, known where they 
were, and gotten them out. It is a no-brainer.
    So this year, this session, as our homeland security 
leaders evolve with emergency response, that has got to be a 
top priority because that saves lives. It saves the lives of 
firefighters and police and paramedics who are killed every 
year by these circumstances.
    The same thing applies to a situation that I uncover when I 
visited the Loma Prieta Northridge earthquake. Was that 12 
years ago, Mr. Chairman? I was walking the freeway with the 
chiefs of San Francisco and Oakland, and with the incident 
commander from California, Jim McMullin. They were looking for 
people trapped in vehicles in between the freeway. I said, 
chief, why aren't you using thermal imagers, because your dogs 
cannot get down into the crevices between the two layers? The 
chiefs of Oakland and San Francisco, two very capable 
departments, said: What are thermal imagers? They were not 
aware that the military developed thermal imagers 10 years 
earlier, yet thermal imagers have a tremendous value for 
emergency response.
    So we came back and put a bill into play 12 years ago to 
create a national computerized inventory that could be accessed 
through a Palm Pilot, so an incident command officer on the 
scene, whether it is a fire chief or whatever it is, if they 
needed, say, like Chief Marrs when Oklahoma City needed 
structural engineers. He could go into that, punch in 
``structural engineers,'' and know where to get that help 
immediately because he had people trapped in that multi-story 
building.
    That kind of capability, we ought to be developing for 
homeland security because that gives the incident command 
officer the kind of tool that lets them deal with problems 
immediately. The technology is there. The resources are there. 
So I would ask you to look at that as a challenge and a 
priority for this year.
    Finally, interoperability. It was mentioned by the Ranking 
Member and others. It is a number one issue. You cannot have 
departments come together and not speak to each other. When I 
was at the first World Trade Center in 1993, with Fire 
Commissioner Safir, he sent me down to the command post. I 
said, what is your biggest problem, Commissioner? He said, the 
fire department cannot talk to the port authority; the port 
authority cannot talk to the police. That was in 1993. Eleven 
years later, we still do not have an interoperable domestic 
communications systems. We need you to help fight the battle on 
frequency spectrum allocation. The Congress in 1995, after the 
PSAC Advisory Committee reported that certain frequency 
spectrums should be set aside for public safety, still has not 
done that because the big carriers, the big TV giants, do not 
want to give up that frequency spectrum.
    Those are the areas that in my opinion need the most 
attention for this group of people, and I would appreciate your 
help this year.
    Mr. Mayer. Just on two issues, Congressman. Of course, you 
have done wonderful work in the fire service, and I had the 
honor of being at the fire service dinner last year and I think 
I have your bobble doll in my office. I feel like a bobble doll 
today, but it was a wonderful gift.
    [Laughter.]
    Mr. Weldon. We will make one for you.
    Mr. Mayer. Thank you. As you know, we have launched the 
Fire Corps Program under our Citizen Corps umbrella, which is 
going to help hopefully to meet some of the needs of the 
firefighter and fire departments across the country that could 
use that volunteer support. We hope that that program will be 
as successful as the Citizen Corps Program.
    Mr. Weldon. Is that under AmeriCorps?
    Mr. Mayer. No. It is under the Citizen Corps, Freedom Corps 
initiative through the White House. So the Citizen Corps 
program, which is in our office, and the request is for $50 
million in the 2006 budget is so that we can continue to grow 
that Fire Corps Program. We launched that back in November, 
December of this past year.
    In terms of interoperability, you are absolutely right. 
Just so you know, in fiscal year 2004, which is where we have 
our data, the amount of money spent on interoperable 
communication in the SHSGP-UASI program was just under $1 
billion. It was the single largest element of money we spent. 
Across the spectrum of what we do, interoperable communication 
was the number one place where money was spent. So we are doing 
good work. We have a lot more to do, and I know that Dr. 
Albright and his team are working very hard on the final 
solution to that, but we are doing some good work there.
    Chairman King. The gentleman from Texas.
    Mr. McCaul. Thank you, Mr. Chairman.
    First, I want to thank the administration for moving 
towards a risk-based formula. I think that was a step in the 
right direction. I worked in counterterrorism with the Justice 
Department in the Western District of Texas for a while. I 
think that is certainly the right approach.
    I had a question, though, about the UASI grant money. Is 
that also going to be allocated on a risk-based formula, or is 
that just going to remain with the top 50 metropolitan areas?
    Mr. Mayer. Yes, Congressman McCaul, the UASI program 
identifies the top 50 areas, but it is based on a risk-threat 
formula that includes population, population density, presence 
of critical infrastructure, open investigative work by the FBI, 
and the ICE, our own Customs folks. So it is a formula that we 
designate that then determines what are the top 50 cities that 
then get funded through that program, so it is based on risk.
    Mr. McCaul. I would remiss if I did not raise my home town, 
that is Austin, Texas, which is the capital of the President's 
home state. There was a recent Pakistani that was arrested and 
charged with making false statements. He took pictures of the 
historical landmarks, including the Mansfield Dam. In my view, 
that is a city with a major risk factor, a major one, and I 
would ask that the administration take another look at that in 
their funding calculus.
    Lastly, I wanted to talk about the Joint Terrorism Task 
Force. I had a lot of experience with them. I think it is a 
great way to get various levels of law enforcement together 
working as a team. Sometimes you have turf battles, but I was 
curious with the formation of DHS how they are coordinating 
with the Joint Terrorism Task Force?
    Mr. Mayer. It is my understanding that the coordination is 
going well. You know, there are always again the hurdles of 
getting through the various issues of territory, but I think 
they are doing a good job and they are advancing on their 
mission.
    Mr. McCaul. Are they fully participating? I know sometimes 
the FBI is sort of viewed as the lead agency, although 
sometimes they try not to be. Sometimes they try to be. Is 
there a problem, you think, with the coordination, or do you 
think they are fully integrated at this point?
    Mr. Mayer. I do not have the level of detail to actually 
answer that.
    Mr. McCaul. I understand. It is not a funding question.
    Lastly on the regional offices, I think again those are 
great things for advancing the ball on homeland security. Does 
the administration intend to expand regional offices to areas 
like my state and other large states?
    Mr. Mayer. I think we are going to establish regional 
offices. I am not sure they have decided where and to what 
level those will be staffed. I think that is still in the 
formative stage.
    Mr. McCaul. Okay. If you get an answer to that, let me 
know. I would be interested in that.
    Thank you, Mr. Chairman.
    Chairman King. Sheriff Reichert?
    Mr. Reichert. Thank you, Mr. Chairman. I like that title, 
``sheriff.''
    [Laughter.]
    It is hard to get used to the change.
    Chairman King. I would just like the other members to know 
if we need an enforcer, you are the man.
    Mr. Reichert. Thank you, sir.
    [Laughter.]
    My question is obvious, because I am coming from the 
perspective of the first responder, specifically from law 
enforcement. I spent my career in a patrol car as an 
investigator, as a SWAT commander, as a bomb unit commander, 
and the last 8 years have been the sheriff in Seattle, which 
has also been mentioned as one of the hot spots in the country 
as far as a terrorism target.
    I would agree that there is a lot of work to do in building 
partnerships, but I have seen a lot of improvement and a lot of 
progress being made, so I want to congratulate you for that. 
Communications sometimes between local law enforcement and the 
federal agencies is, to say the least, tough. So there has been 
a movement towards partnerships. I just want to focus first of 
all on intelligence. It is great to be prepared for an event 
that has happened and respond to that, and have all the 
equipment and the training that you are talking about here 
today. But I think we want to prevent.
    One of the most important aspects of prevention is the 
gathering of intelligence, as the general spoke about. There 
are some things that we have to be concerned about as we gather 
intelligence. Working with the Washington Joint Analytical 
Center and the Antiterrorism Task Force that is in Seattle, one 
of the things that we have noticed, a weakness in the system of 
gathering intelligence and having it analyzed then by the 
analytical center, is the collection of the data and the first 
and real-time information exchanged between those in law 
enforcement on the ground in their police cars with their 
laptops.
    Just an example, not too long ago, one of our police 
officers in the State of Washington stopped someone and wrote 
them a ticket. They were released. As the ticket processed its 
way through the court system, it was discovered this person's 
name was one that we should have been interested in as 
connected to al Qaeda. He was committing small crimes in the 
area and then moving the money to that group. If we had that 
real-time information on the street, we would have had that 
person in our custody and not had to retrace our steps to 
relocate.
    I am interested in knowing whether or not there is any 
funding that has been set aside or allocated for that kind of 
communication system and intelligence gathering, exchange of 
real-time information.
    Mr. Mayer. Excellent question. The bulk of that work is 
being done in our IAIP Directorate, in the HSOC, Homeland 
Security Operations Center. What we are doing, prevention is an 
incredibly important element of the work we need to do to 
secure this country. A fair amount of the work being done now, 
especially with HSPD-8 as we come out with those capabilities, 
some are focusing on the prevention elements, intelligence 
gathering, intelligence sharing. There is a huge, huge lack of 
intelligence analysts across the country, whether it is at the 
federal level or at the state level. One of our competitive 
training grants from the 2004 program to Michigan State 
University, which has a very good intelligence program at the 
graduate degree level, is to develop a training course on 
intelligence so that we can then take that training course and 
distribute it as much as we can across the country to the cop 
on the beat who is going to be the person that notices someone 
filming a physical structure or who pulls somebody over and 
does the data check.
    So work is being done. I cannot give you the details of 
where we are in terms of the ability for a real-time patrol car 
to have the intelligence that is up at the federal level or 
occurring across the country and elsewhere, but we are getting 
there. It is going to take time because of the obvious issue 
with intelligence sharing.
    Mr. Reichert. That is one of the frustrations that local 
law enforcement certainly is experiencing, because since 
September 11 it has been a promise that has not materialized 
yet.
    The other piece of that is the Link system in Seattle, as 
you might know, is one of the five sites across the nation that 
have been chosen as a test site for Links. I am wondering if 
that is still a program that is still being pursued.
    Mr. Mayer. I apologize, but I do not have information, but 
I can get that back to you.
    Mr. Reichert. Okay.
    Mr. Weldon. Will the gentleman yield?
    Mr. Reichert. Yes.
    Mr. Weldon. There is a program called JRES. Are you 
familiar with that?
    Mr. Reichert. No.
    Mr. Weldon. It is a program that was started in L.A. and 
New York that basically is integrating of data for law 
enforcement that is very successful. You might want to get a 
brief on it. Does that come under your jurisdiction or is that 
under Justice?
    Mr. Mayer. JRES I believe came out of Homeland Security so 
we can definitely get a brief for you on JRES.
    Mr. Reichert. Back to the intelligence issue again. FTEs 
and federal monies is not a new thing. FTEs are paid for in the 
Dangerous Offenders Program Task Force with the FBI and also in 
HIDA Task Force. So when you talk about analysts, I think it is 
one of the things that I hear locally in the Seattle area is 
that maybe there could be some funding set aside for training 
of analysts, and also maybe even look at funding some analyst 
positions. They do not pay overtime, but they do pay for the 
FTE.
    Mr. Mayer. In terms of the training, that is absolutely an 
allowable expense. It is development of the training courses, 
and once we get those, that will be something that is 
reimbursed under both our SHSGP and our UASI funding. In terms 
of getting into the personnel funding, permanent FTE, that is a 
much more difficult question again. It is the same response. We 
believe that that is the responsibility of the state and local 
community, and we want to enhance that capability through the 
training and other elements.
    Mr. Reichert. I appreciate that. Thank you.
    Mr. Mayer. Thank you.
    Chairman King. The gentleman's time has expired. I 
certainly thank him for the benefit of his real-life 
experience. You are going to add a lot to the subcommittee.
    We have finished one round of questioning. We have pretty 
much gone through everything. I am going to make a comment, and 
I know the Ranking Member has, and obviously if the Chairman or 
the Vice Chairman want to pursue a questioning or any of the 
other members, they can.
    Again, I want to thank you for the time you gave us today. 
I also certainly as far as the department is concerned want to 
emphasize this is likely to be the first of ongoing dialogue 
between us, whether it involves formal hearings or just 
involves meetings back and forth, whatever, I think it is very 
important that we really get ourselves working together on the 
same page.
    General Reimer, I want to thank you for the tremendous 
effort you have made over the years, and certainly your 
testimony today. I would just say to the department again, the 
thing which is most important to me, and is all important, but 
certainly the thing I place the most emphasis on is the risk-
based formula, to make sure the funding goes along that route 
as much as possible.
    Also on the question of interoperability, one question 
which we really did not go into today, we can do it at a future 
time, is the whole issue, and I know certain people in law 
enforcement do have a concern about being on the same channel 
as those who are not in law enforcement as far as whether or 
not there is confidential information and how that issue can be 
resolved, and how we can have interoperability, but at the same 
time retain the confidentiality that law enforcement feels is 
necessary in certain regards.
    So again, I thank you for your testimony, and I recognize 
the Ranking Member.
    Mr. Pascrell. Thank you, Mr. Chairman, and thank you for a 
great hearing.
    I thank the witnesses. Mr. Chairman, I ask unanimous 
consent that the comments and questions from Mr. Dicks that 
occurred after the recess began and the comment of General 
Reimer in response be inserted into the hearing record.
    Chairman King. Unless something was said hostile to me, 
without objection.
    [Laughter.]
    Mr. Pascrell. There was nothing hostile to you.
    Mr. Chairman, just a couple of points. We are going to need 
a lot of dialogue to clear up some discrepancies. I would ask 
you, can you give us a general date as to when the risk-based 
formula could go into effect?
    Mr. Mayer. For 2006?
    Mr. Pascrell. Yes. Well, that brings me to B. Could we do 
it earlier than that? It does not affect the total amount of 
money. It affects distribution.
    Mr. Mayer. In terms of 2005, we will do the similar formula 
that we did under the UASI Program, which is the risk-based 
formula. In terms of the SHSGP program, the authorization and 
the appropriation language limits us to the distribution of 
that to the PATRIOT Act, so we really cannot do anything in 
2005. In 2006, we will absolutely begin the process of forming 
that risk-based formula. We will look forward to working with 
members to help us do it appropriately.
    Mr. Pascrell. So that means January of 2006.
    Mr. Mayer. I cannot say.
    Mr. Pascrell. If we work through the problems this year.
    Mr. Mayer. I guess it would depend on when we actually get 
the appropriation.
    Mr. Pascrell. You know how critical that is.
    Mr. Mayer. It is critical.
    Mr. Pascrell. The second question is, I want to reiterate 
again interoperability. We have heard this year after year for 
three years past. We have to do something about it. What 
Congressman Weldon talked about in terms of the bands that are 
available, that is absolutely unacceptable.
    The next is the Urban Area Security Initiative. When I look 
through the criteria, I would simply request that we have 
dialogue. If we can reduce the threshold to 100,000, because 
when I am looking through these factors here, they are 
applicable to many cities that do not have 200,000 people; that 
have 100,000 people and are in high-risk areas, where there are 
chemical companies, for instance, or different aspects of the 
infrastructure. I would hope, Mr. Chairman, that we could have 
dialogue on that as well. I think it is important. I am not 
asking necessarily for more money. I am asking that we have a 
little bit different division of that money where the need is 
necessary. I think that we could come to an agreement on that.
    Mr. Mayer. I look forward to a dialogue.
    Mr. Pascrell. Thank you for all of your testimony today.
    Chairman King. I would say to the Ranking Member that my 
experience in dealing with him is if he wants dialogue, there 
is no choice. We have to have a dialogue.
    [Laughter.]
    The gentleman from California, Mr. Lungren?
    Mr. Lungren. Thank you, Mr. Chairman. I apologize for being 
at competing hearings here.
    I know this has been covered and I know that the member 
just preceding me just mentioned it, but just so that I get a 
chance to mention my great, deep and abiding concern in our 
failure to deal with interoperability. I know there are a whole 
host of subjects that we need to talk about in the realm of 
homeland security and what the federal obligation is and what 
the budget concerns are. But at least in my experience on the 
outside looking in, and as the former Attorney General of 
California, a critical need in this country is the lack of the 
capacity of first responders to speak with one another. It is a 
question that has to be addressed in terms of band-width. It 
has to be addressed with respect to regional cooperation, but 
the third area is cost.
    While I am not one who believes that we ought to be 
spending money willy-nilly, that is one area where a critical 
capital investment is necessary that may be beyond the means of 
local jurisdictions. It seems to me it is a serious thing that 
we, on the federal level, ought to look into.
    When that attack comes, as surely there will be an attack 
that comes, our response will be very much a function of our 
capacity to speak with one another. I know in my own district, 
because of the serendipitous nature of the development of 
separate communications systems, that there is an inability of 
people to speak to one another just on a regular basis. I would 
hate to see the loss of life be increased or the loss of 
property, well, loss of life more than loss of property, but 
lost property as well, damage be increased by virtue of the 
fact that we failed to deal with that issue.
    I know that Congress has been dealing with a lot of 
different things. I know the department has been dealing with a 
lot of different things. But fundamentally, if we cannot do 
something about interoperability after 3 years, the onus is on 
us. I know all the excuses why we have not, but we have an FCC 
decision made just a year ago, or within the last year, dealing 
with one of the large competing communication systems. 
Interoperability, in my judgment, was not seriously considered 
at that time. I saw a lack of federal leadership on that, the 
Executive Branch, in my judgment, not weighing in that time to 
suggest that that might be an opportune time for us at least to 
begin to try and provide the capital investment necessary.
    So it is a huge issue as far as I am concerned. I know 
everybody else has their own thoughts on this. As you can see, 
it is not a partisan issue, but if there is a crying need that 
I see out there, it is a failure for us to address the 
interoperability question. We will not be able to answer our 
constituents with any reasonable response after an attack if we 
have not at least begun to make progress. I know there is 
tremendous progress that has been made at the department with 
respect to the department being able to communicate down to the 
regional offices. That is wonderful. But if the regional 
offices and the offices of the different departments cannot 
communicate with one another, that is not going to do us any 
good. All you are going to be able to hear about is how bad 
things are. We are going to get great reports on how bad it 
was, and how much worse it was than it had to be, and that is 
not going to be very satisfactory to any of us.
    So I would hope that we would seriously look at that, and I 
hope you realize it is a bipartisan issue, and I hope you will 
realize I am not a communications expert, but I have had enough 
opportunity to see that if you cannot talk to one another, you 
are going to have an adverse situation exist.
    Again, I apologize for not being here to hear your 
testimony. I hope I have not repeated something that you have 
already addressed, but as far as I am concerned, that is a 
deep, abiding concern and a disappointment that I am 
registering, having looked at it from the outside for 3 years 
before returning here, that we have not done more.
    Thank you, Mr. Chairman.
    Chairman King. I would thank the gentleman. Just note that 
it appears that there were at least 100 firefighters in the 
north tower of the World Trade Center that were killed because 
of the lack of interoperability.
    Chairman Cox?
    Mr. Cox. I think Dr. Albright has a comment on this.
    Mr. Albright. First of all, thank you for your comments on 
that. Obviously, interoperability is a key issue. I think it 
was pointed out earlier, it is generally the number one 
priority that is raised by the first responder community. The 
administration has actually taken significant steps, we 
believe, to address the issue, with the creation of the 
department. We have an office that is dedicated now to 
enhancing interoperability. We have over the last several month 
initiated and completed a program that allows for site-specific 
interoperability. So something that happens like the World 
Trade Center, as the Chairman referred to, there exists boxes, 
and it is sort of in the technical community called these 
kludges. It is sort of a kludge solution. What it does is allow 
you to, allows the firefighters, the emergency response teams 
and the police to communicate at a site and have that up and 
running within an hour. We have implemented that in the top ten 
threat cities this year.
    The problem with it, as you pointed out, is that it is not 
a particularly efficient use of band width. In fact, it is a 
very inefficient use of band width. And so as you get beyond a 
relatively, it sounds surprising, but a relatively narrow site 
like you had at the World Trade Center, and you start to 
contemplate some of the things that could happen, you know, a 
massive biological attack or that sort of thing, you clearly 
need to move away from that and get into a true regional 
interoperable solution. As you have correctly pointed out, that 
implies a capitalization issue that tends not to rise to the 
top of the priorities. When people get their grants money, they 
have the fundamental question. Do I float a $200 million bond 
issue, or do I use all of my grants money for an interoperable 
solution, or do I have other priorities that are of more 
immediate need? Or do I just wait for the current system to 
become obsolete and then recapitalize at that point? 
Unfortunately, that could be 20 years off.
    So even though I think we have made a lot of progress on 
site-specific interoperability, to address specifically the 
World Trade Center kind of issues, the larger question is one 
that really needs to be discussed in some depth, and to think 
carefully through how we incentivize communities to in fact get 
to that regional interoperability level that we would all like 
to see.
    Mr. Mayer. Just to follow up, Congressman Lungren. In terms 
of the funding, in 2004 our State Homeland Security Grant 
Program and Urban Area Security Initiative Program, just under 
$1 billion of that money in 2004 was spent on interoperable 
communication, which was the single largest investment among 
our areas. So there is work being done, but more work needs to 
be done. You are right.
    Chairman King. Thank you.
    Chairman Cox?
    Mr. Cox. I just want to again congratulate the department 
and the administration for adopting a budget plan which has a 
vision for first responder funding that is moving smartly in 
the direction that H.R. 10, the Faster and Smarter for First 
Responders Act in the last Congress would also have taken us. 
The budget document, however, is rather abstract. It does not 
tell us with any particulars how this might be accomplished, 
specifically how it is that we are going to move funding to the 
basis of risk and needs.
    With respect to risk, my question for Mr. Mayer is whether 
or not this is an IA responsibility, or whose responsibility is 
it within DHS to lead the risk analysis and to make the funding 
recommendations based on it?
    Mr. Mayer. I think it is clearly IAIP's responsibility to 
inform the threat-risk element. It is our responsibility to 
coordinate appropriately with all of the various elements that 
are going to feed into that, including IAIP's contribution, to 
then come up with a final allocation of where the money will 
go.
    Mr. Cox. We are obviously very, very interested, and I 
think several of the members have commented on this, in the 
maximum use of intelligence to inform these decisions. Indeed, 
the definition of risk is the intersection of threat and 
vulnerability, and the billions of dollars that we already 
invest in intelligence, some amount of it at the department 
itself, focused on determining terrorist intentions and 
capabilities, matching those against our known vulnerabilities, 
another responsibility of DHS, ought to lead to the focal point 
for this funding. I want to make sure that instead of just 
allocating across the country according to automatic formulas, 
political formulas, every state gets the same amount or 
everybody gets it according to population, that increasingly we 
view this as national security. That is what homeland security 
really is.
    Mr. Chairman, I just want again to reiterate what I think 
several of us said, and I know all three of us said, and that 
is that when it comes to the COPS and Fire Act monies, I hope 
that we do not put these in competition with the idea of risk-
based funding for first responders. If there are concerns about 
the COPS program, if there are concerns about the Fire Act, 
then I would like to hear those concerns from the 
administration head-on. There is no reason in the world we 
cannot have an honest discussion of that, but these are pre-9/
11 priorities, and those priorities have not gone away. They 
are still there, whether we fund them from the federal 
government or fund them from some other source, they have got 
to be addressed.
    At the same time, we are now asking first responders to do 
a lot of things we never used to ask them to do, and so there 
needs to be a new source of funding for those new priorities. 
That is, in my view, certainly what these terrorism 
preparedness grants are supposed to be all about. So if instead 
of dealing with any concerns about the pre-9/11 programs head-
on, we sidle into the decision to cut them by asserting that 
the terrorism preparedness are now doing that double duty, they 
are making up for the lost Fire Act funds or making up for the 
lost COPS funds, then we risk putting that risk-based funding 
for terror in direct conflict with the necessary year-in and 
year-out funding for law enforcement, for fire protection, for 
emergency services.
    Now, the budget provides roughly $3 billion for state and 
local terrorism preparedness assistance and roughly $500 
million for fire grants to put this in perspective, but it does 
not tell us, with these figures, what we are going to do about 
the maintenance of these programs separately or jointly. We 
have had some discussion about that here today. I do think that 
there are serious hazards of attempting to merge them all 
together and robbing Peter to pay Paul.
    So I would leave you with that thought.
    Chairman King. Ms. Christensen, do you have another round 
of questions?
    Mrs. Christensen. No.
    Chairman King. Okay.
    Mr. Weldon?
    Mr. Weldon. Mr. Chairman, just to make a final commercial, 
if you will, as we begin the new session.
    Chairman King. Curt, do you promise it is final?
    Mr. Weldon. It is the final one.
    [Laughter.]
    I am partial, as are many of the members here, to the 
volunteer fire service. I am because there is no other group of 
people in America, the volunteers. I mean, our military 
volunteer, but they get paid. The volunteers get no money and 
they lose 100 of their brothers and sisters every year. You 
cannot name another group of volunteers in America that do not 
get paid for their job and die, or they have serious injuries. 
They are so much more than firefighters.
    In the 32,000 towns where they operate, they are the 
backbone of the community. If we ever had to pay for fire 
protection for those volunteer towns, it would bankrupt America 
overnight. Now, there are 180,000 paid firefighters, but the 
bulk of the country is protected by volunteers. And it does not 
take a lot of big dollars to keep their momentum high and to 
keep their morale high.
    I want to just give you three things to focus on. The 
perception right now is that the administration does not care 
about the identity of the Fire Administration. The perception 
right now is that the administration does not care about the 
Fire Academy. I could imagine if there was a proposal to 
eliminate the FBI Training Center at Quantico what an uprising 
it would cause. The perception of the Fire Academy and the Fire 
Administration, they are small-ticket items, but that 
perception is felt by every fire department in America because 
they train the trainers there. It is where they train the state 
training officials.
    Please, in your deliberations this year, do not do anything 
that creates a misperception that we do not care about the Fire 
Administration and the Fire Academy. The Fire Administration 
dates back to Richard Nixon, when the U.S. America fire burning 
report was issued, way back in the 1970s. So please be 
sensitive to that.
    And one other thing, the bulk of our firefighters are 
volunteer and they are having a problem recruiting. We have 
talked about the AmeriCorps and the new initiative, Fire Corps. 
There is another thing that happened last year that is a 
terrible tragedy. The Department of Justice administers the 
Public Safety Officer Death Benefit Program. That program is 
designed to provide death benefits for public safety officers 
killed in the line of duty. It was never the intent of Congress 
25 years ago to have the federal government define what a 
firefighter is. That is up to the states. For the last 25 
years, the states have determined that a volunteer firefighter, 
as long as the states recognize that person in their job, is 
eligible. We have given grants to the Public Safety Officer 
Death Benefit Program to 78-year-old volunteer firefighters who 
were killed directing traffic in the street; an 80-year-old 
firefighter who was coming to the firehouse and got in an 
accident.
    We give the grants to firefighters who were killed, but 
last year the Justice Department, in a case involving a junior 
firefighter, now there are four cases, legitimately identified 
as a junior firefighter by their states, given state benefits, 
given insurance proceeds, were denied the Public Safety Officer 
death benefit. That has created a national concern for fire 
departments that have junior programs. Many of these junior 
programs are a part of Explorer scouts. So they run them 
through a scout program; they are junior firefighters; they are 
under tight supervision. The states that have junior programs 
have tight regulations. The Justice Department should never 
have ruled the way they did. We need to get that corrected.
    Where you can be helpful is to weigh in as a part of the 
administration that works for the fire service on the 
importance of the Justice Department and the Congress and the 
administration clarifying that in fact the federal government 
should not be determining what a firefighter is. If it is, then 
we get into age requirements, then you are going to have a very 
big battle nationwide. We need to correct that inequity. It is 
a very small dollar amount, and it only applies to junior 
firefighters. Most states have them at 16 years, some at 14 
years, but we need to get that change made that was erroneously 
made by the Justice Department.
    Thank you.
    Chairman King. Mr. McCaul, Mr. Reichert, do you have any 
questions?
    Mr. McCaul. No, Mr. Chairman.
    Mr. Reichert. No, Mr. Chairman.
    Chairman King. Dan, do you have any questions?
    Mr. Lungren. No.
    Chairman King. Okay.
    With that, again I thank the witnesses for their testimony 
and the members for their questions. The members of the 
committee may have some additional questions for you, and we 
will ask you to respond to these in writing. The record will be 
held open for 10 days.
    I thank all the members for being here today, and the 
committee stands adjourned.
    [Whereupon, at 12:27 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                               ----------
                               --________

   Questions and Responses for the Record from the Honorable Penrose 
                          ``Parney'' Albright

Training
Question: 1. What mechanisms, if any, does the Department utilize to 
coordinate training programs developed within academic and private 
affiliates of OSLGCP with the S&T Directorate's Centers of Excellence?
Response: 1. The primary educational mission of the Centers is to 
promote scholarly opportunities for undergraduate and graduate students 
through research assistantships and similar means so as to develop a 
cadre of experts in broad-based multi-disciplinary research on Homeland 
Security topics. The Science and Technology Directorate has awarded 
grants to four Centers of Excellence: the Center for Risk and Economic 
Analysis of Terrorism Events; the National Center for Food Protection 
and Defense, the National Center for Foreign Animal and Zoonotic 
Disease Defense, and the National Center for the Study of Terrorism and 
Responses to Terrorism. These Centers perform mission-directed research 
in economic-based risk modeling, food protection and animal health, and 
the social and behavioral aspects of terrorism and counter-terrorism. 
The Centers are intentionally focused on solving the larger scientific 
questions in their specific mission areas using a broad-based multi-
disciplinary approach from which other agencies and organizations could 
then take the research and apply to their own specific training program 
initiatives. The focus of these DHS Centers of Excellence and their 
research areas have been coordinated with OSLGCP as well as other 
government agencies.

To what extent does the Department incorporate research performed by 
the Centers of Excellence as well as the research activities of other 
Directorates and agencies into the design and planning of training and 
exercises?

    Response: The Centers of Excellence are intentionally focused on 
solving the larger scientific questions in their specific mission areas 
using a broad-based multi-disciplinary approach from which other 
agencies and organizations could then take the research and apply to 
their own specific training program initiatives. As an example, the 
risk assessment models produced by the Center for Risk and Economic 
Analysis of Terrorism support the mission of S&T's Critical 
Infrastructure Protection portfolio, which in turn develops tools and 
systems to aid facility managers and public safety officials in 
planning and responding to attacks on the nation's infrastructure.
    The Department anticipates that the proposed Center for the Study 
of High Consequence Event Preparedness and Response will have a more 
direct role in supporting the Department's EP&R Directorate and Office 
of State and Local Government Coordination and Preparedness including 
training programs and exercises. The Department is currently seeking 
proposals for this Center; full proposals in response to the Science 
and Technology Directorate's Broad Agency Announcement are due April 
22nd.
Interoperable Communications

Question: 1. To what extent do homeland security grant guidelines 
incorporate standards and requirements set forth by the Office for 
Interoperability and Compatibility and its SAFECOM Program?

Response: 1. The Office of State and Local Government Coordination and 
Preparedness (SLGCP) has worked closely with the SAFECOM program to 
incorporate standards and requirements into its grant guidance on 
interoperable communications equipment into its application kits.
    On coordination from OIC and SAFECOM, SLGCP has integrated National 
Incident Management System (NIMS) guidelines into several levels of 
grant program guidance, including:
        <bullet> Guidance assigning priority to promotion of short-term 
        incident level interoperability in service of long-term 
        solutions; and
        <bullet> Updated fiscal year 2005 grant solicitations are 
        aligned with requirements of the National Incident Management 
        System (NIMS).
    This coordinated grant guidance provides the emergency responder 
and public safety community with consistent guidance, standardized 
application processes, and similar requirements across grant programs.
    In addition, SLGCP is currently partnering with SAFECOM as part of 
the fiscal year 2005 Homeland Security Grant Program (HSGP) to ensure 
the requirement of a tactical-level emergency interoperable 
communications capacity is developed and tested in the fifty highest 
risk urban areas in the Nation. This initiative has elevated the value 
of tactical-level interoperability and inserted a new requirement into 
their grant packages: a requirement for grantees to develop plans that 
enable their communities to achieve, at a minimum, tactical-level 
interoperability. In a joint effort, SAFECOM and SLGCP have co-authored 
a Tactical Interoperable Communications Planning Guidance and Template 
for Urban Area Security Initiative (UASI) sites and State designated 
jurisdictions. Theses grantees will also reference the ``SAFECOM 
Continuum'' as a framework for its planning. This initiative builds on 
an effort led by SAFECOM in fiscal year 2004 called RapidCom that 
focused on achieving tactical-level emergency interoperable 
communications in the following ten major urban areas: New York, 
Chicago, Washington D.C., Los Angeles, San Francisco, Philadelphia, 
Houston, Jersey City, Miami, and Boston. SLGCP provided the technical 
assistance for RapidCom.

Are grants for interoperable communications coordinated with assistance 
provided by the S&T Directorate through RAPIDCOM, SAFECOM, or other 
pilot projects and programs?

Response: The Office of State and Local Government Coordination and 
Preparedness (SLGCP) is currently working very close with SAFECOM as 
part of the fiscal year 2005 Homeland Security Grant Program (HSGP) to 
ensure that a tactical-level emergency interoperable communications 
capacity is developed and tested in the fifty highest risk urban areas 
in the Nation. This initiative has elevated the value of tactical-level 
interoperability and inserted a new requirement into their grant 
packages. Grantees will develop plans that enable their communities to 
achieve, at a minimum, tactical-level interoperability. In a joint 
effort, SAFECOM and SLGCP have co-authored a Tactical Interoperable 
Communications Planning Guidance and Template for UASI sites and State 
designated jurisdictions. Theses grantees will reference the ``SAFECOM 
Continuum'' as a framework for its planning.
    This tactical interoperability grant guidance builds on an effort 
led by SAFECOM in fiscal year 2004 called RapidCom that focused on 
achieving tactical-level emergency interoperable communications in ten 
major urban areas. These areas were selected by DHS in coordination 
with SAFECOM as part of the Urban Area Security Initiative (UASI) to 
enhance the security of areas with high density populations and 
critical infrastructure, ports, and mass transit systems. SLGCP also 
provided the technical assistance for RapidCom through it Interoperable 
Communications Technical Assistance Program (ICTAP).
    There is a pilot project underway between SAFECOM and SLGCP to 
share an existing ODP web-based ``ESP'' portal. This ``one stop shop'' 
for emergency responders and public safety agencies will help provide a 
single resource for interoperable communications information. It also 
will include, planning and management applications, grant guidance's, 
collaborative tools, best practices and lessons learned data and 
information for the public safety community.

Question: 2. The Intelligence Reform and Terrorism Prevention Act 
contained numerous provisions concerning interoperability. What are the 
Department's plans for issuing letters of intent to commit multiple-
year funding to promote long-term planning and significant investments 
in interoperable communications systems?

Response: The Department's Office for Domestic Preparedness (ODP), 
within SLGCP, administers two major grant programs designed to enhance 
the prevention and preparedness capabilities of State and local 
emergency preparedness communities. These are the State Homeland 
Security Grant Program (SHSGP) and the Urban Areas Security Initiative 
(UASI). Grants distributed under both of these programs are provided 
every fiscal year to States and selected urban areas, respectively. The 
project performance period for use of these funds by recipients is 30 
months. The Department believes that the 30 month life-cycle is 
sufficient to cover project costs and ensure sufficient long-range 
planning. Further, given that monies under these programs are 
appropriated and awarded annually, multi-year letters of intent would 
be difficult to implement and reduce Federal and state flexibility. 
Letters of intent are generally used to support long-term construction 
projects, and not the incremental communication investments funded by 
SHSGP and UASI.

How does the Department plan to expand the technical assistance 
provided to high-risk, urban areas through RAPIDCOM?

Response: RapidCom was a quick turn-around program. SAFECOM will build 
on it to develop common curricula for technical assistance efforts 
addressing tactical level interoperable communications. This assistance 
will provide a comprehensive approach to defining requirements, 
developing governance structures to support multi-jurisdictional and 
multi-disciplinary communications projects, providing recommendations 
to enhance communications interoperability architectures, helping 
implementation and integration efforts for communications equipment, 
developing standard operating procedures for incident response, and 
testing and evaluating communications solutions through scenario-based 
exercises and training. SAFECOM's other continuing efforts to ensure 
greater interoperability include:
<bullet> Development of common criteria (``best practices'') for 
technical assistance to ensure consistency in its content and delivery.
<bullet> Accelerated development of standards, so localities can ensure 
new investments will support the national interoperability strategy. 
These standards will emphasize open architectures and non-proprietary 
interfaces.
<bullet> Provision of common grant guidance to every program that 
provides funding for public safety communications and interoperability 
initiatives to local or state agencies. This guidance was developed 
with the involvement of major local and state emergency responders and 
government associations to foster cross-jurisdictional and multi-
disciplinary interoperability planning and funding.
<bullet> Continued creation of replicable tools and models for state 
interoperability planning, like the plan SAFECOM recently helped 
Virginia construct. SAFECOM published the Statewide Communications 
Interoperability Planning (SCIP) Methodology as a tool for regions and 
states to reference as they develop their own unique interoperability 
plans. The locally driven approach used to develop this plan can serve 
as model for any state or region interested in developing a strategic 
plan for interoperability. States must develop plans in close 
coordination with the local agencies since they own, operate, and 
maintain most of the communications infrastructures in each state.
<bullet> Publication of a national public safety architecture 
framework. This framework, coupled with the national Public Safety 
Statement of Requirements for Communications and Interoperability, 
serve as tools to help the nation's emergency response agencies 
understand the technical requirements and national migration path 
toward fully interoperable communications systems without imposing 
requirements so stringent that they stifle innovation. These tools will 
also serve as collective guidance to industry on the needs and 
requirements of public safety communications.
<bullet> Incorporation and dissemination of lessons learned from pilot 
projects involving interoperable communications.

What is the status of the 90-day regional model strategic plan pilot 
projects?

Response: SAFECOM has developed criteria for the Regional 
Interoperability Model (RIM) pilot projects, and is in the process of 
contacting officials and potential participants. The RIM pilots will be 
selected based on criteria that include the level of risk to a region; 
the number of local, state, and Federal law enforcement agencies 
located in the area; the number of potential victims from a large scale 
terrorist attack in a region; the level of commitment and buy-in of a 
particular region; the articulation of a defined interoperability need 
by the region; and the ability of the pilots to serve as national 
models. We are preparing a report for Congress in accordance with 
section 7304 of the Intelligence Reform and Terrorism Prevention Act of 
2004 (Public Law 108-458).
    The RIM projects will focus on developing models around the 
Interoperability Continuum. The Continuum is a framework based on 
lessons learned from RapidCom to help the public safety community and 
local, state, tribal, and federal policy-makers plan and implement 
interoperability solutions. These elements include governance, standard 
operating procedures, technology, training or exercises, and use of 
interoperable communications. This framework helps provide a 
comprehensive perspective on improving public safety communications and 
interoperability.

First Responders Technologies

Question: 1 .How does the Department coordinate the establishment of 
priorities for technology development and procurement between OSLGCP 
and the S&T Directorate's Centers of Excellence, ORD, HSARPA, Federally 
Funded Research Centers, and Federal Labs?

Response: 1. Priorities for research and development for the S&T 
Directorate are established using a risked-based approach and is 
oriented toward identifying critical capability gaps before attempting 
to identify or develop technology solutions. In developing solutions, 
the process engages the end-user throughout requirements definition, 
development, testing and transition. The process considers the product 
life cycle from the outset, including planning and budgeting for 
production, deployment, operations and support. It is this process 
which allows us to prioritize both within and across fields. The Office 
of State and Local Government Coordination and Preparedness, as well as 
all the organizational elements of the Department, are heavily involved 
in the S&T Directorate's process--formally through the Science and 
Technology Requirements Council (SRC) and informally through frequent 
interactions at the staff level.
    Within the S&T Directorate, the Office of Plans, Programs and 
Budgets manages and executes the planning, programming and budgeting 
system (PPBS) cycle for the Directorate. It sets short-, mid-, and 
long-range goals aimed at achieving the needs set out by the 
Administration. These goals include, for example, countering the threat 
of weapons of mass destruction and addressing the needs of the 
operational Directorates in the Department and of state and local 
entities. Functionally, leadership from all of our executing Offices--
HSARPA, ORD and SED--participates actively in the PPB process through 
the integrated product teams (IPTs). These IPTs are integral to the 
planning process. The IPTs for each portfolio work as a team to 
determine their mission space, their strategic goals for the next five 
years, and a list of prioritized deliverables.
    Research and development priorities as well as funding levels for 
ORD (including the Centers of Excellence and Federal Labs), HSARPA, and 
SED determined through our IPT process and are dependent on where the 
best expertise is found to conduct the RDT&E that will most effectively 
meet the Department's mission to ensure the safety of the nation.

To what extent, if any, does the S&T Directorate utilize threat 
assessment and vulnerability analysis in determining R&D priorities?

Response: 2. The S&T Directorate's research, development, testing and 
evaluation (RDT&E) process uses a risked-based approach to planning and 
is oriented toward identifying critical capability gaps before 
attempting to identify or develop technology solutions. It is this 
process which allows us to prioritize both within and across fields. 
The S&T Directorate works in concert with the Information Analysis and 
Infrastructure Directorate to share information related to threat 
assessment and vulnerability analysis.
    The RDT&E process consists of four main sub-processes: 1) needs and 
risk assessment, 2) strategic planning, 3) program definition, and 4) 
program execution. The first two sub-processes ensure that the Science 
and Technology Directorate considers user needs, available 
intelligence, big-picture risks, national goals and inputs from other 
external agencies and advisory bodies to establish its annual RDT&E 
program. The second two sub-processes provide a framework for program 
execution using the best available systems engineering and program 
management techniques. Threat assessments and material threat 
determinations developed by DHS are critical factors in the 
determination of requirements for medical countermeasure acquisitions 
under Project BioShield.

Question: 2. To what extent does OSLGCP utilize the S&T Directorate's 
Technology Clearinghouse when distributing technical assistance, best 
practices, and grant guidance to State and local governments?

Response: 2. S&T is establishing a clearinghouse that will assist ODP 
to disseminate information. This will complement ODP's Responder 
Knowledge Base (RKB) at the Memorial Institute for the Prevention of 
Terrorism (MIPT) which ODP uses to disseminate information about 
standards, equipment, and to announce the Commercial Equipment Direct 
Assistance Program (CEDAP). Physical transfer of commercial equipment 
is the responsibility of ODP CEDAP managers. S&T was consulted 
regarding technology for possible incorporation into CEDAP, as were 
other organizations in government that develop technology. Moreover, 
information ODP collects about how well commercial technologies work in 
practical, small, rural law enforcement and first responder agencies 
will be reported back to S&T for incorporation in their development 
programs. ODP also collaborated with and funded MIPT to develop and 
host the web site on best practices called Lessons Learned Information 
Service (LLIS). LLIS contains information contained in after action 
reports and reviews written following major exercises. ODP releases 
information about grants via the Department's grants.gov web site.

What mechanisms does the Department utilize to identify and transfer 
available and developing technologies for use by first responders?

Response: Overall, the Department has made great strides in leveraging 
ongoing work to identify, develop and transfer technologies to first 
responders. Nowhere is this more evident than in the relationship that 
has been forged between the Science and Technology Directorate (S&T) 
and the Office for Domestic Preparedness (ODP). In April 2001, under 
the sponsorship of ODP, the Memorial Institute for the Prevention of 
Terrorism (MIPT) began an effort aimed at improving local, state, and 
federal emergency responder capabilities for mitigating the effects of 
terrorism. In April 2004, MIPT published the results of this in the 
National Technology Plan for Emergency Response to Catastrophic 
Terrorism. Through their production of this report, twelve terrorism 
response objectives were identified and the technology capabilities 
required to address these objectives were explored in the report. This 
report has served as an excellent foundation for S&T's work to initiate 
research and development in this area. S&T has continued the good work 
started by ODP and MIPT and continues to build upon the Project 
Responder process by drilling down within these objectives to identify 
specific technologies that will provide needed capabilities and by 
expanding the work to include technologies to enhance training and 
exercise for large scale incidents. S&T has already solicited proposals 
for several of these areas that will begin the effort to address some 
of the most critical needs.
    Another component of the MIPT work is the Responder Knowledge Base 
(RKB), currently supported by ODP. The RKB provides a much-needed 
screening tool for responders to access information pertaining to 
commercially available equipment. The RKB allows queries by first 
responders to determine the suitability of equipment to their needs 
including technical specifications, compliance with relevant standards, 
and applicable grants programs. The RKB also provides a very robust 
forum for exchanging information between responders on how well a 
particular piece of equipment performs. S&T and ODP are working 
together to create a partnership between the Technology Clearinghouse 
and the RKB to further leverage this valuable resource.
    S&T has also incorporated work of the National Institute of 
Justice, the Department of Defense, Department of Energy, and other 
federal agencies in the overall development of its research strategy 
for first responders. For example, S&T captured the needs identified by 
the NIJ in their report ``First Responder Needs Assessment.'' and the 
recently released report by FEMA on Urban Search and Rescue 
requirements.
    DHS is also a strong supporter and sponsor of the Interagency Board 
for Equipment Standardization and Interoperability (IAB). The scope of 
the IAB includes:
        <bullet> Identifying and prioritizing CBRNE incident response 
        equipment requirements
        <bullet> Encouraging manufacturers, governmental, military, and 
        private agencies to sponsor research, development, test and 
        evaluation programs to satisfy local, state, and federal CBRNE 
        requirements
        <bullet> Providing assistance and/or guidance to agencies, 
        associations, and manufacturers, for operational testing of new 
        and emerging CBRNE response technologies
    S&T continues to host numerous workshops, conferences and focus 
groups including Federal, state, and local emergency responders, as 
well as participate in a variety of activities dealing with first 
responder needs sponsored by ODP, the Department of Energy, the Office 
of the Federal Coordinator for Meteorology and other federal agencies.
    Through the creation of S&T Requirements Council, S&T has reached 
out to DHS senior management at the Assistant Secretary level, to 
provide a forum for all DHS components to voice the technology 
capability needs of their respective constituencies. This allowed the 
DHS components to use their ongoing relationships and traditional 
stakeholder venues to gather these technology requirements and provide 
them, through a prescribed process which included prioritization, to 
S&T for programming and budgeting processes.

Question: What role do the end-users (i.e., other Directorates and 
offices within the Department as well as first responders) play in 
identifying needs and modifications of potential homeland security 
technologies?

Response: The S&T Directorate considers the operational components of 
the Department as its customers. To ensure the Directorate meets 
customer needs, the S&T Directorate has established the Science and 
Technology Requirements Council (SRC) to bring forward a set of vetted 
needs from the entire Department. This is an Assistant Secretary level 
committee with representation from across DHS that has been chartered 
to assist in the solicitation, validation, and prioritization of all 
science and technology requirements. The council includes 
representation from the Office of State and Local Government 
Coordination and Preparedness to ensure that state and local needs are 
being met. This council is intended to help the S&T Directorate 
identify those needs most crucial to the DHS mission and to develop the 
most effective S&T program possible using existing resources. As part 
of their mission, the SRC reviews DHS operational requirements and 
needed capabilities that require S&T solutions, and identifies those 
opportunities that have cross-cutting technology solutions. Prioritized 
Departmental needs are then presented to me as a recommendation for 
consideration, in conjunction with all externally derived S&T 
requirements (e.g., statutory, national guidance), for inclusion in the 
S&T Directorate's Planning, Programming, and Budgeting Cycle Guidance.
    The inaugural meeting of the SRC took place September 30, 2004, and 
was attended by representatives from Border and Transportation Security 
(BTS), Emergency Preparedness and Response (EP&R), Information Analysis 
and Infrastructure Protection (IAIP), the Office of Domestic 
Preparedness (ODP), U.S. Citizenship and Immigration Service (USCIS), 
U.S. Coast Guard (USCG) and U.S. Secret Service (USSS). Our initial 
meeting resulted in new requirements and a validation of the needs that 
our portfolios had already identified through their interactions with 
the rest of the Department. It further served to bring together the 
many disparate groups from across DHS and facilitated a new dialogue 
that will be necessary to produce a successful S&T RDT&E program. The 
input we received at the September 30, 2004, meeting was used to adjust 
the fiscal year 2006 budget request and is currently being integrated 
into our fiscal year 2007-2011 Planning, Programming and Budgeting 
cycle.

Question: How does the Department identify and evaluate military 
technologies for possible homeland security purposes?

Response: The Department is often asked about the transfer of 
technologies between Departments, specifically between DHS and DoD. The 
Science and Technology Directorate is very interested in the 
opportunities available through technology transfer. Under the fiscal 
year 2003 DOD Authorization Act, Section 1401, DOD is working with DHS 
and DOJ to identify and transfer military technology relevant to 
Federal, State, and local responders.
    Section 1401 of Public Law 107-314 is entitled, ``Transfer of 
Technology Items and Equipment In Support Of Homeland Security.'' It 
tasks the Secretary of Defense to designate a senior official of the 
Department of Defense to coordinate all Department of Defense efforts 
to identify, evaluate, deploy, and transfer to Federal, State, and 
local first responders technology items and equipment in support of 
homeland security. That senior official is the Assistant Secretary of 
Defense for Homeland Defense.
    Over the course of 2004, DOD, DOJ and DHS have met to address 
courses of action and opportunities arising from section 1401. These 
meetings culminated in an agreement on December 8, 2004, on the 
importance of firm commitment to this process, a nominal timeline for 
technology-related events, initiation of work on the design of the 
transfer process (e.g., that it must be two-tracked, one for research 
and development, the other for technology items already developed and 
in production), and most importantly, an outline of the major features 
of a compliant technology transfer process. They initially assigned 
responsibilities for process ownership. An MOU formalizing the 
important steps of this process is expected to be ready for signature 
in the summer of 2005.
    Often, technology developed for one purpose, such as a military 
application, cannot be transferred in a straightforward manner to civil 
operations. The requirements for maintenance and support, for 
performance, and for total cost of ownership often inhibit such 
transfers. Although the basic scientific principles that underpin a 
particular technology may be leveraged, nevertheless significant re-
engineering is required to make the technology suitable for homeland 
security purposes.
    DHS S&T has an established relationship with the Technical Support 
Working Group that represents eight government agencies with similar 
tasks, technology requirements and goals. HSARPA continues to monitor 
some of the more than 90 projects from the first joint DHS/TSWG BAA 
which closed in June, 2003. DHS provided $60M [$30M in fiscal year 2003 
and $30M in fiscal year 2004] to fund the most meritorious proposals. 
Our personnel participate in the requirements setting working groups 
and the Director, HSARPA is a member of the TSWG Executive Committee 
which allows any redundancy to be identified. DHS S&T will continue to 
fund [$12M in fiscal year 2005] proposals of mutual benefit and 
interest to DHS and TSWG members.
    Other issues associated with transferring technologies to the 
homeland security operating environment include the need for ease of 
operations, extremely low total cost of ownership, providing liability 
relief, providing incentives for non-federal actors to purchase useful 
technologies, developing and promulgating standards and providing 
technical assistance to aid those purchasers in their procurement 
decisions. While the Department has made tremendous progress in all 
these areas, much remains to be done, and sustained effort is needed.
SAFETY Act

Question: 1. How well-versed do you believe State and local first 
responder equipment and service buyers are on the benefits of procuring 
equipment or services that have been given full SAFETY Act protection?

Response: The Department, and the Office of Safety Act Implementation 
(OSAI), has proactively engaged relevant communities, including groups 
representing emergency responders and firms that supply their equipment 
and services. Efforts like this are critical to helping these 
communities understand the benefits of the SAFETY Act and the process 
by which the Department extends such benefits, especially as relates to 
non-federal procurements. More education is needed. However, we have 
taken a number of measures to facilitate consultations with the OSAI, 
including establishing (i) a simple pre-application process to address 
questions and provide guidance to an applicant, (ii) an interactive web 
site, and (iii) a phone-in help desk. We use these techniques not just 
to educate stakeholders, but also to solicit suggestions for how the 
Department can institute improvements to our processes and procedures. 
It is worth noting that DHS has in fact received several applications 
relating to products designed for emergency responders.

Question: If you believe they are well-versed, what do you attribute 
that to? If you believe that they are not well-versed, what should DHS 
be doing to enhance their awareness of this program?

Response: Although OSAI has engaged in active outreach efforts, much 
remains to be done. The Department, and OSAI, will continue to reach 
out proactively to inform relevant communities--first responders; 
state, local, and tribal agencies; the private sector; the legal 
profession; federal agencies--of the benefits and processes associated 
with the SAFETY Act. In addition, the Department will continue to 
solicit feedback from these communities regarding how the Department 
can better implement the Act.

Question: 2. How much liability, in the aggregate, do you believe first 
responders have assumed by purchasing equipment or services utilizing 
DHS grant funds?

Response: Purchasing equipment or services utilizing DHS grant funding 
should generally not significantly impact the potential liability of 
emergency responders. First responders generally have no liability for 
the failure of a technology that they use in the course of performing 
their duties. Moreover, those employed by the government are entitled 
to qualified immunities for acts or omissions that occur within the 
scope of their duties. In addition, government agencies themselves 
enjoy certain immunities. Others may be protected by the ``Good 
Samaritan Laws'' in effect in all 50 states and the District of 
Columbia. SAFETY Act protections are designed for the providers of 
anti-terrorism technologies that may be employed by emergency 
responders. As of March 3, 2005, the OSAI had received several 
applications for technologies that are particularly relevant to the 
emergency responder community.

Question: How do you suggest we mitigate this risk that first 
responders may be taking on unknowingly?

Response: As addressed in the answer to the previous question, it is 
not clear that emergency responders are assuming greater risks of 
liability, unknowingly or otherwise. We believe the SAFETY Act, 
consistent with the intent of Congress in promulgating the legislation, 
provides an appropriate measure of liability and risk mitigation for 
those firms supplying products and services in support of emergency 
responders.

Question: 3. What trends have you seen arise over the last year or so 
in terms of first responders linking their procurements with SAFETY Act 
coverage?

Response: In general, it has not been the first responder community 
that has been linking procurements to SAFETY Act protections, but 
rather commercial vendors who, in a very few number of cases, have been 
linking their response to a procurement solicitation from state, local, 
and federal agencies to SAFETY Act protections. The Department is 
working proactively with procurement agencies to develop processes and 
procedures to better integrate SAFETY Act protections into the state, 
local, tribal, and federal procurement process.

Question: What role do you believe DHS can or should play to encourage 
formal linkage between procurements at the State and local levels and 
SAFETY Act coverage decision-making by the Federal government?

Response: DHS has been working with procurement officials throughout 
the federal government to develop outreach and education materials, and 
to identify how the SAFETY Act review process and the procurement 
processes of DHS and other federal agencies can best be aligned. The 
Department intends to do the same with state, local and tribal 
agencies. In addition, the Department is working proactively with 
procurement agencies to develop processes and procedures that render 
inclusion of SAFETY Act protections a part of the state, local, and 
federal procurement process. However, as the SAFETY Act is predicated 
upon voluntary participation, we have no immediate plans to formally 
link procurement decisions at the State and local level with decisions 
on an application for SAFETY Act protections. We believe the 
coordination of the SAFETY Act application process and the government 
procurement selection process is best addressed through outreach and 
education efforts in order to ensure that government procurement 
officials and SAFETY Act application evaluators can each perform their 
respective important public and fiduciary duties. The SAFETY Act 
website, www.safetyact.gov, was modified last year to create a section 
for public procurements. We will provide there special instructions 
that will apply to applications for technologies that are the subject 
of a government procurement and detail a streamlined application 
process with reduced information requirements for applicants applying 
for SAFETY Act benefits in connection with a specific public 
procurement.

Question: 4. Critical infrastructure owner-operators are also, in many 
ways, required to act as first responders if an incident occurs inside 
the gates of their facilities. How has the SAFETY Act office reached 
out to this community to educate their procurement officials on the 
benefits of the program?

Response: The Department, and OSAI, will continue to reach out 
proactively to inform relevant communities--first responders; state, 
local, and tribal agencies; the private sector; the legal profession; 
federal agencies--of the benefits and processes associated with the 
SAFETY Act. In addition, the Department will continue to solicit the 
views of these communities on how to better implement the Act. The 
Department is working proactively with procurement agencies to develop 
processes and procedures that render inclusion of SAFETY Act 
protections a part of the state, local, and federal procurement 
process. Although procurements by private companies are simpler to deal 
with in this regard, we expect that the policies implemented for 
government procurements will inform private sector practices. The 
Department will also look to improve coordination between the 
leadership of the Directorate for Science and Technology and the 
Information Analysis and Infrastructure Protection Directorate to 
identify means for increasing the awareness of the SAFETY Act within 
the protective security community and among other owners and operators 
of critical infrastructure.

Question: 5. How would you describe the effect that the current pace of 
SAFETY Act designations and certifications has had on the ability of 
State and local first responders and critical infrastructure owner/
operators to purchase the very best equipment or services?

Response: The SAFETY Act review process cannot guarantee that anyone 
will be able to purchase ``the very best'' product or services. It is 
designed, as required by the statute, to help individual effective 
technologies overcome market barriers on an application-by-application 
basis. We make no judgment about what equipment or services are 
``best.'' The Department has received a number of Pre-Applications and 
Full Applications from firms providing products and services related to 
critical infrastructure protection. We are unaware of any impediments 
to date placed on procurement actions due to SAFETY Act processes or 
procedures. It should be noted, further, that it is important that the 
OSAI be in a position, through data delivered in the application, to 
satisfy its statutory requirements under the SAFETY Act legislation, 
and in particular be able to determine the effectiveness of the 
technology. As noted earlier, assuring that state, local, tribal, and 
federal agencies, and the private sector owner/operator communities 
receive the benefits of the SAFETY Act requires an understanding of the 
requirements of the SAFETY Act. The Department, and OSAI, will continue 
to reach out proactively to inform relevant communities--first 
responders; state, local, and tribal agencies; the private sector; the 
legal profession; federal agencies--of the benefits and processes 
associated with the SAFETY Act. In addition, the Department will 
continue to solicit the views of these communities for how the 
Department may better implement the Act.

Question: In your view, have State or local officials procuring anti-
terror technologies or services had access to a full range of the best 
anti-terror technology or services?

Response: DHS has made significant strides in working within the 
Department, other Federal Agencies and directly with State and Local 
officials to assure that the best available anti-terror technology or 
services are accessible to state and local emergency responders and 
other government officials.
    An example of this is S&T and ODP support of the Memorial Institute 
for the Prevention of Terrorism (MIPT) through Project Responder, the 
Responder Knowledge Base, the Lessons Learned Information System, and 
the SAVER Program. These programs have made significant strides not 
only in getting important technical information regarding anti-terror 
technologies in to the hands of emergency responders, but also provide 
information pertaining to best practices, lessons learned and existing 
capability gaps.
    The implementation of S&T's Regional Technology Integration 
Initiative is specifically focused on expediting the transition and 
integration of advanced homeland security technologies to state and 
local communities. This initiative is a partnership between ODP and S&T 
and recognizes the need for COTS/GOTS equipment and other legacy 
systems to interface with newly developed technologies.
    S&T and ODP will continue to work together and with other Federal 
partners (particularly DOD) to facilitate the transfer and 
commercialization of defense technologies to the emergency response 
community.

Question: 1. The President's fiscal year 2006 budget request includes a 
decrease of $420 million, or more than 10%, from the current year for 
the Office of State and Local Government Coordination and Preparedness. 
On what basis did the Administration determine that the proposed 
funding was the right amount?

Response: The funding provided to our nation's first responders has 
been sufficient to address their most critical needs. Between fiscal 
year 2002 and fiscal year 2004 the Office for Domestic Preparedness 
(ODP) awarded homeland security grants totaling $6.1 billion. In fiscal 
year 2005 ODP anticipates awarding over $3.6 billion in grants.
    The Department firmly supports the fiscal year 2006 budget request, 
continues funding a the level requested for the last two years, 
providing significant assistance to our Nation's state and local 
emergency prevention and response communities. As outlined in the SLGCP 
grant announcements, each year's funding builds on previously developed 
capabilities. Federal preparedness assistance is not intended to 
subsidize existing state and local public safety activities.
    Many states have adopted a regional approach in their planning and 
allocation of these homeland security resources, with the knowledge 
that every community cannot build and sustain a comprehensive response 
and recovery capability. DHS recognizes that communities of all sizes 
depend upon one another in times of need, and advocates this regional 
approach in the allocation of resources. Additionally, DHS has begun 
focusing the application of homeland security funding more finely--
targeting it through proscriptive guidance and requirements to address 
critical national priorities and capability gaps. For example, in its 
fiscal year 2005 Homeland Security Grant Program, DHS requires states 
and local jurisdictions to begin active, multi-jurisdictional 
operational planning and to achieve tactical interoperability in key 
urban areas in all 56 states and territories.
    As national priorities and capabilities are further defined through 
the HSPD-8 process, homeland security grant guidance will continue to 
become more directive, ensuring that funding is expended to close 
critical capability gaps nationally. DHS will remain committed to 
ensuring that critical funding necessary to support our nation's first 
responders continues to be made available in a timely and effective 
manner.
Question What does the Administration believe is the right amount of 
first responder funding, and how many years will it take to get there?

Response: Combating terrorism is an ever-evolving challenge, based on 
the adaptive and immoral nature of the terrorists who wish to attack 
the homeland. Our policies, processes and funding must reflect the 
characteristics of this challenge. We are engaged in a competitive 
learning contest, so policies must be anticipatory, rather than 
reactive, and our processes must be as agile and dynamic as the threats 
we face.
    HSPD-8 directly addressed the need to better link grant funding to 
national preparedness goals and objectives. The National Preparedness 
Goal will lay out the path for achieving and sustaining risk-based 
target levels of capability for prevention, preparedness, response and 
recovery for major events. The Department is in the final stages of 
developing a universal task list of items that need to be accomplished 
during an emergency, and the capabilities required to complete those 
tasks. DHS will then use performance metrics to assess our nation's 
preparedness, based on these tasks and target capability levels. The 
results of this process will provide the most accurate measure possible 
of our true national preparedness needs at all levels of government.
    As that process develops, the President's fiscal year 2006 budget 
request of more than $3.6 billion for our Nation's state and local 
emergency responders is sufficient in continuing to enhance the 
Nation's level of preparedness. When coupled with the last four years 
of funding, the President's fiscal year 2006 budget request will serve 
to allow the Nation to continue making significant strides in its 
prevention and preparedness activities.

Question: 2. Given the priority that many first responders place on 
interoperable communications, it is troubling that the Fiscal Year 2006 
budget request for DHS includes a small cut in funding for the Office 
of Interoperability and Compatibility. But it is even worse that one 
third of the existing funding, which has been provided by other 
participating agencies, is not included at all. What is the projected 
effect on each ongoing program at OIC of a projected 30% budget cut?

Response: The Office for Interoperability and Compatibility (OIC) was 
created to focus on the need to develop consistent technical 
requirements among DHS programs. As part of its mission OIC 
incorporated the SAFECOM program, which began as an e-Government 
initiative of the Office of Management and Budget. Like other cross-
cutting initiatives, SAFECOM received funding through federal funding 
partners. In fiscal year 2005 the Communications program area of OIC 
has approximately $32 million available for interoperability efforts. 
The $32 million is comprised of $21 million appropriated to OIC for 
communications efforts as well as up to $11 million from its federal 
funding partners. In fiscal year 2006, as it graduates from an e-
Government program to a DHS-managed program, SAFECOM will no longer 
rely on funding contributions from partner agencies, and will be 
entirely financed from DHS resources.

Question: 3. What was the cost in 2004 of the RAPIDCOM project to 
provide training to ten major metropolitan centers for interoperable 
communications at a major incident?

Response: RapidCom, a joint initiative between DHS and DOJ, used a 
portion of the budgets from several programs, including the Department 
of Justice's 25 Cities Project, ODP Interoperable Communications 
Technical Assistance Program (ICTAP), the National Institute of Justice 
Commtech Program, and SAFECOM, to accomplish its mission. All these 
programs also provided staff support for RapidCom. One of RapidCom's 
most important lessons learned was that equipment procurement was not 
the most immediate need, as for the most part tactical equipment was 
already in place. The real need was to make equipment operational 
through training and technical assistance,. The costs of such an 
initiative were directed at supporting the development and 
implementation of governance structures, standard operating procedures, 
training and exercises, technical assistance, and other forms of 
planning assistance.

Question: Has DHS offered to expand the program to other interested 
metropolitan areas?

Response: The initial RapidCom program, designed to ensure a basic 
level of public safety interoperability in ten high-threat urban areas, 
concluded in December 2004. However, related initiatives are ongoing. 
DHS has made tactical interoperability a major priority for the 50 
cities participating in the fiscal year 2005 Urban Area Security 
Initiative, and DHS is also collaborating with DOJ on 25-city High-Risk 
Metropolitan Area Interoperability Assistance Project.

Question: How much would such an expansion cost DHS, on a per-city 
basis?

Response: The cost of ensuring tactical level interoperability in an 
urban area is highly dependant on the site of the area, the conditions 
on the ground, what assistance the city has already received, and what 
equipment that city has been able to purchase.
    Currently there is no consistent way to measure the state of 
interoperability. SAFECOM is working on a national Baseline assessment 
of public safety interoperable communications, which it intends to 
complete by the end of fiscal year 2005. When the Baseline is complete, 
SAFECOM will develop a tool to help areas assess themselves and 
identify gaps between public safety requirements and the current state 
of interoperability nationwide. The Baseline will enable us to measure 
improvements in public safety communications and interoperability. This 
information will be crucial to the development of a rational method for 
prioritizing the nation's needs and allocation of the Department's 
resources.

Question: 4. Dr. Albright, you stated in the hearing that you would 
support some form of a DHS certification process by which commercial 
equipment could be vetted, and information on the testing be provided 
to state and local purchasers. Assuming that such a system could be 
fee-based, what would it take for DHS to establish, or contract out, 
such a testing capability?

Response: DHS is evaluating the need for certification for a variety of 
homeland security related equipment and coordinating the development of 
suitable programs in key areas. These certification programs will 
provide federal, state and local purchasers with confidence that these 
products meet security performance, safety and usage standards and 
requirements.
    In order to establish an effective certification program several 
elements need to be in place. These include appropriate standards and/
or technical requirements, test protocols, factory quality surveillance 
systems and a demand driver for the certification. Since, DHS is not a 
regulator for these equipments in most cases federal procurement 
requirements and grant guidance for state and local procurement using 
federal grant money will drive the demand for certified security 
products. We anticipate that state and local purchasers will make 
extensive use these programs.
    DHS is working in several areas to develop the needed technical 
requirements, standards and test protocols as well as working with 
public and private sector organizations involved in laboratory testing, 
certification and laboratory accreditation to coordinate security 
equipment certification systems. Specific examples include radiation 
detectors, bio metric access devices and inter operability of public 
safety radio equipment.

Question: 5. What will happen in the event of a terrorist attack if the 
first responders who do not have SAFETY Act protection are sued and 
there is no liability protection?

Response: Again, first responders generally have no liability for the 
failure of a technology that they use in the performance of their 
duties. Moreover, those employed by the government are entitled to 
qualified immunities for acts or omissions that occur within the scope 
of their duties. In addition, government agencies themselves enjoy 
certain immunities. Others may be protected by the ``Good Samaritan 
Laws'' in effect in all 50 states and the District of Columbia. SAFETY 
Act protections are designed for, among others, the providers of 
technologies that may be employed by emergency responders. As of March 
3, 2005, the OSAI had received several applications for technologies 
that are particularly relevant to the emergency responder community.

     Questions and Responses for the Record from Mr. Matt A. Mayer

    Terrorism Preparedness Grants
Question: 1. In light of the President's budget request and support for 
risk-based allocation of terrorism preparedness grants, does the 
Department plan to consolidate the State Homeland Security Grant 
Program (SHSGP) and the Urban Area Security Initiative (UASI) into a 
single, risk-based grant program?

Response: While the Department plans to incorporate risk and need into 
the SHSGP process in fiscal year 2006, the intent is not to consolidate 
SHSGP and UASI into a single, risk-based grant program. The Department 
has proposed a redesign of the homeland security funding process to 
award SHSGP funds based on risk and needs, in contrast to previous 
years where funding was apportioned according to the USA PATRIOT Act 
formula. Under this proposal, awards will be based on a relative 
evaluation of risk and application-based review of need, with no state 
receiving less than 0.25 percent at the appropriated level of funding.
    Eligibility for participation in the UASI program will be 
determined by the Department based on an analysis of several risk 
factors. Applications will be reviewed and evaluated based on how 
proposed activities align with identified capability gaps, strategic 
goals and objectives, and national priorities. Award determinations 
will be made based on an evaluation of both need and risk.
    The Department believes that it is important to maintain the 
integrity of both SHSGP and UASI as separate grant programs. Their 
relative funding levels should be part of the annual budget process, 
not be driven by statutory formulas. UASI is designed to address the 
unique risks and needs of high-threat, high-density urban areas while 
SHSGP ensures that all states receive a minimum threshold of homeland 
security assistance. We still see the need to balance the heightened 
risk of urban areas with the imperative to build a baseline, nationwide 
capability to prevent, respond to, and recover from terrorism.

Is the Administration considering consolidation of other risk-based 
grant programs, such as the proposed Targeted Infrastructure Protection 
program, into one, risk-based grant program? If not, why is it 
necessary to have multiple, separate risk-based grant programs?

Response: The Department does not plan to consolidate all risk-based 
grant programs into a single risk-based program. While it is imperative 
for the Department to integrate risk into homeland security assistance 
allocations, it is also important to maintain initiatives targeted 
toward specific program areas and national priorities.
    In recognition of both the need to consolidate programs where 
possible and the high priority assigned to critical infrastructure 
protection, the Department has proposed consolidating various 
infrastructure protection grants into a single, comprehensive Targeted 
Infrastructure Protection program with additional funds. This effort 
will encompass key infrastructure elements such as seaports, mass 
transit, railways, and chemicals sites into a broader program that is 
based on need, risk, and national priorities. This consolidated program 
will maximize the Department's flexibility to allocate funds across 
critical infrastructure sectors according to the greatest risk.
    However, the Department continues to see value in maintaining 
several separate programs that each seek to address specific needs 
based on the level of government. For example, UASI addresses the 
unique risks and needs of high-threat, high-density urban areas; SHSGP 
helps states build capabilities to prevent, respond to, and recover 
from terrorism; and DHS will administer the Targeted Infrastructure 
Protection Program to focus on high-risk critical infrastructures 
across the country.

To what extent does OSLGCP utilize the IAIP Directorate's risk 
assessments, intelligence, and other resources?

Response: SLGCP actively coordinates with IAIP regularly on risk 
assessment and critical infrastructure protection efforts. For example, 
SLGCP worked closely with IAIP on the threat data use to identify and 
prioritize jurisdictions eligible for the fiscal year 2005 UASI 
program. In addition, with the release of the fiscal year 2005 Buffer 
Zone Protection Program, IAIP was responsible for identifying the sites 
included in the program and worked with SLGCP in determining the state 
allocations and providing the program guidance based on that 
information. This relationship will be even stronger in fiscal year 
2006, as SLGCP anticipates working closely with IAIP on evaluating 
threats and vulnerabilities for allocating State Homeland Security 
Grants and Target Infrastructure Protection Grants.

Question: 2. The risk-based funding formula used to allocate fiscal 
year 2005 funds to UASI jurisdictions relied on a combined threat 
index. How will at-risk jurisdictions with small police forces and few 
resources dedicated to counterterrorism and intelligence activities be 
able to compete with the largest cities for UASI funds if the level of 
funding is directly related to a jurisdiction's ability to engage in 
voluntary counterterrorism activity and reporting?

Response: The purpose of the UASI program is to provide financial 
assistance to address the unique planning, equipment, training, and 
exercise needs of high risk urban areas, and to assist them in building 
an enhanced and sustainable capacity to prevent, respond to, and 
recover from threats or acts of terrorism. The UASI program is intended 
to both prioritize funding, and ensure that funding is not distributed 
so widely that it dilutes the ability to effect significant 
improvements in the homeland security posture in the selected high 
threat, high population urban areas.
    In fiscal year 2005, the size of local police forces and their 
level of dedicated counterterrorism activities did not factor into the 
allocation methodology. UASI funds were allocated to urban 
jurisdictions based solely on risk factors reflecting population, 
population density, vulnerable infrastructure, and Federal threat data. 
In fiscal year 2006, the UASI allocation formula will be similar, but 
with consideration for estimated needs as well.
    In determining the eligible UASI sites this year, DHS began with an 
analysis of any city, and counting any asset within a city, against 
which there was an identified credible threat. Further examination 
included a detailed focus on cities with a core population exceeding 
225,000. From this analysis and prioritization, 50 cities/urban areas 
were objectively selected to receive funding in fiscal year 2005 under 
the UASI program. DHS recognizes that to prevent or respond to an event 
in the designated urban area (city) that there must be a regional 
approach. This is why the program is flexible for states to determine 
others who should be a part of the planning and share funding.

What safeguards will the Department install to ensure that the 20 
percent designations for law enforcement terrorism prevention 
activities under SHSGP and UASI are consistent and properly 
coordinated?

Response: In the proposed fiscal year 2006 SHSGP and UASI programs, 
states and urban areas will identify upfront proposed activities to be 
used with law enforcement and terrorism prevention funds. SLGCP will 
leverage our robust monitoring program and reporting capabilities to 
ensure consistency and proper coordination. The on-site monitoring 
program and detailed program implementation reports will show how 
funding is allocated and expended under each program's guidelines.

3. It is important for OSLGCP to encourage the adoption of written 
mutual aid agreements, particularly in light of the use of such 
agreements in the UASI risk-based formula.

Response: SLGCP agrees with the importance of establishing formal 
mutual aid agreements. Utilizing mutual aid is a key aspect in 
preventing and responding to incidents nationally.

What assistance, if any, does the Department intend to provide for 
jurisdictions unable to formalize such agreements?

Response: SLGCP, and DHS as a whole, strongly supports expanding mutual 
aid and FEMA has developed model intra-state mutual aid and guidance 
for states to use to formalize such agreements. Guidance and assistance 
is also available through ODP and the NIMS Integration Center (NIC).

Should OSLGCP or FEMA provide such assistance?

Response: SLGCP and FEMA are coordinating closely and feel it is best 
to leverage all resources available due to the importance of 
establishing formal mutual aid agreements. SLGCP recognizes that FEMA 
has had considerable experience in this area, and coordination with the 
NIC is key in ensuring our programs compliment one another in providing 
this type of assistance.

Question: 4. What mechanisms are in place for ODP to identify, 
investigate, and remediate the misuse or methods of spending Federal 
homeland security assistance?

Response: The Office for State and Local Government Coordination and 
Preparedness (SLGCP) provides oversight for program expenditures in 
several ways. For programs awarded in Fiscal Year 2003 and before, all 
items purchased had to be identified on budget detail worksheets. These 
budgets are submitted from local governments, through the State 
Administrative Agencies (SAA), to the ODP Preparedness Officer for 
line-item review and approval. All equipment is compared to the 
Authorized Equipment List and relative program guidance verifying that 
requested costs are allowable. ODP approval must be obtained before 
State or local governments can draw-down federal funds for expenditure.
    To keep pace with the increasing complexity of its homeland 
security programs, SLGCP improved its reporting mechanisms in fiscal 
year 2004 by implementing the Initial Strategy Implementation Plan 
(ISIP) report and Bi-annual Strategy Implementation Report (BSIR) in 
place of budget detail worksheets. Focusing on statewide projects and 
their relationship to the goals and objectives of the State Homeland 
Security Strategy, the ISIP details how the State has allocated its 
funds and certifies that it has obligated 80% to local governments. The 
BSIRs are submitted every six months for the life of the respective 
grant and further refine the project data, their obligations, and 
expenditures. SAAs are required to maintain the budget detail worksheet 
accountability for equipment purchased.
    All grants, regardless of fiscal year, have the requirement of 
submitting quarterly financial status reports to show rates of 
obligation, expenditure, and draw-down. These are reconciled by SLGCP 
staff against draw-down information obtained from internal financial 
data systems to monitor expenditure trends and ensure the accuracy of 
State reports compared to internal tracking mechanisms.
    Annually, a comprehensive financial review of all active grants is 
conducted for each State by SLGCP staff. This desk-side review is part 
of the preparation for an on-site monitoring visit conducted by SLGCP 
preparedness officers to each State. While on site, preparedness 
officers are focusing on programmatic accomplishments, types of 
equipment purchased and deployed, contributions of respective State 
training programs, lessons learned from exercises, and identifying best 
practices to be shared with other States. Simultaneously, however, the 
flow of funding from SLGCP, through the State, to local governments in 
support of all of these activities is discerned to help identify 
difficulties or errors in both the processes and specific procurements.

Training
Question: 1. What mechanisms, if any, does the Department utilize to 
coordinate training programs developed within academic and private 
affiliates of OSLGCP with the S&T Directorate's Centers of Excellence?

Response: The primary educational mission of the Centers is to promote 
scholarly opportunities for undergraduate and graduate students through 
research assistantships and similar means, so as to develop a cadre of 
experts in broad-based multi-disciplinary research on Homeland Security 
topics. The Science and Technology Directorate has awarded grants to 
four Centers of Excellence: the Center for Risk and Economic Analysis 
of Terrorism Events; the National Center for Food Protection and 
Defense, the National Center for Foreign Animal and Zoonotic Disease 
Defense, and the National Center for the Study of Terrorism and 
Responses to Terrorism. These Centers perform mission-directed research 
in economic-based risk modeling, food protection and animal health, and 
the social and behavioral aspects of terrorism and counter-terrorism. 
These Centers are intentionally focused on solving the larger 
scientific questions in their specific mission areas using a broad-
based multi-disciplinary approach from which other agencies and 
organizations could then take the research and apply to their own 
specific training program initiatives. The focus of these DHS Centers 
of Excellence and their research areas have been coordinated with 
OSLGCP as well as other government agencies.

To what extent does the Department incorporate research performed by 
the Centers of Excellence as well as the research activities of other 
Directorates and agencies into the design and planning of training and 
exercises?

Response: The Centers of Excellence are intentionally focused on 
solving the larger scientific questions in their specific mission areas 
using a broad-based multi-disciplinary approach from which other 
agencies and organizations could then take the research and apply to 
their own specific training program initiatives. As an example, the 
risk assessment models produced by the Center for Risk and Economic 
Analysis of Terrorism support the mission of S&T's Critical 
Infrastructure Protection portfolio, which in turn develops tools and 
systems to aid facility managers and public safety officials in 
planning and responding to attacks on the nation's infrastructure.
    The Department anticipates that the proposed Center for the Study 
of High Consequence Event Preparedness and Response will have a more 
direct role in supporting the Department's EP&R Directorate and Office 
of State and Local Government Coordination and Preparedness, including 
training programs and exercises. The Department is currently seeking 
proposals for this Center; full proposals in response to the Science 
and Technology Directorate's Broad Agency Announcement are due April 
22nd.

        One of the mechanisms the Office of State and Local Government 
        Coordination and Preparedness (SLGCP) uses to coordinate 
        training programs is the Office of State and Local Government 
        Coordination (SLGC). SLGC was established to serve as a single 
        point of contact for facilitation and coordination of 
        Departmental programs that impact state, local, territorial, 
        and tribal governments. The Department has brought together 
        many organizations with a long history of interaction with, and 
        support to, state, local, territorial, and tribal government 
        organizations and associations, and the Office is working hard 
        to consolidate and coordinate that support.

        SLGC facilitates the coordination of DHS-wide programs that 
        impact state, local, territorial, and tribal governments; 
        serves as the primary point-of-contact within DHS for 
        exchanging information with state, local, territorial, and 
        tribal homeland security personnel; identifies homeland 
        security-related activities, best practices, and processes that 
        are most efficiently accomplished at the federal, state, local 
        or regional levels; and utilizes this information to ensure 
        that opportunities for improvement are provided to our state, 
        territorial, tribal and local counterparts. Within the SLGC 
        structure is a coordinator assigned to the Department's Science 
        and Technology (S&T) Directorate. One of the roles of this 
        office is to aid coordination efforts between offices within 
        SLGCP, namely the Office for Domestic Preparedness (ODP), with 
        S&T. An example of one of these on-going coordination efforts 
        is ODP's Agro-Terrorism Training Initiative.

        In fiscal year 2005, the ODP Training Division established an 
        Agro-Terrorism Training Initiative with a working group that 
        included others involved in agro-terrorism initiatives. The 
        purpose of this working group was to ascertain and characterize 
        specific information that would be reflected in an agro-
        terrorism matrix. The matrix will be used to identify agro-
        terrorism training gap areas and the coordination of the 
        development of new training to address these areas. There were 
        representatives from the Center for Domestic Preparedness 
        (ODP's operational training center); other ODP training 
        partners developing and/or administering agro-terrorism 
        training including Dugway Proving Grounds, Louisiana State 
        University's National Center for Biomedical Research and 
        Training, Kirkwood Community College, University of California 
        Davis; the Department's S&T's two Centers of Excellence in 
        agricultural security (University of Minnesota and Texas A&M 
        University); and U.S. Department of Agriculture's Animal Plant 
        Health Inspection Service (APHIS) in the working group.

        The next Agro-Terrorism Training Initiative Summit is scheduled 
        for March 15-16, 2005, at the Center for Domestic Preparedness 
        in Anniston, Alabama. The main goal of the summit is to 
        coordinate the development of guidance for fiscal year 2004 and 
        fiscal year 2005 Competitive Training Grant awardees towards 
        gap areas identified within the DHS Agro-Terrorism Training 
        Initiatives.

        In the agro-terrorism risk reduction effort, the IAIP 
        Directorate is integrating the efforts of the Pre and Post 
        Harvest Centers of Excellence into our effort to deploy the 
        National Infrastructure Protection Plan (NIPP) across the food 
        and agriculture sector. For example, we are working with the 
        Center based at Texas A&M to develop new vulnerability 
        assessment tools for use in the livestock industry. The Center 
        based in Minnesota is developing similar tools for food 
        processors and retailers.

Question: 2. To what extent has the Department utilized training 
facilities and expertise that exist at State and local training 
institutions in order to reach a maximum number of first responders?

Response: The ODP encourages States, territories, and Urban Areas to 
use funds to enhance the capabilities of State and local emergency 
preparedness and response personnel through development of a State 
homeland security training program. Allowable training-related costs 
under SLGCP grant programs include: 1) establishment of chemical, 
biological, radiological, nuclear, and explosives (CBRNE) terrorism and 
cyber security training programs through existing training academies, 
universities or junior colleges; and 2) overtime and backfill costs 
associated with attendance at SLGCP-sponsored and--approved CBRNE and 
cyber security training courses.
    In an effort to meet identified training needs while supporting 
state and local efforts to institutionalize WMD awareness training, ODP 
developed a standardized WMD awareness training program. The goal of 
this program is to provide states and urban areas with a mechanism for 
delivery and sustainment of WMD awareness training for the ten 
emergency response disciplines included in their strategies: emergency 
management, emergency medical service, fire service, government 
administrative, hazardous materials, health care, law enforcement, 
public communications, public health, and public works. The 
standardized awareness curriculum covers basic awareness level 
training; prevention and deterrence of terrorism; chemical and 
biological weapons agents; radiological and nuclear materials and 
explosive devices; and response actions. The program relies on a train-
the-trainer approach to maximize the program's reach and facilitate 
ongoing efforts to incorporate Standardized WMD Awareness Authorized 
Trainers (SAAT) into state and local training programs. Each State and 
Urban Area will receive these sessions for the cadre of trainers they 
designate, including a minimum of three trainers per discipline. Since 
the program's implementation in the first quarter of Fiscal Year 2005, 
563 trainers in 14 Urban Areas and 11 States have received training.
    As of December 23, 2004, over 739,000 responders had received ODP 
training through the more than 40 courses in the ODP catalog. 
Recognizing the scope of the training needs at the State and local 
level, ODP is committed to the institutionalization of awareness and 
lower level performance training at those levels. Therefore, ODP is 
focusing its efforts on train-the-trainer programs in these categories. 
Additionally, in fiscal year 2005, States and Urban Areas are no longer 
required to request approval for personnel to attend other Federal 
courses related to CBRNE terrorism or non-SLGCP courses that fall 
within the SLGCP mission scope of preparing State and local personnel 
to prevent, respond to, and recover from acts of terrorism involving 
CBRNE weapons. States and Urban Areas are instead required to submit 
information via the training section of the ODP website on this 
training which they are supporting with SLGCP funds. The required 
information includes course title, level of the training, the training 
provider, the date of the course, the number of individuals to be 
trained, and the sponsoring jurisdiction. Keeping in mind that Federal 
funds must be used to supplement--not supplant--existing funds that 
have been appropriated for the same purpose, States or Urban Areas 
intending to use SLGCP funds to support attendance at non-SLGCP courses 
must ensure that these courses:

                <bullet> Fall within the SLGCP mission scope to prepare 
                State and local personnel to prevent, respond to, and 
                recover from acts of terrorism involving CBRNE weapons;
                <bullet> Build additional capabilities that 1) meet a 
                specific need identified through the homeland security 
                assessment process, and 2) comport with the State or 
                Urban Area Homeland Security Strategy;
                <bullet> Address the specific tasks articulated in the 
                ODP Emergency Responder Guidelines and/or the ODP 
                Homeland Security Guidelines for Prevention and 
                Deterrence;
                <bullet> Address the specific tasks and capabilities 
                articulated in the Universal Task List and Target 
                Capabilities List, as they become available; and
                <bullet> Comport with applicable Federal, State, and/or 
                local certification, regulatory, and policy 
                requirements deemed appropriate for the types and 
                levels of training being taken

    Additionally, FEMA's Emergency Management Institute (EMI) reaches 
nearly 4,000 State and local students in residence annually at the 
Emmitsburg, Maryland, facility, and another 2,600 at the Noble Training 
Center in Anniston, Alabama. Specific train-the-trainer courses are 
conducted for State and local officials for courses in the 
comprehensive exercise curriculum, the Homeland Security Planning 
course, the Hospital Emergency Response Team course, and also for the 
various courses in the radiological series of courses. These courses 
are part of the field training program and are delivered by State 
emergency management agency staffs for local disaster response 
personnel throughout the nation. In all, EMI makes available 102 
courses for delivery at the State and local level, with the majority 
having an all-hazards approach to disaster mitigation, preparedness, 
response, and recovery. State emergency management staff deliver these 
field training courses to other State agency personnel and local 
officials, in order to meet their respective training needs. Many of 
EMI's independent study courses are downloaded and taught in group 
classroom sessions by State emergency management agencies and/or local 
personnel, adding to the number of State and local personnel served. 
EMI also developed independent study courses that serve as the 
orientation and initial training for State and local officials to help 
implement HSPD-5 that requires all levels of government to use the 
National Incident Management System (NIMS) when responding to a 
disaster. More courses for delivery at the State and local level 
related to NIMS, and specifically the Incident Command System, are 
under development.
    Finally, the National Fire Academy, the center for the Nation's 
system of fire service training and education, conducts resident 
training at the National Emergency Training Center (NETC) facilities in 
Emmitsburg, Maryland; and uses the infrastructure and assets of all 50 
State fire training systems, 150 of the largest municipal fire 
departments, colleges and universities, and electronic distance 
education. The all-hazards curriculum is delivered through resident and 
off-campus classroom training in all 50 States, for-credit college 
courses and NETC virtual campus courses to more than 60,000 volunteer 
and career fire service students in fiscal year 2004. Performance 
measurement of the effectiveness of the training has been outcome-based 
since 1998.
    There are 11 curriculum areas: Executive Development, Management 
Science, Emergency Medical Services, Incident Management, Planning and 
Information Management, Hazardous Materials, Fire Investigation, Fire 
Prevention: Management, and Fire Prevention: Technical, Public 
Education and Training Management. The courses in all curriculum areas 
are open to both the career and volunteer fire service and allied 
professions (e.g. building officials).

There are seven principal curriculum delivery methods:

        <bullet> A resident program consisting of one and two week 
        courses.
        <bullet> A two-day course program in which each State receives 
        nine courses. Some States choose to have those courses 
        delivered on the NETC Campus and travel from as far away as 
        Florida and Wisconsin; other States choose to have their nine 
        delivered within the State. Each State choose their nine 
        courses from a menu of 32 different courses.
        <bullet> A Regional delivery program in which each of the ten 
        FEMA regions receives three one-week courses. Each region 
        chooses their three courses from a menu of 21 different 
        courses.
        <bullet> A college program in which 13 courses are distributed 
        to fire-degree granting colleges and universities.
        <bullet> Distance Education / technology based delivery.
        <bullet> Hand-off courses in which certain courses are 
        developed and handed-off to State fire training systems, and 
        150 largest fire departments. The 150 largest departments cover 
        most of the career personnel, while the State training system 
        trains the smaller career and volunteer departments.
        <bullet> Endorsed courses are courses which are developed by 
        State and local systems, peer-reviewed by evaluators from the 
        State and local systems, and if approved, are endorsed as NFA 
        courses. This allows the State and local system access to 
        courses that the NFA cannot develop, while at the same time, 
        giving national recognition and reciprocity to courses that 
        would otherwise be unavailable. This reduces the cost of course 
        development and course redundancy for State and local fire 
        training systems.

    Each year, the NFA sets aside four weeks, distributed throughout 
the year, solely for the delivery of courses to the volunteer fire 
service. Only members of the volunteer fire service are admitted, and 
the courses are designed specifically for that audience.

Please explain the approval process for how first responders and State 
and local governments may utilize Federal homeland security assistance 
to receive Federal-mandated terrorism preparedness training at State 
and local training institutions.

Response: States are no longer required to submit advance requests for 
personnel to attend certain Federal courses that fall within the SLGCP 
mission scope. States and Urban Areas simply report via the training 
section of the ODP website on all Federal training they are supporting 
with SLGCP funds. This information includes course title, level of the 
training, the training provider, the date of the course, the number of 
individuals to be trained, and the sponsoring jurisdiction.

    Several broad categories of courses are automatically included in 
the list of eligible Federal courses:
                <bullet> All National Incident Management System (NIMS) 
                training approved by the NIMS Integration Center (NIC) 
                is eligible for use of SLGCP funds.
                <bullet> All Incident Command System (ICS) training 
                offered through the National Fire Academy and the 
                Emergency Management Institute is eligible for use of 
                SLGCP funds. This guidance applies to resident 
                training, train-the-trainer, and field delivery of 
                courses.

    In conjunction with the release of fiscal year 2005 Homeland 
Security Grant Program guidance, SLGCP has published a list of eligible 
Federal courses that fall within its mission scope. The list is posted 
on the training section of the ODP website and is updated regularly as 
additional Federal courses become available.
    These courses must build additional capabilities that 1) meet a 
specific need identified through the homeland security assessment 
process, and 2) comport with the State or Urban Area Homeland Security 
Strategy.
    Federal funds must be used to supplement--not supplant--existing 
funds that have been appropriated for the same purpose. Thus, if the 
State or Urban Area has already budgeted for personnel to attend 
courses, SLGCP funds may only be used to send additional individuals 
above and beyond those previously budgeted.

Question: 3. What are the Department's plans for utilizing existing 
training facilities, expertise, and train-the-trainer networks that 
exist at the National Fire Academy and the Federal Law Enforcement 
Training Center to perform terrorism preparedness training?

Response: The National Fire Academy is one of three schools within DHS 
FEMA which also houses the Emergency Management Institute and Noble 
Training Center. All three schools have been actively engaged in 
performing terrorism preparedness as well as all hazards training.
    The National Fire Academy serves as a national center for fire 
service training and education. NFA also uses the infrastructure and 
assets of all 50 State fire training systems, 150 of the largest 
municipal fire departments, colleges and universities, and electronic 
distance education. Since September 11, 2001, the US Fire Academy has 
provided direct training for 50,000 first responders through its 
resident courses, and 450,000 trained through our off campus 
partnerships to include 275,000 through our ever-growing distance 
learning capabilities.
    The US Fire Administration has been instrumental in supporting the 
effort to quickly develop training in support of DHS's efforts to 
promulgate the National Incident Management System (NIMS), and the 
National Response Plan (NRP) nationwide.
    The Emergency Management Institute is the national focal point for 
emergency management training. During Fiscal Year 2004, EMI was 
combined with FEMA's newest training activity, the Noble Training 
Center in Anniston, Alabama. EMI created a new curriculum for Noble 
that was designed to prepare healthcare and public health officials to 
deal with mass casualty events caused by terrorism and other hazards. 
EMI offered 19 courses at Noble during fiscal year 2004 and will offer 
70 courses there in fiscal year 2005. . The majority of training 
offered in residence at EMI is designed to address an all-hazards 
approach, with the exception of the Integrated Emergency Management 
Course/Homeland Security, that uses various CBRNE scenarios as part of 
this exercise-based course. Additionally, the Homeland Security 
Planning course teaches state, local, and tribal officials how to 
develop planning annexes to deal with all CBRNE. EMI's field training 
program conducted by state emergency management agencies as well as the 
EMI's independent study program, reach a larger training audience with 
emphasis on all-hazard preparedness. At the Noble Training Center, the 
Healthcare Leadership course, the Hospital Emergency Response Training 
course, and the radiological series of courses conducted at Noble, all 
contain scenario activities dealing with response to chemical, 
biological, radiological, nuclear and explosive devices. Also at Noble, 
several offerings of the Integrated Emergency Management Course, 
designed for Metropolitan Medical Response Systems communities, are 
offered with a response to CBRNE emphasized in the training scenarios.
    The Federal Law Enforcement Training Center (FLETC) provides 
consolidated law enforcement training and services for eighty-one 
Partner Organizations, as well as numerous state, local and 
international entities and provides assistance to several military 
activities. FLETC staff is comprised of subject matter experts from 
each of these law enforcement agencies who are responsible for 
developing and delivering contemporary law enforcement training courses 
and programs, to include residential and export train-the-trainer 
programs. Through this collaborative network of agencies, the FLETC 
maximizes efficiency of resources and capitalizes on the expertise of 
its' Partner Organizations.
    More than a decade before the terrorist events of September 11, 
2001, the FLETC was providing terrorism awareness and preparedness 
training in all of the basic training programs, and had developed and 
delivered advanced and specialized programs to address mission specific 
needs. Since 9/11, the FLETC has optimized existing training facilities 
and utilized the multi-agency instructional cadre to expand and enhance 
current programs, and has developed new courses to meet the changing 
mission requirements of its' Partner Organizations. Nearly all of these 
agencies now have a stated mission to prepare, detect and prevent 
terrorist acts, both foreign and domestic. In fact, more than a dozen 
of these agencies now deploy their officers and agents into high risk 
environments around the world.
    The Department plans to continue to rely on the FLETC to coordinate 
the development and delivery of Anti- and Counterterrorism training 
facilities, programs and courses to prepare Federal law enforcement 
agents and officers to prevent and respond to terrorist events, foreign 
and domestic.
    Should OSLGCP serve as a one-stop-shop for first responders to 
attain terrorism preparedness courses offered by other Federal 
Departments or agencies, such as the Department of Energy, the 
Department of Justice, or the Department of Defense?

Response: OSLGCP is the principal component of the Department 
responsible for preparing the United States for acts of terrorism. In 
carrying out its mission, ODP is the primary office responsible for 
providing training, funds for the purchase of equipment, support for 
the planning and execution of exercises, technical assistance and other 
support to assist states and local jurisdictions to prevent, plan for, 
and respond to acts of terrorism.
    Because of ODP's experience and lasting presence in supporting 
State and local training, ODP should continue to work as a coordinating 
body for civilian terrorism preparedness training programs. This does 
not supplant the authority of other agencies to offer course, or work 
with their state and local stakeholders.
    ODP's role in the coordination of intra-Departmental training is 
based on collaboration, especially as ODP's training audience is 
external to the Department itself. ODP coordination occurs through the 
DHS Training Leaders Council and its subgroups facilitated by the Chief 
Human Capital Office as well as through TRADE. Established in early 
2001, the TRADE group is a forum for Federal departments and agencies 
to coordinate information on existing and developmental training 
related to terrorism and weapons of mass destruction. TRADE members 
include the Centers for Disease Control and Prevention, Technical 
Support Working Group, Department of Energy, Environmental Protection 
Agency, Federal Bureau of Investigation, Federal Emergency Management 
Agency (Emergency Management Institute and National Fire Academy), 
Federal Law Enforcement Training Center, Health and Human Services' 
Office of Public Health Emergency Preparedness, Health Resources and 
Services Administration, Information Analysis/Infrastructure 
Protection, Transportation Security Administration, and the United 
States Department of Agriculture (USDA) Animal Plant Health Inspection 
Service.
    Since its inception, the Emergency Management Institute and 
National Fire Academy have participated in this group and currently 
more than 30 courses developed by the Federal Emergency Management 
Agency are eligible for the use of ODP formula grant funds as reflected 
in the Fiscal Year 2005 grant guidance. Additionally, ODP is working 
cooperatively with the Emergency Management Institute on a web-based 
revision of an existing exercise design and development course. ODP is 
also working with the Information Analysis and Infrastructure 
Protection directorate to provide a web-based pilot capability of its 
Workforce Antiterrorism Awareness/Prevention course. Additionally, ODP 
is represented on the advisory committee for the Federal Law 
Enforcement Training Center (FLETC) National Center for State and Local 
Law Enforcement Training. Through ODP's sister organization, the Office 
of State and Local Government Coordination, there are also staff 
members assigned for liaison and coordination with each directorate 
within DHS not only for training, but for cross-cutting issues. 
Finally, through the implementation process associated with HSPD-8, ODP 
engages in regular coordination with other intra-departmental 
organizations such as the NIMS Integration Center and the Headquarters 
Operational Integration Staff.

Exercises
Question: 1. How will TOPOFF III incorporate new national initiatives 
required in HSPD-5 and HSPD-8, such as the National Response Plan, the 
National Incident Management System, and the National Preparedness 
Goal?

Response: TOPOFF 3 provides an extraordinary opportunity for planners 
and senior officials to internalize and use the newly released NRP and 
provides the first national level opportunity to validate NIMS in an 
exercise environment. One principal objective of the TOPOFF exercise 
series is to provide a realistic scenario against which Top Officials, 
at all levels of government, can test their plans, procedures, and 
policies in response to an incident of national significance. The T3 
Scenario is predicated on the concepts and procedures in the National 
Response Plan (NRP) and National Incident Management System (NIMS). The 
NRP and NIMS will be the standard used to evaluate overall response to 
the incident. Subsequently, exercise participants will be evaluated 
against their understanding and implementation of these national 
guidance documents. Recommendations and lessons learned, reflected in 
the T3 After Action Report/Improvement Plan, will help determine any 
necessary revisions or enhancements to the NRP, NIMS. Deficiencies and 
gaps identified in the AAR/IP should be addressed through additional 
training, planning and equipment acquisition, which will support the 
intentions of the National Preparedness Goal.
    Additionally, it should be noted that both the NRP and the NIMS 
address involvement of the private sector in all planned responses. To 
this end, the private sector engagement in TopOff 3 is an important 
initiative and substantially broadens the effectiveness of such 
national exercises. Further, it sets the right examples for state and 
local government in the planning and conduction of their training and 
exercise events.Sec. 

Question: What standards are the participants being evaluated against 
in this exercise?

Response: Federal, State and local officials will be evaluated against 
their respective plans, policies and procedures. From a national 
perspective, the NRP and NIMS protocols will be used as standards for 
participant response to the scenario. State and local jurisdictions 
will validate their respective plans and regulations (e.g., Continuity 
of Operations, OSHA regulations, local Standard Operating Procedures, 
etc.) during response. Trained Data Collectors will be using Exercise 
Evaluation Guides (EEGs) from the Homeland Security Exercise and 
Evaluation Program (HSEEP) to evaluate participant response against 
prescribed tasks in the EEGs. For example, one of the many EEG tasks 
(Task# VI-2) describes `Conduct for Search and Rescue Operations' and 
lists the steps that ideally would be performed to accomplish this 
task.

Who established those standards and were they agreed upon by 
participants--particularly down to the local responder level?

Response: Throughout the planning process for T3, Federal, State and 
local partners used their existing plans, policies and procedures as a 
basis for the standard to which participants will be evaluated against 
during the exercise. The tasks contained in the HSEEP EEGs, which are 
used to evaluate the standards against, were vetted by Subject Matter 
Experts comprised of Federal, State and local officials. These tasks 
are written to be applicable to not only Federal and State levels, but 
local levels as well. For example search and rescue operations are 
performed at all levels.

How will the participants know, based on their performance, whether 
they are performing to an established standard or not?

Response: The After Action Report/Improvement Plan is an analysis of 
the participants' response to the standards prescribed in the plans, 
procedures and protocols used during the design and conduct of the 
exercise. The AAR/IP will identify the responders' compliance with 
those standards, recognizing that a wide range of factors affect 
performance.

If there are no established or agreed upon standards upon which to base 
performance, on what measures will the after-action report be based?

Response: The TOPOFF After Action Report (AAR) is based upon how well 
stated objectives are met and how effectively each agency or 
organizations' plans, policies and procedures were executed and if 
those plans are effective, as written. As stated in answers above, the 
observations and recommendations contained within the AAR identify and 
analyze the participants' response using established plans, policies 
and procedures (e.g., NRP, NIMS, State and local SOPs). Each 
observation and recommendation within the AAR is tied to a task within 
the Exercise Evaluation Guides utilized by Data Collectors to evaluate 
the response to those standards.

Question: 2. Please explain how DHS will amend or update the NRP, NIMS, 
and/or NPG in response to outcomes from the completed exercise?

Response: DHS will use the Secretary's Remedial Action Program 
(SecRAMP) to specifically identify areas that need improvement and 
assign agencies to incorporate changes to these plans and policies 
(NRP, NIMS and NPG).

Will the Department solicit the input of Federal partners, State and 
local governments, and first responders?

Response: Yes. Through the planning and conduct of the exercise, the 
individual responder and discipline debriefings, and the After Action 
and Improvement Planning Conference, input will be solicited and 
incorporated into the final report. The draft AAR/IP will be 
disseminated to all participating agencies and their respective 
feedback will be incorporated into a revised final AAR/IP.

What actions will OSLGCP perform to assist first responders and 
government officials to incorporate the designs, techniques, scenarios, 
and lessons learned from TOPOFF III and other exercises?

Response: SLGCP will utilize various forums to incorporate the designs, 
techniques, scenarios and lessons learned from all exercises it 
conducts, including the TOPOFF exercise series. Currently SLGCP takes 
innovative exercise designs and scenarios and places them within its 
Secure Portal as part of the Homeland Security Exercise and Evaluation 
Program (HSEEP) Volume IV. The HSEEP reference manuals deliver an 
exercise program that helps address identified planning, training, and 
equipment needs and provides homeland security professionals with the 
tools to plan, conduct, and evaluate exercises to improve overall 
preparedness. The four volumes include:

    HSEEP Volume I: Overview and Doctrine provides requirements and 
guidance for the establishment and maintenance of a homeland security 
exercise program.
    HSEEP Volume II: Exercise Evaluation and Improvement offers proven 
methodology for evaluating homeland security exercises and implementing 
an improvement program.
    HSEEP Volume III: Exercise Program Management and Exercise Planning 
Process helps planners establish an exercise program and outlines a 
standardized design, development, conduct, and evaluation process 
adaptable to any type of exercise.
    HSEEP Volume IV: Sample Exercise Documents and Formats provide 
sample exercise materials referenced in HSEEP Volumes I-III. These 
materials are available on a secure Web-based portal.

    In an attempt to standardize the language and concepts that have 
been adopted and used by various agencies and organizations in the 
exercise planning process, ODP ensures consistent use of the 
terminology and processes described in HSEEP. Whereas the focus of DHS/
ODP-sponsored exercises is on terrorism/WMD, the HSEEP series of 
reference volumes also can be adapted to a variety of scenarios and 
events (e.g., natural disasters, terrorism, technological calamities). 
The intent of HSEEP is to provide a common process, consistent 
terminology, and a program that is practical and flexible enough for 
all exercise planners, whatever their sponsoring agency or organization 
may be.
    Exercises and the resultant After Action Reports (AARs) and 
improvement plans not only provide lessons for exercise participants, 
they also offer a valuable source of information that can be analyzed 
at the national level to identify lessons learned and best practices 
that can be shared to enhance preparedness across the country. Lessons 
learned encompass knowledge and experience (positive and negative) 
derived from observations and historical study of actual operations, 
training, and exercises. Best practices encompass peer-validated 
techniques, procedures, and solutions that work and are solidly 
grounded in actual experience in operations, training, and exercises. 
Exercise AARs should identify lessons and highlight exemplary 
practices, and are submitted to DHS/ODP for inclusion in the lessons 
learned/best practices Web portal (www.llis.gov), which serves as a 
national network for generating, validating, and disseminating lessons 
learned and best practices.
    With support and oversight from DHS/ODP, the National Memorial 
Institute for the Prevention of Terrorism (MIPT) in Oklahoma City has 
developed this secure Web-based network of peer-validated best 
practices and lessons learned. This network, known as Lessons Learned 
Information Sharing (LLIS), is designed to help emergency responders, 
homeland security officials, and healthcare professionals learn from 
each other and share information. LLIS offers access to a wide variety 
of original best practices and lessons learned, developed in 
consultation with frontline emergency responders and validated by 
emergency response and homeland security professionals. This network 
also assists these professionals on lessons learned on exercise design 
and conduct from all levels of exercises, from the TOPOFF series to 
State and local exercises.

Question: 3. The intent of the National Exercise Program (NEP) is to 
facilitate the integration and coordination of the vast number of 
exercises being conducted at all levels of government to ensure 
standardization of procedures, minimize of resource waste, and 
implement a more efficient and effective use of participants and 
critical resources. What is the status of the NEP?

Response: The NEP is currently being executed with multiple ongoing and 
concurrent efforts. The TOPOFF 3 Full Scale Exercise (T3 FSE) will be 
conducted April 4-10, 2005, to be closely followed by the TOPOFF 3 
Large Scale Game, devoted to long-term recovery operations and issues 
relative to the T3 FSE scenario. Senior Officials Exercises are also 
ongoing, with multiple iterations in work, each devoted to a specific 
national-level response challenge. The NEP has developed a National 
Exercise Schedule and is in the process of adapting a DOD software 
program (Joint Training and Information Management System--JTIMS) to 
provide a comprehensive, on-line data management system that will 
improve exercise scheduling, planning, execution, and reporting. In 
June 2004, SLGCP conducted the first interagency scheduling conference 
to obtain inputs regarding planned exercise activities from across the 
Federal government. This initial effort will be followed up by a 
subsequent conference in June 2005 to further consolidate exercise 
schedules from numerous agencies at all levels of government. An 
effective foundation has been developed for the NEP and has thus far 
realized tremendous returns on investment and will continue to evolve 
and grow. In addition, the foundation for NEP's policy and doctrine, 
the Homeland Security Exercise and Evaluation Program (HSEEP), has been 
finalized, adopted by all 56 State and territories, and endorsed by 
several Federal partners (i.e., FEMA, CDC, TSA, IAIP, etc.) as a 
standardized policy and guidance for designing, developing, conducting 
and evaluating exercises.

Is the NEP to be a consolidated program with a unified structure and 
oversight or is it to be a series of individual initiatives?

Response: The National Exercise Program (NEP) is a consolidated program 
with unified structure and oversight, consisting of preparedness 
related exercises. The NEP reinforces identified training standards and 
provides an evaluation of readiness. The NEP is comprised of the TOPOFF 
exercise series, Senior Official Exercises, the National Exercise 
Schedule and will grow in scope to support exercises at all levels of 
government. A primary intention of the NEP is to provide common 
doctrine and methodology through the Homeland Security Exercise and 
Evaluation Program to key homeland security stakeholders with exercise 
responsibilities and has been very successful in this regard. As can be 
expected, the NEP is still in its infancy and will take some time 
before all intended stakeholders are fully integrated into the 
procedural framework of the NEP.

Is the NEP envisioned to be a series of TOPOFF exercises or something 
more comprehensive?

Response: The NEP encompasses the entire exercise program that SLGCP 
administers. The NEP is being utilized to further integrate exercise 
schedules, activities, terminology, and methodology throughout the 
Nation at all levels of government (i.e., Federal, State and local). 
Although the NEP was founded on experiences from managing the TOPOFF 
program, it it's focus is now broader, supporting Senior Officials 
Exercises, National Security Special Events exercises, the National 
Exercise Calendar, the Homeland Security Exercise and Evaluation 
Program, the Prevention and Deterrence Exercise Program, other 
national-level exercises, a remedial action program, Cross-Border 
(International) exercises, as well as the integration of other legacy 
exercise program content.

Question: 4. ODP issued and then pulled a Request for Proposal (RFP) 
that was seeking extensive contract support related to the NEP. What 
happened? When, if ever, will ODP reissue the RFP?

Response: The initial procurement attempt for the NEP was challenging 
in multiple respects. This was to be the most comprehensive and 
progressive exercise program for civilian development and 
implementation in recent history. The focus of the NEP was to be 
national in scope, however, the NEP also had to be responsive to local 
and State level government needs and priorities, as well as Federal 
government needs and priorities. As this was an unprecedented 
initiative and maintained the highest levels of potential consequence 
(positive and negative) regarding decisions made by government leaders, 
criteria for choosing industry partners had to be very deliberate and 
very effective. The difficulties culminated during a protracted 
procurement process during which numerous communications and ongoing 
reviews failed to yield a proposal that was agreeable to both GSA and 
ODP. During this entire process, demands for coordination of NEP 
activities continued to mount, leading to decision to set aside the 
action in favor of an interim award, while a comprehensive overhaul of 
the full NEP proposal was undertaken.
    While simultaneously executing the fiscal year 2004 and now fiscal 
year 2005 NEP activities, ODP has been preparing to initiate a 
subsequent procurement action, sanctioned through the Department of 
Homeland Security procurement system that will broaden the focus of the 
NEP proposal to encompass support required for all SLGCP Exercise 
Division activities, combining them into a single, competition driven 
model. In this new construct more vendors will be able to participate 
in NEP procurement activities. Much was learned from the first attempt 
at procuring services for the NEP and ODP has great confidence that 
with the support of DHS procurement and cooperation from the vendor 
community, NEP services will be procured for the long-term and with 
appropriate expertise levels in calendar year 2005.

Question: 5. Other than the TOPOFF series, what other exercises will 
OSLGCP be involved in or provide assistance to?

Response: SLGCP is involved in many other exercises other than the 
TOPOFF series. Since March, 2001, SLGCP has been in involved in over 
400 exercises, mostly delivered at the State and local level. SLGCP 
will continue to deliver exercises to all 56 States and territories 
through its Direct Support program.

    Other exercises OSLGCP will be involved with include:
    Senior Officials Exercises: A Senior Officials Exercise (SOE) is 
designed to validate policies or procedures, develop concepts or focus 
issues, or rehearse for specific events, at the policy level. (The 
policy level may include principals, deputies, senior department/ 
agency management, or combinations thereof.) DHS/ODP will design and 
logically execute SOEs as deemed necessary by senior leaders at DHS, 
the Homeland Security Council (HSC), or other agencies.
    National Special Security Events: The Federal government designates 
certain events as requiring special security because of their high 
visibility and potential attractiveness to threat elements. DHS/ODP 
provides support for designing, planning, conducting, and evaluating 
exercises in preparation for designated National Special Security 
Events (NSSEs) such as the 2002 Winter Olympic Games in Salt Lake City. 
These exercises provide a forum to practice the coordination and 
response to specific challenges that could arise if a terrorist 
incident occurred during the event.
    International Exercises: Participation in regional and 
international exercises is a crucial aspect of emergency preparedness 
for many communities across the country. From Seattle and Vancouver to 
San Diego and Tijuana, communities need to plan with their neighbors 
for emergencies that cross State or national borders. Terrorist 
incidents do not stop at political borders, and neither should 
preparedness activities. Interstate and international resources should 
be incorporated into plans and used as appropriate. In some locales, 
such as in the Pacific Islands, international assistance is the closest 
available mutual aid. Communities should familiarize themselves with 
the resources available from potential regional and international 
partners and share their response concepts and standard/emergency 
operating procedures (SOPs/EOPs) with these groups. To date OSLGCP has 
conducted five exercises with Canada with the states of Vermont, Maine, 
Minnesota, Ohio, and Alaska, with more scheduled for fiscal year 2005.

How does DHS integrate all the various exercise programs across the 
U.S. government down to and including the local levels?

Response: The U.S. Department of Homeland Security, Office for State 
and Local Government Coordination and Preparedness (DHS/SLGCP) 
implemented the Homeland Security Exercise and Evaluation Program 
(HSEEP) to assess and enhance terrorism prevention, response, and 
recovery capabilities at the Federal, State, and local levels. The 
HSEEP is a threat and performance-based exercise program that helps 
shape the policies that govern the planning, execution and evaluation 
of exercises. The HSEEP employs exercise activities of varying degrees 
of complexity and interaction. In addition, the HSEEP is flexible 
enough to be used with exercises other than just terrorism based 
scenarios.
    HSEEP has been in place since March of 2003 and is being used in 56 
states and territories as required by the State Homeland Security Grant 
Program. As part of this requirement, states use a portion of their 
grant money in establishing and conducting exercises. They are required 
to use HSEEP in order to qualify for the grants. As a result, all 
states and territories are conversant with HSEEP and its requirements.
    HSEEP has been endorsed and adopted by several other Federal 
agencies, such as the Transportation Security Administration (TSA), the 
Department of Homeland Security (DHS), Information Analysis and 
Infrastructure Protection (IAIP) Directorate, Centers for Disease 
Control and Prevention (CDC), and Strategic National Stockpile (SNS). 
Other agencies are incorporating HSEEP into their current methodology 
and training, including the Federal Emergency Management Agency. The 
HSEEP methodology is also going to be taught at the Federal Emergency 
Management Agency's Emergency Management Institute, through their 
Master Exercise Practitioner Program. As a result, all exercise design 
courses available through DHS will be in line with the HSEEP doctrine. 
HSEEP standardizes the language and concepts that have been adopted and 
used by various agencies and organizations in the exercise planning 
process, and ensures consistent use of terminology and methodology. 
This is consistent with the National Response Plan (NRP) and the 
National Incident Management System's (NIMS) goals.
    DHS, along with State, local, tribal and Federal partners, utilizes 
a secure but unclassified on-line exercise scheduling tool (the 
National Exercise Scheduling System, or NEXS) and many participants 
have begun to use NEXS to schedule activities. The system supports 
scheduling of activities for state and local exercise programs, 
ensuring Federal, state and local exercises can be jointly reviewed for 
opportunities to consolidate activities and integrate objectives. Over 
the course of the next two years, program participants will forge 
consensus on a standardized schedule and annual level of effort. This 
will eliminate the problem of multiple exercises competing for 
participation, resources, and management attention.

Do you have the resources capable to do this and, if the NEP is not in 
place as envisioned, when<greek-th> you intend to have such resources 
in place?

Response: The NEP has resources in place to effectively move toward 
addressing the needs of a truly comprehensive national program for 
homeland security exercises. DHS/ODP is also coordinating with other 
Federal exercise programs (e.g., Transportation Security 
Administration, FEMA, CDC, etc.) to ensure efforts are not duplicated 
and resources are shared to meet the ultimate goal of an integrated 
program. Just as training is a vital responsibility for operational 
agencies at every level of government, they must be willing to allocate 
time and resources to engage in exercises as well.
Interoperable Communications
Question: 1. To what extent do homeland security grant guidelines 
incorporate standards and requirements set forth by the Office for 
Interoperability and Compatibility and its SAFECOM Program?

Response: Our coordinated grant guidelines incorporate these standards 
and requirements by outlining eligibility for grants and the purposes 
for which grants may be used. We also have issued guidelines for 
implementing a wireless communication system. These are intended to 
help maximize the efficiency with which funds for public safety 
communications are allocated and spent. To ensure consistency in 
interoperability grants solicitations, this guidance was incorporated 
in the Department of Justice's Community Oriented Policing Services 
(COPS) and Department of Homeland Security's Federal Emergency 
Management Association (FEMA) grants in fiscal year 2003, the COPS 
Interoperability grants in fiscal year 2004, and the Office for 
Domestic Preparedness (ODP) guidance for its state block grants in 
fiscal year 2004. SAFECOM guidance will also be included in the 
guidance for both the COPS Interoperability grants and ODP grants in 
fiscal year 2005. The Administration is strongly committed to ensuring 
that all communications-related grant programs use SAFECOM grant 
guidance, and that grantees are held accountable for compliance.

Are grants for interoperable communications coordinated with assistance 
provided by the S&T Directorate through RAPIDCOM, SAFECOM, or other 
pilot projects and programs?

Response: In addition to SAFECOM's guidance for grant solicitations, 
the Office for Interoperability and Compatibility (OIC) now offers 
guidance and a set of best practices for technical assistance. These 
will help develop curricula for interoperable communications technical 
assistance. SAFECOM will also incorporate lessons learned from RapidCom 
into the technical assistance guidance for all interoperable 
communications. However, the sheer number of interoperability projects 
funded by DHS each year makes direct coordination on each grant 
impracticable. If grantees request technical assistance, both SAFECOM 
and ODP can provide more detailed coordination.

First Responders Technologies
Question: 1. How does the Department coordinate the establishment of 
priorities for technology development and procurement between OSLGCP 
and the S&T Directorate's Centers of Excellence, ORD, HSARPA, Federally 
Funded Research Centers, and Federal Labs?

Response: Priorities for research and development for the S&T 
Directorate are established using a risk-based approach and is oriented 
toward identifying critical capability gaps before attempting to 
identify or develop technology solutions. In developing solutions, the 
process engages the end-user throughout requirements definition, 
development, testing and transition. The process considers the product 
life cycle from the outset, including planning and budgeting for 
production, deployment, operations and support. It is this process 
which allows us to prioritize both within and across fields. The Office 
of State and Local Government Coordination and Preparedness, as well as 
all the organizational elements of the Department, are heavily involved 
in the S&T Directorate's process--formally through the Science and 
Technology Requirements Council (SRC) and informally through frequent 
interactions at the staff level.
    Within the S&T Directorate, the Office of Plans, Programs and 
Budgets manages and executes the planning, programming and budgeting 
system (PPBS) cycle for the Directorate. It sets short-, mid-, and 
long-range goals aimed at achieving the needs set out by the 
Administration. These goals include, for example, countering the threat 
of weapons of mass destruction and addressing the needs of customers in 
the operational Directorates in the Department and of state and local 
entities. Functionally, leadership from all of our executing Offices--
HSARPA, ORD and SED--participates actively in the PPB process through 
the integrated product teams (IPTs). These IPTs are integral to the 
planning process. The IPTs for each portfolio work as a team to 
determine their mission space, their strategic goals for the next five 
years, and a list of prioritized deliverables.
    Research and development priorities as well as funding levels for 
ORD (including the Centers of Excellence and Federal Labs), HSARPA, and 
SED determined through our IPT process and are dependent on where the 
best expertise is found to conduct the RDT&E that will most effectively 
meet the Department's mission to ensure the safety of the nation.

To what extent, if any, does the S&T Directorate utilize threat 
assessment and vulnerability analysis in determining R&D priorities?

Response: The S&T Directorate's research, development, testing and 
evaluation (RDT&E) process uses a risked-based approach to planning and 
is oriented toward identifying critical capability gaps before 
attempting to identify or develop technology solutions. It is this 
process which allows us to prioritize both within and across fields.
    The RDT&E process consists of four main sub-processes: 1) needs and 
risk assessment, 2) strategic planning, 3) program definition, and 4) 
program execution. The first two sub-processes ensure that the Science 
and Technology Directorate considers user needs, available 
intelligence, big-picture risks, national goals and inputs from other 
external agencies and advisory bodies to establish its annual RDT&E 
program. The second two sub-processes provide a framework for program 
execution using the best available systems engineering and program 
management techniques.
    Within many critical infrastructure sectors, the IAIP Directorate's 
vulnerability assessment efforts will lead directly to the 
identification of technology and capability gaps. This gap 
identification process will, over time, help drive R&D requirements 
that the S&T Directorate will address.

Question: 2. To what extent does OSLGCP utilize the S&T Directorate's 
Technology Clearinghouse when distributing technical assistance, best 
practices, and grant guidance to State and local governments?

Response: S&T has not established a clearinghouse that is useful for 
ODP information dissemination purposes. Several years ago, ODP 
established the Responder Knowledge Base (RKB) at the Memorial 
Institute for the Prevention of Terrorism (MIPT) which ODP uses to 
disseminate information about standards, equipment, and to announce the 
Commercial Equipment Direct Assistance Program (CEDAP). Physical 
transfer of commercial equipment is the responsibility of ODP CEDAP 
managers. S&T was consulted regarding technology for possible 
incorporation into CEDAP, as were other organizations in government 
that develop technology. Moreover, information ODP collects about how 
well commercial technologies work in practical, small, rural law 
enforcement and first responder agencies will be reported back to S&T 
for incorporation in their development programs. ODP also collaborated 
with and funded MIPT to develop and host the website on best practices 
called Lessons Learned Information Service (LLIS). LLIS contains 
information contained in after action reports and reviews written 
following major exercises. ODP releases information about grants via 
their grants.gov. website.

What mechanisms does the Department utilize to identify and transfer 
available and developing technologies for use by first responders?

Response: Overall, the Department has made great strides in leveraging 
work that has already been or is being done to identify, develop and 
transfer technologies to first responders. Nowhere is this more evident 
than in the relationship that has been forged between the Science and 
Technology Directorate (S&T) and the Office for Domestic Preparedness 
(ODP). In April 2001, under the sponsorship of ODP, the Memorial 
Institute for the Prevention of Terrorism (MIPT) began an effort aimed 
at improving local, state, and federal emergency responder capabilities 
for mitigating the effects of terrorism. In April 2004, MIPT published 
the results of this in the National Technology Plan for Emergency 
Response to Catastrophic Terrorism. Through their production of this 
report, twelve terrorism response objectives were identified and the 
technology capabilities required to address these objectives were 
explored in the report. This report has served as an excellent 
foundation for S&T's work to initiate research and development in this 
area. S&T has continued the good work started by ODP and MIPT and 
continues to build upon the Project Responder process by drilling down 
within these objectives to identify specific technologies that will 
provide needed capabilities and by expanding the work to include 
technologies to enhance training and exercise for large scale 
incidents. S&T has already solicited proposals for several of these 
areas that will begin the effort to address some of the most critical 
needs.
    Another component of the MIPT work is the Responder Knowledge Base 
(RKB), currently supported by ODP. The RKB provides a much-needed 
screening tool for responders to access information pertaining to 
commercially available equipment. The RKB allows queries by first 
responders to determine the suitability of equipment to their needs 
including technical specifications, compliance with relevant standards, 
and applicable grants programs. The RKB also provides a very robust 
forum for exchanging information between responders on how well a 
particular piece of equipment performs. S&T and ODP are working 
together to create a partnership between the Technology Clearinghouse 
and the RKB to further leverage this valuable resource.
    S&T has also incorporated work of the National Institute of 
Justice, the Department of Defense, Department of Energy, and other 
federal agencies in the overall development of its research strategy 
for first responders. For example, S&T captured the needs identified by 
the NIJ in their report ``First Responder Needs Assessment.'' and the 
recently released report by FEMA on Urban Search and Rescue 
requirements.

    DHS is also a strong supporter and sponsor of the Interagency Board 
for Equipment Standardization and Interoperability (IAB) The scope of 
the IAB includes:
                        <bullet> Identifying and prioritizing CBRNE 
                        incident response equipment requirements
                        <bullet> Encouraging manufacturers, 
                        governmental, military, and private agencies to 
                        sponsor research, development, test and 
                        evaluation programs to satisfy local, state, 
                        and federal CBRNE requirements
                        <bullet> Providing assistance and/or guidance 
                        to agencies, associations, and manufacturers, 
                        for operational testing of new and emerging 
                        CBRNE response technologies

    S&T continues to host numerous workshops, conferences and focus 
groups including Federal, state, and local emergency responders, as 
well as participate in a variety of activities dealing with first 
responder needs sponsored by ODP, the Department of Energy, the Office 
of the Federal Coordinator for Meteorology and other federal agencies.
    Through the creation of S&T Requirements Council, S&T has reached 
out to DHS senior management at the Assistant Secretary level, to 
provide a forum for all DHS components to voice the technology 
capability needs of their respective constituencies. This allowed the 
DHS components to use their ongoing relationships and traditional 
stakeholder venues to gather these technology requirements and provide 
them, through a prescribed process which included prioritization, to 
S&T for programming and budgeting processes.

What role do the end-users (i.e., other Directorates and offices within 
the Department as well as first responders) play in identifying needs 
and modifications of potential homeland security technologies?

Response: The S&T Directorate considers the operational components of 
the Department as its customers. To ensure the Directorate meets 
customer needs, the S&T Directorate has established the Science and 
Technology Requirements Council (SRC) to bring forward a set of vetted 
needs from the entire Department. This is an Assistant Secretary level 
committee with representation from across DHS that has been chartered 
to assist in the solicitation, validation, and prioritization of all 
science and technology requirements. The council includes 
representation from the Office of State and Local Government 
Coordination and Preparedness to ensure that state and local needs are 
being met. This council is intended to help the S&T Directorate 
identify those needs most crucial to the DHS mission and to develop the 
most effective S&T program possible using existing resources. As part 
of their mission, the SRC reviews DHS operational requirements and 
needed capabilities that require S&T solutions, and identifies those 
opportunities that have cross-cutting technology solutions. Prioritized 
Departmental needs are then presented to me as a recommendation for 
consideration, in conjunction with all externally derived S&T 
requirements (e.g., statutory, national guidance), for inclusion in the 
S&T Directorate's Planning, Programming, and Budgeting Cycle Guidance.
    The inaugural meeting of the SRC took place September 30, 2004, and 
was attended by representatives from Border and Transportation Security 
(BTS), Emergency Preparedness and Response (EP&R), Information Analysis 
and Infrastructure Protection (IAIP), the Office of Domestic 
Preparedness (ODP), U.S. Citizenship and Immigration Service (CIS), 
U.S. Coast Guard (USCG) and U.S. Secret Service (USSS). Our initial 
meeting resulted in new requirements and a validation of the needs that 
our portfolios had already identified through their interactions with 
the rest of the Department. It further served to bring together the 
many disparate groups from across DHS and facilitated a new dialogue 
that will be necessary to produce a successful S&T RDT&E program. The 
input we received at the September 30, 2004, meeting was used to adjust 
the fiscal year 2006 budget request and is currently being integrated 
into our fiscal year 2007-2011 Planning, Programming and Budgeting 
cycle.

How does the Department identify and evaluate military technologies for 
possible homeland security purposes?

Response: The Department is often asked about the transfer of 
technologies between Departments, specifically between DHS and DoD. The 
Science and Technology Directorate is very concerned about technology 
transfer. Under the fiscal year 2003 DOD Authorization Act, Section 
1401, DOD is working with DHS and DOJ to identify and transfer military 
technology relevant to Federal, State, and local responders.
    Section 1401 of Public Law 107-314 is entitled, ``Transfer of 
Technology Items and Equipment In Support Of Homeland Security.'' It 
tasks the Secretary of Defense to coordinate all DOD efforts to 
``identify, evaluate, deploy, and transfer to Federal, State and local 
first responders technology items and equipment in support of homeland 
security.
    Fourteen representatives from DOD, DOJ and DHS met on December 8, 
2004 to initiate work on executing the intent of the Congress. Among 
many other conclusions and recommendations, the representatives agreed 
on the importance of firm commitment to this process, constructed a 
nominal timeline for technology related events, began work on the 
design of the transfer process (e.g., that it must be two-tracked, one 
for research and development, the other for technology items already 
developed and in production) and most importantly, outlined the major 
features of a compliant technology transfer process. They initially 
assigned responsibilities for process ownership. An MOU formalizing the 
important steps of this process is expected to be ready for signature 
in the summer of 2005.
    Often, technology developed for one purpose, such as a military 
application, cannot be transferred in a straightforward manner to civil 
operations. The requirements for maintenance and support, for 
performance, and for total cost of ownership often inhibit such 
transfers. Although the basic scientific principles that underpin a 
particular technology may be leveraged, nevertheless significant re-
engineering is required to make the technology suitable for homeland 
security purposes.
    DHS S&T has an established relationship with the Technology Support 
Working Group that represents eight government agencies with similar 
tasks, technology requirements and goals. HSARPA continues to monitor 
some of the more than 90 projects from the first joint DHS/TSWG BAA 
which closed in June, 2003. DHS provided $60M [$30M in fiscal year 2003 
and $30M in fiscal year 2004] to fund the most meritorious proposals. 
Our personnel participate in the requirements setting working groups 
and the Director, HSARPA is a member of the TSWG Executive Committee 
which allows any redundancy to be identified. DHS S&T will continue to 
fund [$12M in fiscal year 2005] proposals of mutual benefit and 
interest to DHS and TSWG members.
    Other issues associated with transferring technologies to the 
homeland security operating environment include the need for ease of 
operations, extremely low total cost of ownership, providing liability 
relief, providing incentives for non-federal actors to purchase useful 
technologies, developing and promulgating standards and providing 
technical assistance to aid those purchasers in their procurement 
decisions. While the Department has made tremendous progress in all 
these areas, much remains to be done, and sustained effort is needed.

                                 <all>

</pre></body></html>
